<html>
<title> - NOMINATIONS OF BRIAN D. MILLER AND DANA WADE</title>
<body><pre>[Senate Hearing 116-318]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-318

 
              NOMINATIONS OF BRIAN D. MILLER AND DANA WADE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                            NOMINATIONS OF:

   BRIAN D. MILLER, OF VIRGINIA, TO BE SPECIAL INSPECTOR GENERAL FOR 
             PANDEMIC RECOVERY, DEPARTMENT OF THE TREASURY

                               __________

  DANA WADE, OF THE DISTRICT OF COLUMBIA, TO BE ASSISTANT SECRETARY, 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                               __________

                              MAY 5, 2020

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban Affairs
                                


                Available at: https: //www.govinfo.gov /
                
                
                
                           ______                       

             U.S. GOVERNMENT PUBLISHING OFFICE 
42-247 PDF           WASHINGTON : 2021                 
                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      JACK REED, Rhode Island
TIM SCOTT, South Carolina            ROBERT MENENDEZ, New Jersey
BEN SASSE, Nebraska                  JON TESTER, Montana
TOM COTTON, Arkansas                 MARK R. WARNER, Virginia
MIKE ROUNDS, South Dakota            ELIZABETH WARREN, Massachusetts
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              DOUG JONES, Alabama
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
KEVIN CRAMER, North Dakota           KYRSTEN SINEMA, Arizona

                     Gregg Richard, Staff Director

                Laura Swanson, Democratic Staff Director

                     Catherine Fuchs, Chief Counsel

                Brandon Beall, Professional Staff Member

                       Matt Jones, Chief Counsel

                 Elisha Tuku, Democratic Chief Counsel

           Corey Frayer, Democratic Professional Staff Member

           Megan Cheney, Democratic Professional Staff Member

                      Cameron Ricker, Chief Clerk

                      Shelvin Simmons, IT Director

                    Charles J. Moffat, Hearing Clerk

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                          TUESDAY, MAY 5, 2020

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    39

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     3
        Prepared statement.......................................    40

                                NOMINEES

Brian D. Miller, of Virginia, to be Special Inspector General for 
  Pandemic Recovery, Department of the Treasury..................     7
    Prepared statement...........................................    42
    Biographical sketch of nominee...............................    43
    Responses to written questions of:
        Senator Brown............................................    58
        Senator Reed.............................................    62
        Senator Menendez.........................................    62
        Senator Warren...........................................    63
        Senator Van Hollen.......................................    70
        Senator Cortez Masto.....................................    71
        Senator Sinema...........................................    74
Dana Wade, of the District of Columbia, to be Assistant 
  Secretary, Department of Housing and Urban Development.........     7
    Prepared statement...........................................    50
    Biographical sketch of nominee...............................    52
    Responses to written questions of:
        Senator Brown............................................    75
        Senator Menendez.........................................    86
        Senator Tester...........................................    88
        Senator Warren...........................................    91
        Senator Van Hollen.......................................    93
        Senator Cortez Masto.....................................    94
        Senator Sinema...........................................    95

              Additional Material Supplied for the Record

Letter of regret from Senator Tom Cotton.........................    96
Letters of support for nominee Brian D. Miller...................    97
Letter of support for nominee Dana Wade..........................   144

                                 (iii)


              NOMINATIONS OF BRIAN D. MILLER AND DANA WADE

                              ----------                              


                          TUESDAY, MAY 5, 2020

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 2:31 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    Since this is our first hybrid hearing, a brief explanation 
of how it will work will benefit Senators and the public.
    The hearing room has been configured to maintain the 
recommended 6-foot social distancing between Senators, 
nominees, and other individuals in the room necessary to 
operate the hearing, which we have kept to a minimum.
    A number of Senators have chosen to use secure video 
teleconference technology, which will allow them to remotely 
participate.
    For those joining by video conference, once you start 
speaking, there will be a slight delay before you are displayed 
on the main screen.
    To minimize background noise, we ask Senators who are using 
the video conference option to please click the mute button 
until it is your turn to ask questions.
    If there is a technology issue, we will move to the next 
Senator until that issue is resolved.
    I remind all Senators and the nominees that the 5-minute 
clock still applies.
    For Senators using the video option, you will notice a 
screen labeled ``clock'' that will show how much time is 
remaining.
    At about 30 seconds remaining, I will gently tap the gavel 
to remind Senators that their time has almost expired.
    To simplify the speaking order, Senator Brown and I have 
agreed to go by seniority for this first hybrid meeting.
    Thank you to those of you who are here today, those 
appearing before us, and those who are keeping the Capitol 
complex safe and functioning while we honor our constitutional 
duty.
    The coronavirus, or COVID-19, pandemic has challenged our 
sense of normalcy, and it has tested every institution of daily 
life we know.
    The crisis has had a major impact on the physical and 
economic health of our country, and a major response has been 
required.
    Congress and the Administration have taken bold, dramatic 
steps to limit the depth of economic shock the country is 
currently experiencing and to provide conditions for a quick 
and robust economic recovery once economic restrictions are 
lifted.
    The CARES Act went into effect just over 1 month ago, 
putting needed cash directly into the hands of American workers 
and families, providing rapid relief to small businesses, 
helping to stabilize our markets and the economy, and sending a 
massive new infusion of resources to the front lines of the 
medical response.
    Title IV of the CARES Act, which is under the Banking 
Committee's jurisdiction, provides $500 billion in emergency 
relief in order to provide liquidity to eligible businesses, 
States, municipalities, and tribes related to losses incurred 
as a result of coronavirus.
    Implementing this title is an important step to supporting 
the flow of credit in the economy.
    On April 9, 2020, the Federal Reserve Board and the 
Department of Treasury announced new and expanded set of 
lending programs to provide up to $2.3 trillion in loans.
    The 13(3) Federal Reserve facility--well, actually all of 
them, specifically the Main Street Lending Facility--are 
crucial components of the strategy to support the economy and 
promote a U-shaped recovery, which reinforces the need to have 
them up and operating and being as broadly available for as 
many businesses as possible.
    Title IV includes robust oversight requirements to ensure 
the statute is followed and to protect against waste, fraud, 
and abuse.
    The Special Inspector General for Pandemic Recovery, or 
SIGPR--another new Federal acronym--will oversee the reporting 
and auditing requirements of the law, and it is critical that 
we quickly confirm the nominee so that important work can 
begin.
    This afternoon, we will consider the nominations of the 
Honorable Brian Miller, of Virginia, to be Special Inspector 
General for Pandemic Recovery; and Mrs. Dana Wade, of the 
District of Columbia, to be Assistant Secretary for Housing and 
Federal Housing Commissioner at the U.S. Department of Housing 
and Urban Development.
    Welcome to both of you and congratulations on your 
nominations to these important positions.
    Section 4018 of the CARES Act establishes the Special 
Inspector General for Pandemic Recovery.
    The duty of the SIGPR is to ``conduct, supervise, and 
coordinate audits and investigations of the making, purchase, 
management, and sale of loans, loan guarantees and other 
investments made by the Secretary of the Treasury under any 
program established by the Secretary under this Act, and the 
management by the Secretary of any program established under 
this Act.''
    Mr. Miller is highly qualified for Special Inspector 
General, having served as the Inspector General for the General 
Services Administration for nearly a decade.
    The Senate confirmed Mr. Miller for that position in 2005 
via voice vote, a position he held for nearly 10 years.
    In that role, Mr. Miller led more than 300 auditors, 
special agents, attorneys, and support staff in conducting 
nationwide audits and investigations; and reported on fraud, 
waste, and abuse.
    He has been outspoken on the need for Inspectors General to 
have independence and access to information, and I am confident 
that he will carry out the responsibilities and mission of this 
position diligently, independently, and objectively.
    During a Senate Judiciary Committee hearing in 2015, Mr. 
Miller noted, `` . . . in order to have effective oversight, an 
IG must have independence to conduct an investigation, review, 
or audit. This includes determining what information is needed. 
It is the judgment of the IG conducting the investigation that 
matters, not the judgment of the agency being investigated.''
    I encourage my colleagues to support Mr. Miller's 
nomination so that he can begin this vital oversight role.
    Turning to Mrs. Dana Wade, Dana Wade is well prepared to 
take over the reins at the Federal Housing Administration. She 
is familiar to the task, having operated as Acting Federal 
Housing Commissioner and General Deputy Assistant Secretary for 
the Office of Housing.
    As Acting Commissioner, she directly managed FHA's 
portfolio of single-family, multifamily and health care 
insurance; Section 8 project-based rental assistance; the 
Office of Manufactured Housing; and over 2,400 personnel 
agencywide.
    Mrs. Wade's extensive record of housing policy experience 
also includes service as Senior Adviser to Secretary Ben 
Carson, Deputy Staff Director to this Committee and the Senate 
Appropriations Committee, and as Associate Director at the 
Office of Management and Budget, where she led all housing-
related issues and supervised HUD, among other agencies.
    Great leadership will be required at FHA during this 
unprecedented time of strain on both home ownership and rental 
markets.
    In the wake of COVID-19, we have already seen over 10 
percent of FHA borrowers enter mortgage forbearance, FHA-
insured health care facilities feeling significant strain, and 
many FHA-assisted landlords struggle to make ends meet while 
countless renters are unsure where their next rent payment will 
come from.
    In the months ahead, FHA will be on the front lines helping 
many of these families get back on their feet and providing 
much-needed liquidity throughout the housing finance system.
    I am confident that Mrs. Wade will provide exactly the type 
of leadership that is needed during this critical time, as 
Commissioner Montgomery has done.
    I encourage my colleagues to support Mrs. Wade's 
nomination, as well as to confirm Brian Montgomery as Deputy 
Secretary, so that we can best position HUD to tackle the 
challenges ahead.
    Congratulations again to each of you on your nominations, 
and I thank you and your families for your willingness to 
serve.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. I would like to say 
thank you to staff, the Sergeant at Arms, the Architect of the 
Capitol, the Office of the Attending Physician, the Recording 
Studio, the Senate Rules Committee. This was a team effort 
working so hard over the last couple of weeks to try to make 
these hearings as safe as possible, including by using 
technology for Members to join these hearings remotely. Member 
Senators in both parties, maybe even a majority of the 
Committee, I believe, have decided to join us that way. I want 
to thank the Capitol Police and all other Senate staff and 
contractors who worked to make sure the Senate continues to 
run.
    I want to especially thank Chairman Crapo and his staff, 
thanks to Laura and my office and Gregg, the Staff Director, 
and Cameron for working together to coordinate this hearing and 
provide that remote option for Senators to join. It is the 
right thing to do, that we could all do what we think is best 
to keep ourselves and people who work here safe.
    I am concerned, however, Mr. Chairman, at the reckless 
decision by Leader Mitch McConnell to open the Senate to 
session despite ongoing emergency stay-at-home orders all over 
the country, including in my State of Ohio, Governor DeWine, 
including in Washington, D.C., including Senator Van Hollen's 
Maryland and Senator Warner's Virginia. Leader McConnell's 
actions are forcing Capitol complex workers, contract workers 
like the cleaning staff who just cleaned this hearing room and 
will clean again when we are done, and food service workers who 
just served the Republican Caucus lunch to go--that they are 
here working is going against public health authorities' 
advice, and they put themselves at risk to come to work. Most 
of those workers, unlike all of us who probably come to the 
Capitol, either we walk from a nearby apartment or condo or we 
come in cars, most of these workers come by bus and subway, and 
they put themselves at risk, creating more anxiety for their 
families. As I said, Senator McConnell's decision was reckless 
and unfair especially to those employees.
    To compound that, the Republican Leader's agenda this week 
does not include assistance for the unemployed, anything that 
helps people to stay in their homes. I appreciated Chairman 
Crapo's comments about how many people, how many renters are 
living on the edge. There is no support in this week that we 
can see from Senator McConnell, no attempts to support 
community health services. These are issues the Senate should 
be taking on right now.
    Mr. Chairman, I want to congratulate the nominees and thank 
them for their willingness to serve. This is probably not the 
confirmation hearing that each of you had hoped for. I want to 
thank your families, who I assume are watching from home.
    The Special Inspector General for Pandemic Response will 
oversee the CARES Act lending and investment programs that were 
designed to stabilize our economy and get help to communities 
and workers and small businesses that are hurting so much 
during this pandemic. This lending will be critical to 
restarting our economy to begin the recovery.
    The FHA Commissioner faces an affordable housing crisis 
made even worse, of course, by this pandemic. The stability and 
future of millions of families are on the line as Congress and 
the Administration respond to this crisis. If confirmed, the 
two of you will serve in positions that are crucial to 
implementing the policy responses to the pandemic.
    This Committee has oversight over the Treasury and Federal 
Reserve loan programs under CARES. That is why I fought for 
this Office of the Special Inspector General for Pandemic 
Response. The American people need a strong watchdog to make 
sure the $500 billion of taxpayer money provided under this act 
and the $4 trillion that the Federal Reserve will lend, that it 
actually goes to support workers and communities and 
businesses. Because the act grants the Treasury Secretary and 
the Fed broad discretion over who gets these loans and on what 
terms, the Special Inspector General will need to examine the 
loan terms, the transactions, the lenders involved, and the 
eligibility of borrowers.
    We have seen how the small business loans so far went to 
big companies and important clients of Wall Street banks while 
community banks and credit unions--we all have them in our 
States--and their customers on Main Street and in underserved 
communities waited and waited and waited. I think most of us 
have heard the frustration from restaurants and barbershops and 
cafes and so many other small businesses in our State that are 
facing impossible decisions right now. They spend hours on the 
phone trying to talk to someone about a loan. They have either 
been turned down or cannot get answers while big, well-
connected franchises go to the front of the line. That is 
simply unacceptable. We cannot let the same thing happen with 
these loans by Treasury and the Fed. The problem with SBA loans 
should be a lesson to Congress as we consider additional 
recovery measures and a lesson to the Special Inspector 
General.
    In addition to these concerns, President Trump has shown 
outright hostility toward anyone who tries to hold him 
accountable to the American people whom he serves, special 
hostility toward Inspectors General. I think that Mr. Miller 
realizes that. The President removed the Acting IG for the 
Defense Department who was set to become Chairman of the 
Pandemic Response Accountability Committee. He fired the 
Intelligence Committee IG last Friday. Friday he replaced the 
Acting Health and Human Services IG. All of these professionals 
simply were doing their jobs, and they exposed misconduct in 
the Administration. That is what their jobs are.
    Looking at the last 20 years, we found only one IG 
candidate was nominated while serving in the White House 
Counsel's Office. Another nominee served in the White House 
Counsel's Office under an earlier Administration. Both of them 
resigned, one for politicizing the office, the other for lack 
of independence. Not a great track record when a President 
appoints a lawyer in his office in the White House to be an 
Inspector General that oversees and examines White House 
behavior.
    We passed the CARES Act to support our economy by helping 
workers, mainstream businesses, State and local governments, 
and nonprofits. We cannot tolerate businesses and their workers 
suffering to protect the President, to protect his family, to 
protect his allies because of corruption, misuse, and 
favoritism.
    Mr. Miller, if you are confirmed, I expect you to follow 
the letter and spirit of the law and to serve the American 
people, not President Trump. As Special Inspector General, you 
must be willing to stand up to the Administration and any other 
bad actor and uphold the goals of the law. Anything less is 
totally unacceptable.
    While Mr. Miller is the only nominee before us today with 
``pandemic response'' in his title, make no mistake: The FHA 
and the Office of Housing will be on the front lines of our 
Nation's response as well. In good times, FHA provides access 
to affordable home ownership for millions of families. When the 
economy slows, the FHA is expected to step up to meet the needs 
of more households and keep the mortgage market working, even 
as others in the market retreat.
    During the 2008 financial crisis, economists estimated that 
FHA's action helped prevent an additional 25-percent decline in 
housing prices and the loss of an additional 3 million jobs. 
Quite a responsibility and quite a performance. FHA's decisions 
will determine whether families can remain in their homes or 
whether communities face a foreclosure crisis on top of a 
public health crisis. They will help determine whether the 
burden of this downturn, like the 2008 crisis, falls most 
heavily on communities of color and exacerbates economic 
inequality or whether we will adopt policies and do oversight 
to provide an equitable recovery that keeps affordable housing 
in the hands of homeowners and communities rather than Wall 
Street investors.
    Decisions at the Office of Housing, which Mrs. Wade would 
lead if confirmed, will determine whether policies and funding 
are in place to keep the lowest-income seniors, persons with 
disabilities, people in HUD-financed health care facilities, 
keep them safe during this pandemic.
    Over the past 3 years, the Administration has tried to gut 
funding to housing and community development programs. They 
have rolled back fair housing protections and other civil 
rights protections. They have undermined the safety of 
manufactured housing residents. They have tried to make home 
ownership more expensive and harder to attain. I hope the 
answers Mrs. Wade provides today will make clear that she will 
fight alongside us to reverse that trend.
    Mr. Chairman, thank you, and thank you again for being the 
first in the Senate to do a hearing like this. Thank you.
    Chairman Crapo. Thank you, Senator Brown.
    I will now administer the oath. Would each of our witnesses 
stand and raise your right hands? Do you swear or affirm that 
the testimony you are about to give is the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Miller. I do.
    Mrs. Wade. I do.
    Chairman Crapo. And do you agree to appear and testify 
before any duly constituted committee of the Senate?
    Mr. Miller. I do.
    Mrs. Wade. I do.
    Chairman Crapo. Thank you. You may sit down.
    Your written statements will be made a part of the record 
in their entirety. Usually at this point we give you each a 
chance to introduce your family. We will thank them on your 
behalf since we are keeping the number of people in the hearing 
room to a minimum. And, with that, I would like to invite you 
to proceed. Mr. Miller, would you please begin?

   STATEMENT OF BRIAN D. MILLER, OF VIRGINIA, TO BE SPECIAL 
  INSPECTOR GENERAL FOR PANDEMIC RECOVERY, DEPARTMENT OF THE 
                            TREASURY

    Mr. Miller. Thank you, Mr. Chairman. I want to thank the 
Chairman and Ranking Member for having this hearing. I would 
like to thank President Trump for nominating me. Most of all, I 
want to thank my wife and family for their encouragement to 
continue public service, especially in such a demanding job. 
Thank you.
    I have been fortunate to have a long career in public 
service that has prepared me well for this position. I have 
close to 30 years of experience in the Federal Government--15 
years in the Department of Justice and nearly 10 years as the 
Senate-confirmed Inspector General of the General Services 
Administration, serving across both Republican and Democrat 
administrations. I have also served as an independent corporate 
monitor and practiced law in the areas of ethics and 
compliance, Government contracts, and internal investigations.
    I am amazed and humbled by the letters of support that I 
received in such a short time period during a time of a 
pandemic. I am deeply grateful to those who signed from all 
varieties of political stripes, from former officials in the 
Obama, Bush, and Clinton administrations. I would like to thank 
them and I would like them to know that I will always endeavor 
to be the man they describe in their letters.
    If confirmed, I will conduct every audit and investigation 
with fairness and impartiality. I will be vigilant to protect 
the integrity and independence of the Office of Special 
Inspector General. I pledge to seek the truth in all matters 
that come before me and to use my authority and resources to 
uncover fraud, waste, and abuse.
    I stand ready to answer any questions. Thank you, Mr. 
Chairman.
    Chairman Crapo. Thank you.
    Mrs. Wade.

  STATEMENT OF DANA WADE, OF THE DISTRICT OF COLUMBIA, TO BE 
     ASSISTANT SECRETARY, DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Mrs. Wade. Thank you. Chairman Crapo, Ranking Member Brown, 
and Members of this Committee, thank you for inviting me here 
to testify today as the nominee for Federal Housing 
Commissioner and Assistant Secretary for Housing at the 
Department of Housing and Urban Development. I also want to 
thank President Trump for the privilege of being nominated for 
this position.
    It is truly an honor to be here after serving as a staff 
member of this Committee and spending a good part of my career 
working for Senator Shelby on both the Banking and 
Appropriations Committees. I am extremely grateful to him for 
such opportunities.
    I am also very thankful for the love and support of my 
wonderful family. I regret that both my husband, Chris, and my 
daughter, Mary, as well as my niece, Ava, could be here not in 
person, only in spirit, but I would, if I may, like to wish my 
daughter, Mary, a happy birthday. She turns 6 years old 
tomorrow.
    As I look around this hearing room, I see the Senate 
continuing the people's work but under very different 
circumstances. If confirmed, I will commit to doing everything 
I can as FHA Commissioner to help the country emerge from the 
COVID-19 pandemic healthier, stronger, and with a more 
prosperous economy.
    Never has it been more clear than today that HUD and FHA 
play critical roles in our Nation's safety net. Secretary 
Carson and the dedicated staff at HUD are working tirelessly to 
minimize the impact of COVID-19 to homeowners, renters, and 
vulnerable populations that HUD serves each and every day. We 
are grateful for the hard work and bipartisan commitment of 
this Committee and Congress in passing legislation that 
safeguards American families, communities, and the economy from 
this terrible virus.
    I joined public service in the midst of a different 
crisis--the financial crisis of 2008--during which I gained 
valuable experience that I believe will serve me well if 
confirmed. I learned that during times like these, it is 
important to make sure assistance quickly reaches those in need 
and that we maximize the effectiveness of every Federal dollar. 
I have been a staff committee member of the Budget, Banking, 
and Appropriations Committees, as well as an Associate Director 
at the Office of Management and Budget. I have also been the 
acting head of FHA and HUD's Office of Housing where I 
implemented reforms that better managed risk, built up capital, 
and provided greater transparency to the public.
    If confirmed, my priorities for FHA and the Office of 
Housing would be as follows:
    First, given this unprecedented situation and global 
pandemic, protecting current FHA homeowners and renters. Many 
FHA homeowners, I know I do not have to tell this Committee, 
are low-to-moderate income, first-time and minority borrowers, 
and most of these HUD-assisted homeowners and renters are 
experiencing COVID-related hardships through no fault of their 
own.
    Second, I would ensure that FHA has the necessary staffing 
and other resources, as well as continuing the IT modernization 
effort, which together will allow FHA to perform its important 
countercyclical role to support the housing market.
    Third, I will vigilantly monitor risk to taxpayers of 
losses stemming from COVID-19, and I will protect FHA's capital 
reserve to the maximum extent possible.
    I believe that FHA has a duty to support the Nation's 
housing markets and homeowners facing economic hardship. While 
the virus will pass and the economy will eventually regain its 
previous strength, the road to recovery will require our 
sustained effort.
    If confirmed, I will do all that I can to run a strong and 
sustainable FHA, one that serves homeowners, renters, and 
taxpayers well. I am committed to working with this Committee 
and with Congress, and I look forward to answering your 
questions today.
    Thank you.
    Chairman Crapo. Thank you, Mrs. Wade.
    I will begin my questioning with you, Mr. Miller. As you 
have heard and I am sure you were aware before you even arrived 
here today, one of the big criticisms of you is that you will 
not be independent because you come from the White House or had 
service in the White House. As you know, independence of SIGPR 
is critical to the oversight of activities under Title IV in 
the CARES Act. Can you talk about the importance of SIGPR 
maintaining its independence, how you have demonstrated your 
independence in the past, and how you expect to conduct your 
actions, if confirmed to this position?
    Mr. Miller. Thank you, Mr. Chairman, for the question. I 
think independence is vital for the effective operation of any 
Inspector General, and I have said that for not just now but 
for many years. I served for 10 years as Inspector General of 
the General Services Administration, and at every point I had 
to fight for independence to perform audits and investigations 
objectively, fairly, and independently. And I met with 
resistance throughout my tenure as Inspector General. I 
conducted investigations of major contractors, much to the 
chagrin of people in leadership positions at the GSA, and I 
dare say in Congress, and I received criticism for that. 
Ultimately, I was proven right. The audits were correct and 
accurate, and we provided effective oversight and leadership.
    I believe that my tenure as Inspector General at GSA also 
helped GSA to become a better agency. I think the hardworking 
men and women of my office at that time provided a great 
service. I think that oversight is essential for the effective 
operation of all programs, and especially now with the pandemic 
recovery. It is vital that this money goes to the small 
businesses and hardworking Americans that need the money right 
now, and we cannot afford to have it diverted to fraud, waste, 
and abuse and diverted to the pockets of those that would 
scheme to defraud the Government and take that money out of 
their pockets. So it is vital to have an independent, effective 
Inspector General.
    Chairman Crapo. Thank you.
    Mrs. Wade, in the months ahead, the FHA will be on the 
front lines helping many families, providing much-needed 
liquidity throughout the housing finance system. As a former 
Acting Commissioner, you understand FHA's important role to 
consumers, taxpayers, our housing finance system, and health 
care financing. We are involved in the ongoing efforts with 
HUD, FHFA, and others to implement the CARES Act provisions 
related to housing, specifically forbearance relief for 
homeowners impacted by COVID-19, as well as restrictions on 
foreclosures and evictions.
    Will you work with us to implement these provisions and 
ensure that the options available when exiting forbearance are 
clear for consumers to understand and straightforward for 
servicers of FHA mortgages to administer?
    Mrs. Wade. Yes, Senator, Mr. Chairman, and thank you very 
much for the question. We are obviously facing an unprecedented 
health crisis, and it is incredibly important to protect 
homeowners and renters who, through no fault of their own, are 
experiencing COVID-related hardships. It can also be a 
confusing time for homeowners and assisted renters, and I think 
it is important to provide as much clarity as possible and as 
much certainty from FHA as possible in fulfilling its 
countercyclical duty.
    Chairman Crapo. Thank you. Then last, for you, Mrs. Wade, 
also, many of our hospitals, health care facilities, and senior 
living facilities at the front lines of the battle against 
COVID-19 are financed in part through FHA's Section 232 or 242 
programs. Can you speak quickly, in about 45 seconds, to FHA's 
role in the health care economy and some of the challenges they 
face?
    Mrs. Wade. Yes, again, Mr. Chairman, that is a great 
question. That is a very important part of FHA's portfolio. No 
health care facility that FHA serves should be concerned with 
anything except serving those who are COVID-19 patients in need 
and protecting the health and safety of their employees. I 
believe now in FHA's health care portfolio it is a time that we 
need to provide maximum flexibility, and to that end I know FHA 
has already taken action to allow these health care facilities 
to access things like their reserves. And, in addition, it is 
important to work each and every day with the operators of 
these facilities in order to sustain their mission and make 
sure that they have--and FHA is a mortgage insurer--make sure 
that they can appropriately finance operations during this 
time.
    Chairman Crapo. Thank you.
    Senator Brown.
    Senator Brown. You said it is your daughter's sixth 
birthday? My granddaughter just celebrated. Unfortunately, we 
had to do it from afar, of course, because it was just last 
month.
    For about a year, Mrs. Wade, you were responsible for 
overseeing HUD and other Federal agencies for OMB. That is 
correct, right?
    Mrs. Wade. Yes, Senator, that is correct.
    Senator Brown. Under your leadership, OMB reviewed and 
approved two rules that would undermine the Fair Housing Act, a 
rule that HUD's own analysis said would cost the Federal 
Government more money, displace more than 50,000 children, and 
a rule that would compromise the religious freedom of people 
seeking shelter. Given that track record, I just do not see how 
we can trust you to ensure that FHA and HUD's rental assistance 
programs are providing an equitable recovery for families.
    Now, Mr. Miller, I would like to shift to you. First of 
all, thank you for your service as a prosecutor and IG and how 
you outlined your work in the past. But 2 years ago, you wrote 
an article criticizing Congress for telling Inspectors General 
to investigate the Trump administration. Four months later, 
President Trump gave you a job in the Counsel's Office at the 
White House. Now the Senate considers an appointment to an 
office that will be responsible for, among other things, 
investigating the Trump administration, exactly what you 
criticized. And even if it did not have concerns about your 
independence, I would still have concerns about how this 
Administration treats IGs that simply do their job.
    Here is a recent example from Friday. The President, after 
unfairly smearing her, removed Christi Grimm, the Acting HHS IG 
who had identified shortages, very real shortages in testing 
equipment and PPE.
    Mr. Miller, you can establish your independence right now 
in front of this hearing. Can you tell this Committee that it 
was wrong for the President of the United States to remove Ms. 
Grimm for doing her job and holding the Administration 
accountable?
    Mr. Miller. Senator, first of all, I would like to say that 
I wrote an article defending the independence of Inspectors 
General. I am always concerned that Inspectors General remain 
independent from any influence, whether it be from the 
Executive branch or the legislative branch. And so I do not 
think that you are fairly characterizing my article. And I feel 
very strongly that IGs should be independent and should report 
the facts as they see them, as they find them, and not to bend 
them to any influence whatsoever. And so it is the duty----
    Senator Brown. Well, I appreciate your response. Was it 
wrong to remove--we only have 5 minutes. So what is wrong for 
Ms. Grimm--for the President to remove Ms. Grimm for doing her 
job?
    Mr. Miller. Senator, I am not here to assess those sorts of 
action. I am here to tell you about my background, my 
qualifications for this position. I believe that I have 
demonstrated independence.
    Senator Brown. Well, we all--I understand that. I 
understand that, Mr. Miller, but there is a skepticism when it 
is not general practice that the President of the United States 
nominates somebody for a job this important as Inspector 
General who came out of the White House, and I think you have a 
bar you need to get over to demonstrate your independence. I 
was hoping this would be a way to do it.
    Let me ask you another question. Mr. Miller, will you view 
your job expansively to the fullest extent provided by law so 
that you do not just go after little companies or the ``easy 
cases'' but, rather, look at all misconduct, even when the 
evidence of wrongdoing could either upset individuals in the 
Administration or their preferred narrative?
    Mr. Miller. Absolutely, Senator.
    Senator Brown. OK. I appreciate that. The potential for 
conflict, the concern among Members of Congress about your 
independence should be obvious. So it is so important that you 
look at this job expansively.
    Last question. The CARES Act gives the Treasury Secretary 
control of $500 billion of taxpayer monies for loans and 
investments. The Federal Reserve, as you note, will lend 
trillions on top of that. Do you agree that the Special IG for 
Pandemic Response has the responsibility to look at how all of 
those funds are distributed, whether by Treasury or the Federal 
Reserve?
    Mr. Miller. Senator, as the act says, the Special IG has 
responsibility for the programs administered by the Secretary 
of Treasury. I will do that faithfully, fairly, and 
impartially, independently.
    Senator Brown. All right. Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Chairman Crapo.
    Mrs. Wade, welcome back to the Committee. You spent a lot 
of time here working as a very important member of the Banking 
staff, and then you worked on the Appropriations staff, and 
then you went on to greater things, and you have been nominated 
to a very serious and very important position. You have the 
education--an undergraduate degree from Georgetown in economics 
and an MBA from Wharton. You have got the experience. I am here 
to support you.
    Mr. Chairman, I would ask unanimous consent that my written 
statement in support of this nominee be made part of the 
record.
    Chairman Crapo. Without objection.
    Senator Shelby. I believe that wherever you go, but 
especially over at HUD like this, to be the Deputy Director of 
Housing there, you carry a lot of experience, you carry a lot 
of good judgment, and they can use you over there, and you can 
serve the American people well. You have in the past, and I 
predict you will in the future. I believe you will be 
confirmed. I believe that I am here to say that I support you 
without any reservation. I know you. I have worked with you. 
Most of the Members of the Committee worked with you. We have a 
lot of respect for you and godspeed.
    We will need to vote on her as soon as we can, Mr. 
Chairman. Thank you.
    Chairman Crapo. Thank you, Senator Shelby.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. I will 
just wait a moment to ensure I can be heard.
    Chairman Crapo. We can see you.
    Senator Reed. Mr. Miller, I want to follow up on the 
questions that Senator Brown presented, because the 
independence of the Inspector General is absolutely critical, 
and the behaviors we have seen in the White House and also in 
other areas suggest that there is a disregard for the 
independence of the Inspector General. And while you were 
there, particularly in the context of the impeachment 
proceedings, the General Counsel's office completely dismissed 
any requests for cooperation by the Congress in the 
constitutional duty we had.
    You yourself wrote a letter to the GAO General Counsel 
stating that the White House does not plan to respond 
separately to your letter--i.e., take a hike. That does not 
signal the kind of independence--in fact, it suggests that you 
will be beholden to the White House and not critical of the 
White House. Would you like to respond?
    Mr. Miller. Senator, I will be independent. I will be--I 
will follow the facts wherever they lead. If they are critical 
of the Administration, I will say so. I will have no hesitancy 
to do so. I think you have unfairly characterized the letter. 
In many ways, I am just answering the mail.
    Senator Reed. Well, we hope as Inspector General you just 
won't be answering the mail, and that is the point I think we 
want to make very, very explicitly.
    Let me turn to another issue, a more technical issue with 
respect to the CARES Act. Title IV of the CARES Act authorizes 
the Secretary of the Treasury to require warrants in some of 
the lending programs under Title IV. In many respects, it 
echoes some of the work I did in the Troubled Asset Relief 
Program in 2008 where we did, in fact, have warrants and after 
the fact realized about $10 billion for the taxpayers of the 
United States by executing those warrants.
    If confirmed, can you explain how you will evaluate whether 
the warrants are then properly executed on behalf of taxpayers? 
There are ways to write warrants so that the maximum potential 
is not realized in terms of strike price, and in terms of other 
things. Can you give us some indication of what you will do?
    Mr. Miller. Senator, I am going to have to study that issue 
more carefully, but I will tell you that I as Inspector General 
want to analyze all of the ramifications of these programs. If 
someone is gaming the system, taking advantage of the system, 
or even self-dealing, I would like to know that and report on 
that. So I will analyze those transactions very carefully, 
obtain information about them, and if necessary, subpoena the 
information if I cannot get it otherwise.
    Senator Reed. Thank you very much.
    Mrs. Wade, we are all familiar with your extensive 
experience both in housing and also in budgetary policy. I 
think Senator Shelby made that quite clear in his remarks. In 
the last several years, the President, in fact, in the fiscal 
year 2020 budget and the 2021 budget, he sent up a budget that 
would zero out the Public Housing Capital Fund, the Community 
Development Block Grant, and zero dollars for the HOME program. 
If we had followed that advice, where would we be today in 
terms of the crisis we are facing in housing?
    Mrs. Wade. Senator, thank you for the question. This 
Administration has provided unprecedented support to 
populations who need it, vulnerable populations, American 
families, I think as many have alluded to, through the CARES 
Act assistance. It is incredibly important to continue to focus 
and do everything that we can to keep those HUD-assisted 
homeowners and renters in their homes, to provide, again, 
maximum flexibility to provide tools to enable them to stay in 
their home and enable FHA to mitigate risk.
    I believe that this is an evolving situation. You know, I 
think we are all ready to use whatever tools at our disposal in 
order to help people, in order to help borrowers, in order to 
help renters, and I look forward to working with Congress on 
those objectives.
    Senator Reed. Just a final point, though. My estimation 
would be had we zeroed out those programs, the situation we see 
today in which we are trying to stabilize housing for so many 
people would have been much, much worse. And I hope that going 
forward, not just in terms of the special appropriations bills 
like the CARES Act but in the routine budgets, you will 
advocate for strong funding for all these programs.
    Thank you very much, Mr. Chairman.
    Chairman Crapo. Senator Toomey.
    Senator Toomey. Thank you very much, Mr. Chairman. And 
thank you to our witnesses today. Thanks for your willingness 
to serve. I appreciate that. Both of you bring a wealth of 
experience to your respective roles, and I am pleased with that 
fact.
    Mr. Miller, let me start with you. First of all, I 
appreciated our conversation earlier where we discussed your 
role should you be confirmed, but I would like to go back to 
this issue. Several of my colleagues now have questioned your 
willingness to be independent of the Administration, and it 
seems to me that there is some history here that may be worth a 
little bit of elaboration. You made a passing reference to it, 
but in a prior role, when you were the IG at the GSA--under a 
Republican administration, I believe-- you conducted what seems 
like a very thorough and ended up in a way being, I suppose, 
antagonistic in the sense that there was wrongdoing, and you 
pursued it. So could you tell us a little bit about that? 
Because I think a person's history speaks louder than anything 
else.
    Mr. Miller. Thank you, Senator, for the question. There 
were a number of instances where I investigated individuals and 
companies and met with resistance at every turn. At one point I 
had to investigate the Administrator herself, a Bush appointee, 
as I was. And we very aggressively investigated her and found 
that she steered a contract to a friend for $20,000 a month, 
and it ended up in hearings. She ended up calling me a 
``terrorist,'' and I had just come off from the U.S. Attorney's 
Office where I prosecuted terrorists, including Moussaoui. I 
participated in that prosecution. And so she publicly called me 
a ``terrorist.'' She wrote memoranda to regional administrators 
asking them to help her fight the IG--me. And various Members 
of Congress called on the President to fire me. Later on, the 
President did ask for her resignation.
    There were a number of other incidents as well that came up 
that I had to investigate, and it was very difficult to do so. 
I had to fight for the office's effectiveness through 
maintaining an independent hiring process. At one point there 
was a freeze put on my ability to hire anyone. There were 
budget cuts. There were all sorts of ways to try and hinder the 
independence and effectiveness of the Inspector General.
    But I worked through it all. I insisted on being 
independent and never compromising the facts over the truth. 
And I made those reports public. Later on I investigated a 
conference--that was all during the Bush administration. During 
the Obama administration I investigated a conference in Las 
Vegas, and during that investigation I had political appointees 
asking me to stop that investigation, asking me not to publish 
a report. I had political appointees call me up and say, ``Why 
do you really have to make this public? Can't you just give it 
to us privately and never let anyone know?'' And, of course, I 
did not follow that advice. I was not moved by the pressure. I 
just went ahead, reported the facts, and you all know about it.
    But I do think that the agency itself is much better as a 
result, and I think that every program and operation is better 
as a result of oversight.
    I would add that after I had left and was trying to start a 
law practice, Michael Horowitz, the IG at the Department of 
Justice, had some difficulty having access to information, and 
there was a hearing before the Senate Judiciary Committee. 
Michael called me and talked to me about it and asked me to 
come and testify. I did testify at that hearing, and I am 
grateful to the Chairman for quoting part of my testimony at 
that hearing.
    Senator Toomey. Thank you. And if I could ask one last 
question of Mr. Miller. As one of the two Senate designees to 
the Congressional Oversight Commission, we might have some 
similar responsibilities, and so I wonder if you could just 
share with us your thoughts on the differences between our 
respective responsibilities, that of the Commission, versus the 
Inspector General, how that might be delineated. And I know 
that this is going to be a work in progress, but just any 
thoughts you have on that.
    Mr. Miller. Yes. Thank you, Senator, and I look forward--if 
the Senate confirms me, I hope that we get to work together on 
that. I would like to work very cooperatively with the 
Commission and with the Accountability Committee of IGs, the 
so-called PRAC, and with GAO and the various IGs themselves. I 
think that delineating the responsibilities so that there is 
not overlap would be important. We do not want to waste 
precious Federal resources, so we want to make sure we know 
what each other is doing and how we can complement each other 
rather than work against each other or duplicate each other's 
actions.
    So all that would be very important in that respect. I do 
not want to presume my confirmation, but I did take the 
opportunity to contact Michael Horowitz and the Vice Chair of 
the PRAC, Gene Dodaro at GAO, SBA IG, the new Executive 
Director of the PRAC to see how we can work together and 
delineate our roles and kind of deconflict where there may be 
differences, because I do not think it serves anyone to 
duplicate each other's efforts. I think it would be vital to 
share information, and I am trying to--I would like to have the 
opportunity to work on an information-sharing program in IT so 
that there is real-time access to information.
    Senator Toomey. Thank you.
    Chairman Crapo. Senator Menendez.
    Senator Menendez. I want to take a minute to reflect on the 
enormity of the situation before us. If we have learned 
anything from this crisis, if we have learned anything about 
how staying at home can flatten the curve and keep our families 
and our communities safe, it is that housing is health care. 
Americans should not have to fear being thrown out on the 
street if they miss their next rent or mortgage payment. And 
when the protections in the CARES Act run out, we could be 
facing a foreclosure crisis even greater than the one we faced 
during the Great Recession.
    We can stop that if we want to. All it takes is for this 
Committee to marshal the resources of the Federal Government, 
and we can make sure that every American has a safe and healthy 
place to call home.
    In that vein, Mrs. Wade, we saw during the Great Recession 
how FHA stepped into the market when private lenders were 
unable or unwilling to do so. If confirmed, will you commit to 
making sure FHA plays a strong countercyclical role in the 
mortgage market to help finance a home for American families 
now that private lenders may be less willing to do so?
    Mrs. Wade. Yes, Senator, and, first of all, I would like to 
thank you for commenting on the gravity of the situation. I 
believe that this is integral, providing and performing 
countercyclical support is integral to FHA's mission. It is 
incredibly important that FHA stay open for business and do 
everything that it can to promote market stability during this 
time.
    Senator Menendez. What specific actions would you be 
looking, if confirmed, to take in the next 6 months to further 
that aim?
    Mrs. Wade. Yes, that is a great question, and I think, you 
know, again, maintaining FHA's operation and doing things that 
will allow consumers to continue to access credit such as IT 
modernization, which is really streamline the process for 
obtaining credit, other organizational goals in order to help 
FHA to operate on a daily basis. I think implementing the CARES 
Act and future assistance packages will also be incredibly 
important for FHA, and I know, if confirmed, I will do 
everything I can to expeditiously get any CARES Act support or 
additional support to those who need it the most.
    Senator Menendez. We will be looking forward to that upon 
your confirmation.
    Mr. Miller, would you agree that independence is among the 
most important qualities for an Inspector General? Yes or no.
    Mr. Miller. I do, sir. Yes, Senator.
    Senator Menendez. If the President or someone from the 
White House calls you to discuss the recovery, would you take 
the call? Yes or no.
    Mr. Miller. If someone from the press, did you say?
    Senator Menendez. No. I said the President or someone from 
the White House calls you to discuss the recovery, would you 
take that call?
    Mr. Miller. I do not think that I will receive such a call, 
but it depends on what the call is about. I will not be 
pressured to not perform an audit or an investigation. But it 
is hard to say if I do not know what the call is about.
    Senator Menendez. Let me try to refine it. If Secretary 
Mnuchin wants to explain why certain companies received 
assistance under the CARES Act, do you think it is appropriate 
to take his call?
    Mr. Miller. Well, I think it is appropriate to know why he 
is making such determinations, and if he wants to explain it 
himself, I would think that my office would like to listen. 
Whether I sit in on that meeting or not is something I would 
have to decide on, but certainly we want to know why they are 
administering programs in the way that they are.
    Senator Menendez. I think there is a difference when you 
are generating those questions to them than when they are 
trying to weigh in as to why they have acted the way they have 
in ways that may or may not be within the law's context.
    Let me ask you this: You were in the White House Counsel's 
Office when the President decided to terminate Intelligence 
Community Inspector General Atkinson. Is that correct?
    Mr. Miller. Yes.
    Senator Menendez. Did you play any role in that decision?
    Mr. Miller. Senator, I cannot get into specifics about what 
goes on in the White House Counsel's Office. I do appreciate--
--
    Senator Menendez. I simply asked if you played a role. I 
did not ask you what role you played.
    Mr. Miller. Senator, I read about the firing of Mr. 
Atkinson in the newspaper.
    Senator Menendez. OK. That does not answer my question. Let 
me ask you this: President Trump said of Inspector General 
Atkinson, ``The man is a disgrace to IGs. He is a total 
disgrace.''
    Do you agree with that statement?
    Mr. Miller. Senator, there are a number of reasons why I do 
not want to get involved in that question. First of all, I do 
not know all the facts. I do not know what went on. I do not 
know what the thinking was. And, second, a lot of that is 
protected by White House confidentiality. As a lawyer, I have 
ethical obligations that bind all lawyers. And when Justice 
Kagan was before the Senate for confirmation, she limited her 
comments about her time in the White House Counsel's Office and 
her time in the Clinton Domestic Policy Council in the White 
House.
    Senator Menendez. My time has expired, but I just want to 
say I did not ask you what you specifically did, if you did 
something. I asked you whether you were involved. I did not ask 
you about any confidentiality when I asked the question about 
the way that the President classified Inspector Atkinson. And I 
think that independence of Inspectors General, as you have 
stated, is incredibly important. And so trying to judge how you 
view those actions independently of whether you participated or 
not is very telling.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Next we will go to Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    I would like to begin with Mr. Miller. Earlier in testimony 
here you did not get an opportunity to respond to the Ranking 
Member's suggestion that there was an inappropriate activity 
while you were at OMB. I would like to give you an opportunity 
right now to respond and maybe share with the rest of the 
Committee about your activities and perhaps a defense of what 
the Ranking Member suggested was inappropriate activity.
    Mr. Miller. Senator, thank you. I am assuming that you are 
referring to his comments----
    Senator Rounds. I apologize. That was for Mrs. Wade, not 
for Mr. Miller. Excuse me.
    Mrs. Wade. Yes, Senator, thank you very much for the 
question, and I appreciate the opportunity to be able to 
respond.
    You know, I want to say, first of all, housing 
discrimination is intolerable, and if confirmed, I will do 
everything I can to enforce the Nation's fair housing laws. 
That is my commitment. In addition, you know, related to my 
role at OMB, I led a resource management organization, and to 
that end it was our job and it was my job to make sure that 
taxpayer money was spent efficiently and economically. It is a 
very important oversight role in the Government. I am very 
proud of the work that I did at OMB. So I thank you for the 
opportunity to respond.
    Senator Rounds. Thank you.
    Mr. Miller, I do appreciate your conversations with me 
earlier. I wish it was in person, but naturally we have been 
doing a lot of these conversations long distance. And so I 
appreciated the comments earlier today that we had.
    I am just curious. I think it is really important that not 
only are you in a position to talk about what might be of a 
criminal nature that occur, but also in terms of making sure 
the programs run as efficiently as possible and that they 
accomplish the goals that Congress set out for them in the 
first place. Part of that is getting immediate feedback. 
Members of Congress get that feedback in a lot of cases, and I 
think while Senator Menendez was talking about whether or not 
you would take a phone call from the White House, I am just 
curious. Would you take a phone call from a Member of the 
Senate who was looking at ways of making things better or at 
least asking questions as to whether or not certain parts of 
the program were being operated the way they were supposed to? 
Would you take that type of a phone call from a Member of the 
Senate? And what would you do to make it easy so that we can 
participate in our oversight activities as quickly as possible?
    Mr. Miller. Senator, this is such an important program and 
it is so important that this money gets to the right people 
that I think we should be willing to look at how we can improve 
it in real time. The Congress has an opportunity to clarify the 
act and clarify how this is done. And if we find out that 
things are not working well in a particular area, I think the 
Senate should be willing to change it so that it can work 
better. And knowing where it is working and where it is not 
working in real time is vital.
    And so in that respect, I would welcome a call from a 
Senator, and it does make sense that I could talk to the 
Secretary as well as other Treasury officials to know what they 
are doing, what is working, what is not working. They could 
very well say, ``Look, we cannot make this program work,'' and 
that can be part of my report to the Congress.
    Senator Rounds. Earlier we had discussed there should be 
ways in which Members of perhaps the House or the Senate--
because we are talking with folks every single day about how 
these are working. Is there a way that you could establish or a 
procedure you could establish to make it so that when Members 
of this Committee or other committees want to get in touch with 
you, that it is seamless in nature, easier to make sure that we 
are getting information to you and that you are recognizing the 
fact that we are contacting you and responding back? Is there a 
process that you would be interested in seeing pursued to make 
it easy for information that we get to get passed down to your 
team?
    Mr. Miller. Senator, thank you for the question. I do 
believe it is vital to share information, and I could see my 
office performing the function of a clearinghouse, or the so-
called PRAC, the Accountability Committee of IGs, could perform 
the function of a clearinghouse. So much of what we have to do 
will rely on data analytics and IT systems. And to the extent 
that we are putting those in place, I can see the benefits of 
having a system where we can hear from the Congress in real 
time as well and perform a clearinghouse function so that we 
know the information that is coming in to all of us is getting 
to the right places.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you, Senator Crapo, and Senator Brown for doing this meeting 
and doing it the way you are doing it. I appreciate it.
    Mr. Miller, I had a chance to visit with you last week. I 
told you that I was going to ask you questions you could not 
answer last week, and that was, How many employees do you need 
to do this job? And do you have the resources to do that? What 
is your answer?
    Mr. Miller. I have the background and ability to do this 
job and to do it independently. I have some resources. The act 
gives me some resources. If I ever lack resources, I will be 
coming back to this Committee to let you know.
    Senator Tester. OK. So you do not exactly know how many 
people--or you do not have any idea how many people you are 
going to need to do this job?
    Mr. Miller. Well, I think initially I will start with 
between probably 75 to 100. It will be hard to staff up quickly 
because I have to build it from scratch and get hiring 
authority, go through the GS system, and so starting up will 
take a lot of time. But I think that to do the job effectively, 
I think I will need to start with somewhere between 50 and 100, 
more like 75 to 100.
    Senator Tester. All right. Thanks, Brian. This $2 trillion 
package, this is the biggest package anybody has ever voted on, 
I think, on this Committee. Will you commit to reporting to 
Congress immediately if Treasury is not following the 
transparency requirements in the CARES Act that require 
Treasury to disclose loan recipients?
    Mr. Miller. Yes, sir, I am required under the IG Act to 
report serious problems to the Committee.
    Senator Tester. ``Yes'' is good. The CARES Act, the law, 
requires you to notify Congress if you request information from 
agencies and it is not provided to you. Do you promise to 
follow that provision of the law closely?
    Mr. Miller. I do.
    Senator Tester. Good. Inspectors General serve a critical 
role in Government, regardless of whether that person in the 
White House is a Democrat or a Republican. Do you promise to 
let Congress know if you are being pressured in your position 
by political appointees or others to not pursue certain 
investigations or reviews?
    Mr. Miller. I will. And as I said, the IG Act requires that 
IGs report serious problems to Congress. I will also report if 
Members of Congress exert that pressure.
    Senator Tester. OK. That is good.
    In a signing statement for the CARES Act, President Trump 
argued that his Administration has control over reports from 
SIGPR to Congress and that SIGPR cannot report to Congress 
without his permission. How do you interpret the Presidential 
supervision described in the President's statement accompanying 
the CARES Act?
    Mr. Miller. Senator, I am trying to avoid stepping in 
between battles between the Executive branch and the 
legislative branch. I will tell you----
    Senator Tester. OK, so let me make----
    Mr. Miller. ----that I will follow the law. Section 4 of 
the IG Act requires me to report serious problems and to make 
reports to Congress. I will do that.
    Senator Tester. So if the President says that you cannot 
report this information to Congress, you will not only report 
that to Congress, but you will tell us that the President tried 
to stop you from reporting it?
    Mr. Miller. Senator, if the President himself does that, I 
would think that would be a serious issue, yes.
    Senator Tester. You know how this works. You were in the 
White House. You know how this works. If the President does it 
or has one of his minions do it with direct connection back to 
the President, I think it is important that you give this 
information to us.
    Mr. Miller. I will report any undue influence on me from 
whatever source.
    Senator Tester. Perfect. So I am going to tell you, from my 
perspective right now--and this is from my perspective. I have 
been stonewalled every step of the way trying to get 
information from this Administration on where this money is 
going. Every single step of the way. So your position is 
critically important if we are going to have any level of 
oversight.
    In your White House service, did you have any involvement, 
discussions, or awareness in the removal of Glenn Fine?
    Mr. Miller. Senator, as I said before, I cannot respond to 
questions----
    Senator Tester. Brian, Brian. A pretty simple question. Did 
you have any involvement, discussions, or awareness in the 
removal of Glenn Fine? Yes or no is good enough for me.
    Mr. Miller. OK. Senator, my ability to respond to questions 
about what goes on in the White House Counsel's Office or the 
White House may be limited by my ethical obligation, ethical 
obligations that bind all lawyers. And I will follow----
    Senator Tester. I will tell you----
    Mr. Miller. ----Justice Kagan's example of limiting 
comments about her service in the White House Counsel's Office.
    Senator Tester. We are in a different situation here, 
Brian. First of all, this is $2.2 trillion of taxpayer money. 
Second of all, I have watched the President remove Atkinson, a 
question that Senator Menendez talked to you about. I have 
watched him remove Rick Bright when he challenged 
hydroxychloroquine. I have watched him remove Colonel Vindaman 
and his brother when he testified under oath on impeachment, 
and it did not happen. I have watched him remove Glenn Fine.
    The question is--you worked as White House Counsel. The 
fact is I have no doubt that if you go against the President, 
he is going to remove you because he has done it time and time 
and time again.
    The question is: Were you aware of the Glenn Fine situation 
or the Atkinson situation? Did you have any input on it? 
Because, quite frankly, that makes you part of the problem in 
the White House.
    Mr. Miller. Senator, again, I will be independent. If the 
President removes me, he removes me. If I am unable to do my 
job, I will resign. But I will do my job faithfully and 
independently. But I will not comment on White House Counsel's 
operations following the example of Justice Kagan and many 
others who have come from White House Counsel's Office and gone 
to appointed positions, independent positions, as judges and 
even in other positions.
    Senator Tester. Thank you, Brian, for your willingness to 
serve. You, too, Mrs. Wade. Thank you.
    Mr. Miller. Thank you, Senator.
    Senator Tester. Thank you, Mr. Chairman.
    Chairman Crapo. Senator Kennedy.
    Senator Kennedy. Congratulations to you both.
    Mr. Miller, you were appointed Inspector General of GSA in 
2005. Is that right?
    Mr. Miller. That is correct, Senator.
    Senator Kennedy. And who appointed you?
    Mr. Miller. President Bush.
    Senator Kennedy. And how long did you serve?
    Mr. Miller. Nearly 10 years, through much of the Obama 
administration.
    Senator Kennedy. OK. And I believe you said you at one 
point had to investigate the Administrator of GSA?
    Mr. Miller. Yes.
    Senator Kennedy. Who appointed the Administrator of GSA 
that you investigated?
    Mr. Miller. President Bush.
    Senator Kennedy. OK. And what were the conclusions of your 
investigation of the Administrator appointed by President Bush?
    Mr. Miller. That she steered a contract to a friend in 
violation of procurement law, and we also made a referral of a 
Hatch Act violation to the Special Counsel, who made a 
conclusion that she did violate the Hatch Act.
    Senator Kennedy. And you wrote a report on that, did you?
    Mr. Miller. We wrote a report on the steering of a contract 
to a friend. The Special Counsel wrote a report on the Hatch 
Act violation.
    Senator Kennedy. Was the Administrator happy with your 
report?
    Mr. Miller. She was livid.
    Senator Kennedy. Did she complain to the White House?
    Mr. Miller. She did.
    Senator Kennedy. Did anybody criticize you for writing that 
report?
    Mr. Miller. Many people.
    Senator Kennedy. Give me some examples.
    Mr. Miller. Representative Mica called for the President to 
fire me, Representative Davis also, and criticized me at a 
hearing and publicly. Probably still does. Those come to mind. 
Certainly the Administrator herself, certainly many other 
people, and some people in the Administration still criticize 
me for that.
    Senator Kennedy. In the Bush administration?
    Mr. Miller. Yes.
    Senator Kennedy. OK. Did you change your report?
    Mr. Miller. Not at all.
    Senator Kennedy. Did you change your conclusion?
    Mr. Miller. Not at all.
    Senator Kennedy. So you just stood firm?
    Mr. Miller. I stood firm.
    Senator Kennedy. OK. Did that make you feel comfortable? 
Was it a pleasant experience?
    Mr. Miller. Senator, no, it was not. But that goes with the 
territory of being an Inspector General. You are never 
comfortable, but you have to do the right thing. At the end of 
the day, you have to be comfortable with your own conscience. 
And it does not matter what anybody else thinks or what even 
this August body thinks.
    Senator Kennedy. So you were appointed by President Bush. 
The Administrator of GSA was appointed by President Bush.
    Mr. Miller. Yes.
    Senator Kennedy. You as Inspector General of GSA 
investigated. You were appointed by President Bush. You as 
Inspector General of GSA investigated the Administrator, head 
of your agency appointed by President Bush, and you wrote her 
up.
    Mr. Miller. I did.
    Senator Kennedy. And some people in the White House did not 
like that. Some people in Congress did not like that.
    Mr. Miller. Yes, sir.
    Senator Kennedy. But you did not change your report?
    Mr. Miller. Not at all.
    Senator Kennedy. OK. Now, I have looked through your 
background, Mr. Miller. I have looked you up on the Internet. I 
have googled you. I have read your resume. I have heard all the 
allegations--maybe ``allegations'' is too strong a word--the 
innuendo or the suggestions that you will be a puppet of the 
President. I do not understand the basis for that. I have 
looked everywhere. Is there anyplace in your background as an 
Assistant U.S. Attorney or the Inspector General for a decade 
at GSA where you have backed down because you have been told to 
back down?
    Mr. Miller. No, sir.
    Senator Kennedy. When you were an Assistant U.S. Attorney, 
did you ever back off of a case because somebody with political 
influence told you to?
    Mr. Miller. No, sir.
    Senator Kennedy. I mean, is there anything in your 
history--I cannot find it. Is there anything in your history 
that would indicate that you are willing to sacrifice your 
principles if somebody in political power tells you to?
    Mr. Miller. No. And, Senator, one of the letters is from 
some of my special agents when I was Inspector General. It 
talks about how I let them continue an investigation when there 
were some people in the office that thought it should be shut 
down. And, ultimately, they proved the case and got a 
conviction.
    Senator Kennedy. OK. Thank you.
    Mrs. Wade, I think you are swell. I do not have any 
questions. I am with you. I think you are going to do a great 
job.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Warner.
    [No response.]
    Chairman Crapo. Senator Warren. Elizabeth, Elizabeth 
Warren?
    Senator Kennedy. There she is.
    Chairman Crapo. Go ahead, Senator Warren. You are on, 
Senator Warren. Are either Senator Warner or Senator Warren----
    Senator Kennedy. I saw Senator Warren.
    Chairman Crapo. Senator Warren I believe is trying to get 
her microphone to work.
    Well, apparently, we are having some troubles there, so we 
will come back to Senator Warren, but we will move at this 
moment to Senator Van Hollen.
    Senator Van Hollen. Well, thank you, Mr. Chairman. Can you 
hear me OK?
    Chairman Crapo. We can hear you.
    Senator Van Hollen. Excellent. Well, I want to congratulate 
both the witnesses on your nominations. Ms. Wade, I will be 
submitting some questions for the record with respect to your 
nomination.
    Mr. Miller, you were, of course, nominated to be the 
Special Inspector General for the Pandemic Recovery, and as 
many have pointed out, that requires independence. It also 
requires a determination to conduct rigorous investigations 
that get to the truth, to get to the facts that uncover any 
wrongdoing. So I want to ask you about your role in responding 
to the investigation conducted by the nonpartisan Government 
Accountability Office into the Administration's withholding of 
vitally needed security assistance to Ukraine.
    I asked GAO to conduct that inquiry, and GAO ultimately 
concluded that the Administration's withholding of that 
security assistance was illegal under the Impoundment Control 
Act. The GAO also raised major concerns about the Executive 
branch stonewalling their inquiry, saying in their report that 
the blocking of the investigation rose to the level, and I 
quote, of ``constitutional significance.''
    You personally participated in that stonewalling as the 
White House lawyer who signed a letter to GAO stating that the 
White House would not provide a substantive reply. I must say I 
was a little stunned when Senator Reed asked you about that 
letter and you dismissed it as ``just answering the mail.''
    If you are confirmed as the Inspector General here and you 
wrote to an agency with information about one of the issues you 
were investigating and they refused to respond, would that be 
acceptable to you?
    Mr. Miller. No, sir. I was answering the mail for GAO. I 
wanted to make sure they received an answer. I respect GAO and 
wanted to make sure that their inquiries were responded to. And 
so I stepped in and made sure that they got a response, and the 
letter does say that the General Counsel of OMB responded to 
their questions.
    Senator Van Hollen. Well, I have the letter you signed 
dated December 20, 2019, here responding to Mr. Armstrong, 
General Counsel at GAO. The last sentence of that letter is, 
``The White House does not plan to respond separately to your 
letter,'' and you cite an OMB letter. Can you tell us today 
under oath that the White House did not have in its own 
possession information that was responsive to the GAO inquiry?
    Mr. Miller. Senator, there are two reasons why I cannot 
respond to that. I cannot talk about confidentiality in the 
White House. Second, I am not familiar with those issues. I am 
familiar with the fact that the previous sentence of the letter 
says the General Counsel of OMB responded to the questions of 
GAO, and instead of having separate responses from Chief of 
Staff Mulvaney and White House Counsel Cipollone, the White 
House was relying on the General Counsel of OMB, the Budget 
Office, to respond to that particular issue.
    Senator Van Hollen. Right, but the letter was seeking 
documents and other factual information. So is it your 
testimony today under oath that the OMB letter and their 
response met all the requirements that you would consider 
necessary to be fully truthful and honest in their response?
    Mr. Miller. Senator, I am simply saying that I sent the 
letter to make sure GAO had the response of the appropriate 
officials in the White House. Regarding the General Counsel's--
--
    Senator Van Hollen. I understand, but----
    Mr. Miller. ----letter, you should ask the General Counsel 
of OMB.
    Senator Van Hollen. Mr. Miller, I understand that. The last 
sentence says, ``The White House does not plan to respond 
separately to your letter.'' So I am asking you whether your 
testimony is that the White House did not have any additional 
information that was responsive to the GAO inquiry. As I 
understand your statement today, you either do not know or will 
not say. Is that correct?
    Mr. Miller. Sir, it is probably both. But I think this is 
an example of no good deed goes unpunished. I have respect for 
GAO. I wanted to make sure the letter was responded to, and the 
letter did get responded to, and they could stop inquiring, and 
they had an answer to their inquiries.
    Senator Van Hollen. But, Mr. Miller, with all respect, what 
your letter says--you are saying it was great that you 
responded, but the last sentence says you do not plan to 
respond separately. So my final question is: If you were 
confirmed in this position and you are an Inspector General and 
an agency gave you the response that you got from the White 
House that you signed, would you find that stonewalling 
acceptable?
    Mr. Miller. First of all, Senator, I think I am over time. 
With the Chairman's indulgence, I would like to continue.
    Chairman Crapo. Briefly, please.
    Mr. Miller. You know, as far as the letter goes, the 
General Counsel of the Office of Budget was answering a budget 
question. And I was simply pointing out, look, you have the 
response. And I am not really sure what your question is 
getting at, Senator.
    Senator Van Hollen. OK. Well, Mr. Chairman, I thank you. It 
was not just asking for OMB's response. The reason they also 
wrote to the White House was to get any documents and relevant 
information that the White House may have had with respect to 
their inquiry. You essentially gave them a nonresponse. You 
said, ``Talk to the other agency.'' My question has been: As an 
IG, would that be acceptable to you conducting investigations?
    Chairman Crapo. Well, we need to move on.
    Senator Van Hollen. I have to conclude from your answers 
that it would not be.
    Thank you, Mr. Chairman.
    Chairman Crapo. We are going to go back now and see if 
Senator Warren is available. Senator Warren.
    Senator Warren. Thank you. So we are in the middle of a 
public health pandemic crisis that has already killed more than 
60,000 people, and half a step behind this health crisis is an 
economic crisis that threatens the security of tens of millions 
of people across this country. The CARES Act created a $500 
billion slush fund for giant corporations, and if confirmed as 
the Special Inspector General, it will be Mr. Miller's job to 
conduct the oversight of this money and to make sure that it is 
spent to benefit workers and families, not shareholders and 
corporate executives.
    So, Mr. Miller, let us just start with the basics. You 
would be given broad authority under the CARES Act to 
investigate all of the money that Treasury hands out in the 
coronavirus response, all of the funds distributed by taxpayer-
backed lending through the Federal Reserve, and what the 
companies do with the loans and grants. Is that correct?
    Mr. Miller. Senator, I will follow the law and make sure 
that I do an investigation of those programs.
    Senator Warren. These are the easy questions. Again, can we 
just do yes, that is right?
    Mr. Miller. Could you repeat the question, please?
    Senator Warren. I am just citing what the law says. It 
will----
    Mr. Miller. I will follow the law, whatever it says.
    Senator Warren. All right. And the law gives you the same 
authority as all Inspectors General under the Inspector General 
Act----
    Mr. Miller. Yes.
    Senator Warren. ----to conduct investigations for the 
``purpose of promoting economy and efficiency'' or ``preventing 
and detecting fraud and abuse in Government programs.'' Is that 
right?
    Mr. Miller. That is correct.
    Senator Warren. OK. So the law gives you the authority and 
it gives you the tools to investigate the people who are 
handing out the money and who get the money. So now I just want 
to ask how you plan to use your authority, and I want to get 
specific on this. I want to ask about how you will investigate 
how the money is used.
    For example, if a giant corporation gets bailouts financed 
by taxpayer dollars from CARES and then lays off or furloughs a 
bunch of its workers, I think we agreed when we spoke yesterday 
that this would constitute potential waste or abuse of taxpayer 
bailout funds. Would you investigate in such a case?
    Mr. Miller. Senator, I am not going to answer 
hypotheticals, but I will tell you that I would investigate any 
misuse of the monies, and the money needs to go to where----
    Senator Warren. I need a general idea, though, of what 
might constitute an abuse in your mind. That is how we evaluate 
whether or not you are going to be an Inspector General who is 
going to be looking out for taxpayer funds. So you said 
yesterday when you and I spoke privately that you thought that 
that would constitute a potential waste or abuse of taxpayer 
bailout funds, and I just want to know: If that is the case, 
would you investigate?
    Mr. Miller. I will investigate any situation that I 
consider an abuse of taxpayer funds.
    Senator Warren. Do you consider a case where a giant 
corporation gets bailouts financed by taxpayer dollars from 
CARES and then lays off a bunch of its workers as at least a 
potential waste or abuse that you would have to investigate and 
find out more?
    Mr. Miller. Yes, Senator.
    Senator Warren. Good, good. So let us do another one we 
talked about. If a giant corporation lobbies Congress or the 
White House and then gets a bailout financed by taxpayers, is 
that a potential situation for fraud or abuse that you would 
investigate?
    Mr. Miller. Well, Senator, I am not comfortable answering 
hypotheticals, but certainly if----
    Senator Warren. I am not comfortable with a person----
    Mr. Miller. ----a company is----
    Senator Warren. ----who will not tell me what he would 
investigate----
    Mr. Miller. The purpose----
    Senator Warren. I am not asking for the name of a 
particular company. I am just asking, in general is that the 
kind of thing that would trigger your saying an investigation 
is appropriate? When we spoke yesterday in private, you said 
you thought it was, and I just want this in public, on the 
record, when you are under oath.
    Mr. Miller. Right, I just want to be careful about 
hypotheticals, Senator. Certainly situations where companies 
are spending the money for profits and laying off workers seems 
to be a situation that I would want to investigate.
    Senator Warren. Good. And how about when companies are 
lobbying Congress or the White House, either one? You said you 
want to look at both. How about that? Is that a potential 
circumstance you would want to investigate?
    Mr. Miller. Again, Senator, I am not comfortable with the 
whole hypothetical----
    Senator Warren. But you were comfortable in private 
yesterday. In fact, when I asked about the White House, you 
said you wanted to include Congress in that as well, a company 
that lobbied both. I do not understand why you will not say the 
same thing in public right now.
    Mr. Miller. You know, Senator, I am going to investigate 
any area that I think is an abuse of these monies because----
    Senator Warren. And what I am trying to ask is do you think 
lobbying and then getting money is a potential for abuse that 
you would investigate.
    Mr. Miller. It is possible, Senator.
    Senator Warren. It is possible, and so if it is possible, 
would you investigate?
    Mr. Miller. And I would investigate it if it were lobbying 
the Congress or the White House.
    Senator Warren. Good. That is all I wanted. And then a 
third one, and that is, even if the Treasury Department does 
not put any restrictions in the loan documents or ask for 
information about how the money will be used or restrict 
corporate lobbying or avoid potential conflicts of interest, 
will you request that information from companies that receive 
loans under this program?
    Mr. Miller. I will investigate all potential conflicts of 
interest, and if I do not have the information through the 
Department of Treasury, I will request and then subpoena the 
information if I do not get it.
    Senator Warren. Good. And will you make that information 
public so that taxpayers can see what is going on?
    Mr. Miller. My goal is to make all information public and 
to inform the taxpayer. The only possible exception, Senator, 
would be if it was part of a criminal referral to the 
Department of Justice.
    Senator Warren. Good. I am very glad to hear that because I 
believe that transparency is important.
    Look, I think that the CARES Act should have slapped 
ironclad rules on companies getting a bailout, but the 
Republicans refused. Now the primary tool that we have to stop 
corporations from using this bailout to enrich themselves is 
rigorous oversight.
    Mr. Miller, your time working as one of President Trump's 
impeachment defense attorneys should have disqualified you from 
being nominated to oversee the President's management of one of 
the largest corporate bailouts in American history. The demands 
on you will be particularly intense because this President has 
already fired multiple Inspectors General because he could not 
tolerate any criticism, and he has already said that he will 
muzzle you. You will, however, have the chance to defend your 
independence and your integrity by your actions if you stick to 
the commitments that you have made here and you are an 
aggressive watchdog, and I am prepared to work with you on it. 
Thank you, Mr. Miller.
    Mr. Miller. Thank you, Senator. I would like to work with 
you even if you do not vote for my confirmation, as you 
indicated yesterday.
    Chairman Crapo. We will now move to Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman. Mr. Miller, Ms. 
Wade, thank you for being there. I regret it is under these 
difficult circumstances.
    Mr. Miller, in response to some of Senator Toomey's 
questions and Senator Kennedy's questions, I feel like we have 
got two different Millers before the Committee. On the one 
hand, we have people questioning your independence, 
particularly under the weight and the pressure of an 
Administration, but you again investigated someone who was 
appointed by President Bush; you yourself were appointed by 
President Bush. That investigation did not change one bit 
regardless of the pressure you got from Capitol Hill and I 
would suspect others. And what was the ultimate disposition of 
the person in the GSA--what was the ultimate disposition of 
that person's position?
    Mr. Miller. She was asked to resign, Senator.
    Senator Tillis. OK. And earlier Ranking Member Brown 
characterized one of your writings as something that seemed to 
question your commitment to independence. In your response to 
him, you said it was a mischaracterization of what you wrote. 
Would you mind going back over that for me very briefly? And 
then I have a question for Ms. Wade as well.
    Mr. Miller. Well, my concern was that Inspectors General 
are independent of both the Executive branch and the 
congressional branch. And my concern with the article was that 
Inspectors General need to understand that they are also 
independent of undue pressure from the Congress, and that is 
the gist of the entire article. In fact, I say in the article 
that it is fundamental for an Inspector General to be 
independent.
    Senator Tillis. So just to sum it up, you investigated 
someone who was put forth by President Bush, you were put forth 
by President Bush; you continued in spite of pressure you were 
getting from Capitol Hill and others, did not change one word 
of your report, and it ultimately resulted in the removal of 
that person from a position. That sounds like a pretty good 
case history on independence to me, but I guess others may have 
a different view.
    Operationally, do you think that the 5-year period is going 
to be sufficient time to audit this program?
    Mr. Miller. Senator, I am going to do my best to work 
myself out of a job. You know, I believe that we need effective 
oversight. I do know that there are a lot of oversight 
instruments, organizations that will be providing oversight. If 
we can do this within 5 years, I would like to do that. But it 
is too early to tell exactly whether 5 years is the right 
amount of time.
    Senator Tillis. Well, thank you, Mr. Miller. I have 
confidence that you will go about this job in a very 
independent way and you will hold anybody accountable who tries 
to veer you off of what you think is right.
    Just one last question for you, and then if time permits, 
Ms. Wade. Is there such a thing as good fraud and bad fraud?
    Mr. Miller. I would think that any fraud is bad.
    Senator Tillis. I think fraud is fraud, and so what I 
expect--and I appreciated the time that you spent on the phone 
with me yesterday. And I asked you if you were committed to 
taking a look at all the benefactors of the programs that come 
under the CARES Act, and you look through the simple lens of 
was any of the monies, the taxpayer dollars, that were sent out 
in good faith to help us recover during this virus response 
inappropriately allocated to somebody because of fraud. I want 
you to go after the big businesses, the small businesses, and 
everybody in between if they have taken advantage of this 
program. I hope that we will not have members on the other side 
of the aisle that will come up with this concept of good fraud 
and justified fraud because, in my opinion, fraud is fraud.
    So I look forward to supporting your nomination, Mr. 
Miller.
    Mr. Miller. Thank you, Senator.
    Senator Tillis. Ms. Wade, we have had some time to digest 
the CARES Act. There are clearly things that we need to do to 
adjust it. We effectively did by appropriating the additional 
more than $300 billion to the Paycheck Protection Program. But 
within your lanes, can you think of anything that we should be 
thinking about moving forward as we make potential changes, 
expansions, refinements, maybe changing deadlines or 
timeframes? Can you think of anything off the top of your head 
that would be within your lanes once you are confirmed?
    Mrs. Wade. Yes, Senator, that is a great question, and I 
appreciate your work here. As you alluded to, the CARES Act has 
already provided tremendous support to housing markets and to 
borrowers. First of all, as you know, it has provided up to a 
year of forbearance for borrowers. It has provided an eviction 
and a foreclosure moratorium.
    I think, you know, this is an evolving situation. It is one 
that we are continuing to monitor on a day-to-day basis and in 
real time, and we will use a data-driven approach to provide 
any additional assistance and any flexibility. But I think, you 
know, when it comes to what should we think of as sort of the 
next phase, HUD always appreciates assistance in providing 
flexibility across offices in order to get this aid and other 
aid, any future assistance that Congress is considering, out as 
quickly as possible. So I would be happy to work with you on 
that objective.
    Senator Tillis. And I can think of the forbearance issue 
and other things we are going to have to take a look at, so I 
look forward to getting your input. Congratulations and happy 
birthday to your little girl tomorrow.
    Thank you, Mr. Chair.
    Chairman Crapo. Next is Senator Warner.
    Senator Warner. [Inaudible] ----questions that have been 
asked. I have been in an Intelligence Committee classified 
brief for the last couple hours.
    I want to start with Mr. Miller on that subject. I think 
some of my colleagues may have asked the question about Michael 
Atkinson, but since this was something I was intimately 
involved with--and I hope I am not looking as yellow to the 
rest of my colleagues as I look on this screen to me. This is 
not a case of full-on jaundice yet.
    Chairman Crapo. We will work on that.
    Senator Warner. Right now this looks pretty god-awful.
    But, Mr. Miller, you know, having been very, very familiar 
with Michael Atkinson and his actions in regard to reporting 
and trying to protect the whistleblower that led to the issue 
around the President's engagement with the Ukrainian President, 
and you having been involved as an IG and then White House 
Counsel, based on any personal knowledge you may have or 
anything that you have seen in the record, is there any 
indication to you that Michael Atkinson was not performing his 
duties appropriately as Inspector General for the intelligence 
community?
    Mr. Miller. Senator, Mr. Atkinson was in an IG position, 
but it was a specialized IG position, and it is governed by 
statutes governing national intelligence. I am just not 
familiar with the facts or the law in that situation, so I am 
reluctant to give an opinion where I do not have all the facts.
    Senator Warner. No, it is nothing that--you are a former IG 
for a decade. You were in the White House Counsel's Office. Was 
there anything even based upon secondary--secondhand knowledge 
that was any kind of evidence that Michael Atkinson was 
inappropriately performing his duties as Inspector General for 
the IC?
    Mr. Miller. Senator, I do not have all the facts.
    Senator Warner. If you accept--my premise was unfortunately 
Mr. Atkinson was fired for doing his job, and regardless of the 
President's legal authority, what kind of effect does the 
President even with legal authority--what kind of chilling 
effect or other effect does it have on the Inspector General 
community if the President is simply firing people because the 
results of their activities lead to substantive results that he 
does not like, whether, obviously, in the case of the 
whistleblower's complaint in the case of Ukraine or the more 
recent dismissal of the Inspectors General over at HHS in terms 
of doing their work on an independent investigation, what kind 
of effect does the President's actions have on your previous 
community's IGs?
    Mr. Miller. Senator, my experience as an IG is that an IG 
always faces the possibility that they may be fired. They serve 
at the pleasure of the President, and they may be fired for 
whatever reasons as long as the President states them in 
writing to both Houses of Congress. And so you just have to do 
your job and let the consequences be what they may be. But you 
should never be afraid of stating the truth, and if you have to 
be fired, you are fired. But you always have to be prepared at 
least to walk away from your job. That goes with the territory 
of being an Inspector General.
    Senator Warner. So you have no concerns from kind of a 
standpoint of the Inspector General community, and, clearly, 
you would be taking on a position here that it appears the 
President, one, does not like IGs; two, does not like oversight 
generally; and, three, we are talking about an area where there 
is huge distributions of funds. You know, I understand you are 
trying to get through a nomination process here, but it just 
seems to me that this record of firing IGs based upon the 
substantive results of their work differing from the 
President's positions would be something that would cause some 
consternation.
    I see my time is about up, but I would like to also submit, 
Mr. Chairman, some questions for the record for Ms. Wade in 
terms of how we are going to deal with the forbearance issues 
going forward and the possible need of a liquidity facility 
that I think the Fed is interested in to make sure that we do 
not have more major disruptions in the housing market.
    Thank you for the time.
    Chairman Crapo. And you will be able to submit questions at 
the end. I will put the date on that. They would be due by May 
7th. I will repeat that at the end of the hearing.
    Senator Cotton has also given me a letter. He was at that 
Intelligence Committee hearing as well and has been unable to 
get to this hearing. He, too, looks forward to submitting some 
questions and does also want to have a conversation with you in 
person, Mr. Miller, and so you could expect to have that 
conversation.
    Our next Senator will be Senator Cortez Masto.
    Senator Cortez Masto. Good afternoon, everyone. I want to 
congratulate both Mr. Miller and Mrs. Wade on your nominations, 
and thank you for taking the time to speak with me over the 
phone.
    Mrs. Wade, let me start with you. We had this conversation 
when I talked with you on the phone, but as you know, in Nevada 
we were so hard hit by the financial crisis, and during that 
time I saw where lenders who took people's homes, they took 
them in foreclosure, and there was, unfortunately, a forging of 
documents and lying to customers. And in September of 2017, 
HUD's Office of Inspector General issued a report entitled, 
``HUD did not have adequate controls to ensure that servicers 
properly engaged in loss mitigation.''
    Now fast forward to where we are today. Last week, the HUD 
Office of Inspector General published another report on its 
review of 30 FHA servicers' websites, and the report found that 
the servicers' websites provided incomplete, inconsistent data 
and unclear guidance to borrowers related to their forbearance 
options under the CARES Act. Servicers should obviously not be 
providing this type of misinformation. It is conduct that I 
worked so hard as Attorney General, so many of us did, to 
correct and prevent, and we are seeing it again.
    So my question to you is: How do you ensure that servicers 
provide clear and fair guidance on forbearance to homeowners 
and prevent this type of bad conduct from occurring during this 
crisis?
    Mrs. Wade. Senator, I appreciate the question. This is a 
very important issue to me, and I want to start by saying, you 
know, first of all, fraud at any level should never be 
tolerated, and I think we learned a lot of lessons following 
the financial crisis.
    To your point specifically about ensuring that servicers 
are communicating the right policies to homeowners, that is 
also a priority. You know, again, this can be a confusing time; 
it is an uncertain time. And if confirmed, I would do whatever 
I could do to ensure that there was as much clarity there as 
possible. In particular, I know currently HUD is working with 
the CFPB, with the FHFA, to provide a single source for 
information to borrowers. You know, I think this is something 
we have to monitor vigilantly. We want to make sure that these 
programs are working as they are designed. And as you 
mentioned, servicers are required to provide forbearance as 
well as loss mitigation, and they are required to follow 
certain policies of FHA.
    So, you know, again, if confirmed, this is something that I 
plan to take a look at and keep a close eye on.
    Senator Cortez Masto. Well, thank you, and I am already 
hearing anecdotally some stories from homeowners about what 
servicers are telling them.
    Let me ask you this: Are you also willing to take a look at 
the oversight of servicers by appropriate sampling and review 
of companies and talking with borrowers? I am hopeful that you 
are engaged at that level. That is the only way we are going to 
stop any type of bad conduct by servicers.
    Mrs. Wade. Well, Senator, I will take a look at any data 
that is presented to me, and as you know, FHA has a lot of 
enforcement tools available. I believe in strong and clear 
enforcement. It is another important objective. And so, again--
--
    Senator Cortez Masto. Can I ask you this? And I do not mean 
to cut you off, but I only have so much time. So there should 
be a complaint process. You should be able to access this 
information readily, and that is what I am looking for. So I am 
hopeful that, working with you, we can ensure that we are 
addressing this issue. I think we all know all fraud is bad. I 
do not care what side of the aisle we sit on. All fraud is bad, 
and we want to stop it. And so we need to make sure that we are 
accessing the information to help us identify it, so then 
enforcement action can be taken. So I hope that we are able to 
do so.
    Let me jump to Mr. Miller real quick. Mr. Miller, there is 
no doubt in my mind that you have got extensive experience as 
IG, and I am very impressed by your background and your resume. 
But let me just say this--and you can tell from all of the 
conversations that my colleagues are asking you, there is a 
concern with this Administration and a lack of independence. It 
is not that the President is somehow not saying this overtly 
and he is covertly hiding behind the scenes and talking about 
how he is not going to be held accountable. He is actually 
saying in public--in fact, instead of respecting the CARES Act 
and longstanding precedents supporting the independence of 
Inspectors General, which you have been for so many years, the 
President said, ``I will be the oversight.'' I mean, he is very 
clear about it, and that is why you are getting these 
questions.
    So let me just ask you very quickly: If the White House or 
an agency asks you to withhold information, would you notify 
Congress immediately of this request?
    Mr. Miller. Yes, Senator.
    Senator Cortez Masto. If the White House wanted Treasury to 
show preference in the CARES Act funding to States for 
political gain, would you consider that a violation and report 
it immediately to Congress?
    Mr. Miller. Senator, I did not hear all of your question. I 
am sorry.
    Senator Cortez Masto. If the White House wanted Treasury to 
show preference in the CARES Act funding to States for 
political gain, would you consider that a violation and----
    Mr. Miller. I would consider that a violation, Senator.
    Senator Cortez Masto. If the White House wanted Treasury to 
obtain information on corporate political donations prior to 
Treasury allocating CARES Act financing, would you consider 
that a violation and report it immediately to Congress?
    Mr. Miller. Senator, I need more facts, but that does sound 
like it could be.
    Senator Cortez Masto. Do you plan to gain Presidential 
approval before investigating contracts, issuing reports, or 
communicating with Congress?
    Mr. Miller. No, Senator.
    Senator Cortez Masto. Thank you. Listen, most of the 
questions have been asked, but these are serious times, and 
this is such an important issue with respect to the act, and 
making sure we are doing right by so many people across this 
country, there are so many, and too many people are still 
suffering, and we are looking for people to stand up and do the 
right thing here. And so I appreciate your willingness to work, 
quite honestly, in this Administration with everything that is 
going on, but we are going to hold you accountable. And at the 
end of the day, I am hopeful that I get to work with both of 
you. But we are going to ask the tough questions, and I am not 
going to let up. It is too important that we address the 
suffering that is happening across this country.
    So thank you again.
    Mr. Miller. Thank you.
    Chairman Crapo. Thank you.
    Senator Jones.
    Senator Jones. Thank you, Mr. Chairman. I hope everybody 
can hear me.
    Mr. Miller, thank you for the phone call the other day. I 
want to ask you three questions that just require an answer 
with a number. One a scale of one to ten, with zero and one 
being no respect and ten being absolute, unshakable respect, 
how would you rate President Bush's respect for the 
independence of Inspectors General?
    Mr. Miller. Senator, I am not comfortable evaluating 
Presidents' performances, whether it is past Presidents or the 
current President.
    Senator Jones. Well, would you at least acknowledge then 
that this President has a view of the independence of 
Inspectors General that is so far less than President Bush or 
President Obama? Even though they have let folks go, this 
President--can you at least acknowledge that this President--
because you told me the other day in our phone call that it was 
a challenge, it would be a challenge working for President 
Trump. Can you at least acknowledge that?
    Mr. Miller. This is going to be a very challenging and 
demanding position. There is no question about that. And I will 
go where the facts lead, and they may be facts that the 
President and the Administration do not like, but I will state 
them anyway.
    Senator Jones. Well, I appreciate that, but I keep hearing 
so much--and, look, you have got great records. You have got 
great experience. My friend Helen Fahey, who I served with as 
U.S. Attorney, thinks highly of you. But I have also heard so 
much about this one time when you challenged President Bush. 
But the fact is this President is harder to challenge, and I 
think everybody recognizes that. I would hope to see some 
acknowledgment of that from you a little bit more than we have 
today because that really kind of shows the independence.
    You did mention that you might--there would be occasions 
where you would either resign or walk away, but are there other 
ways to push back on a President who is trying to influence the 
independence of an Inspector General short of just walking away 
from the job in frustration?
    Mr. Miller. Certainly, and I will do my job to the best of 
my ability, and I will do the job of an Inspector General. 
Sometimes that involves working with Administration officials 
to convince them that they should change the program or that 
they should allow you to get information. That is part of 
leadership and experience, both of which I have and would like 
to use as Inspector General to avoid these conflicts. And it 
has been more than one time that I have had to investigate and 
make adverse reports and face tough criticism, not just with 
the one Administrator that was removed but with major 
contractors and even political appointees in both 
Administrations.
    Senator Jones. In any of those Administrations, did you 
ever work as a lawyer in the White House Counsel for those 
Administrations?
    Mr. Miller. Did I work as a lawyer?
    Senator Jones. Yeah. Were you in the White House Counsel 
for those Administrations and then became an Inspector General 
like you are moving to now?
    Mr. Miller. I have not, but President Obama--since my 
conversation with a Senator yesterday, I went back and 
refreshed my recollection, but President Obama appointed Elena 
Kagan to the Supreme Court, and she had been in a political 
position in his Administration and had served in the Clinton 
White House.
    Senator Jones. OK. I appreciate that.
    Mr. Miller. And there were others.
    Senator Jones. And my question was--and it is OK. I mean, 
look, I was hoping to get a little bit more from you, but it is 
OK.
    Mr. Miller. I am not sure what you want.
    Senator Jones. Well, I was asking about you, not about 
Elena Kagan. I know her history.
    Mr. Miller. OK, and there is----
    Senator Jones. I was just trying to help out a little bit, 
to try to establish a little bit that when you say you are 
going to be independent, your job being independent here is 
going to be harder than just about any other Inspector General. 
But my time is running out. I appreciate your being here and I 
appreciate you are willing to serve, Mr. Miller. I really do. 
And I hope you will be as tough and as independent as you say 
and as to some extent your history says.
    I would like to get a question to Ms. Wade, though. I 
appreciate, Ms. Wade, even though I was very disappointed to 
see your old boss not wearing his University of Alabama mask--I 
thought that would be really good for the Committee this 
morning. But I would like to ask you about the proposed rule 
for disparate impact that HUD has now published. And I am very 
concerned about that rule and how it is going to, in my view, 
make it almost impossible to bring discrimination complaints. 
Are you familiar with that rule? And do you have an opinion 
about that rule?
    Mrs. Wade. Well, Senator, I appreciate the question. I 
understand that Secretary Carson has already addressed this. It 
is my understanding that the intent of the rule is to codify 
the 2015 Supreme Court decision. However, this is not a rule 
that would be under my direct purview as FHA Commissioner.
    Senator Jones. OK. I still do not think Secretary Carson 
addressed it. I think he gave an answer, but I certainly cannot 
agree that he fully addressed it, and I think it is 
inconsistent with that. But be that as it may, I will leave it 
there. I may have some questions for the record for both of 
you.
    Thank you, Mr. Chairman, for having this hearing, and thank 
you, everybody, for participating.
    Chairman Crapo. Thank you.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman and Ranking Member 
Brown, and thank you to both Mr. Miller and Mrs. Wade for being 
willing to serve. And thank you, Mr. Miller, for our 
conversation yesterday.
    I want to try to get a sense from you of how you see the 
authority of the Special IG, what parts of the CARES Act you 
see you have authority over, and so here is one example. I have 
heard from a lot of Minnesotans about problems getting the 
recovery rebate payments that most Americans were supposed to 
receive. Minnesotans are calling my office and saying that the 
payments went to the wrong bank or to a bank account that does 
not exist or people are getting payments based on their 2018 
tax information even though they filed 2019 returns. And, of 
course, some payments are going to dead people, and folks do 
not know how to return them.
    This strikes me as exactly the kind of waste and 
mismanagement that an Inspector General should be looking into. 
But when I have asked the IRS about these problems, what they 
have told us is that my constituents should just wait until 
next year when they file their 2020 tax return, and then these 
issues would be resolved by then. But, of course, these are 
folks that are needing that $1,200 to pay rent or they might 
get evicted, to buy groceries so they can postpone going to the 
food shelves.
    So my question is this: If you are confirmed, the CARES Act 
would charge you with examining the management of the Secretary 
of any program established under this act. Do you believe that 
you would have jurisdiction over looking at how these recovery 
rebate payments have been made?
    Mr. Miller. If the CARES Act gives me that authority to 
review how the Secretary is performing, administering the 
programs, certainly I would look at that. And certainly in the 
situation that you describe, I certainly would be working with 
the Small Business Administration IG and with the so-called 
PRAC, Accountability Committee of IGs, and making sure that 
they are examining how these programs are being administered 
and how these payments are being misdirected.
    Senator Smith. But do you believe that the CARES Act does 
give you that authority?
    Mr. Miller. The CARES Act gives me authority certainly over 
Title IV of the CARES Act and certainly authority to work with 
the PRAC and the IGs individually. And I think one of the 
lessons that I have learned from the SIGTARP is to form task 
forces to obtain authority and jurisdiction in areas that need 
to be explored. And so certainly I would try and obtain 
authority where necessary to look into those matters. And if I 
did not have that authority, I would try and make sure that the 
IG that has authority is actively and aggressively going after 
that.
    Senator Smith. OK. Well, I think that my view is that you 
would have that authority, and this is exactly the kind of 
mismanagement that we need to look into. But let me ask you 
another one.
    There has been a real worry about how these direct recovery 
payments are getting to people who are experiencing 
homelessness, so I wrote a letter to Secretary Mnuchin about 
this--27 of my colleagues signed on--asking the Treasury 
Department how they plan to make sure that folks that are 
experiencing homelessness could access their coronavirus 
payments, and I have not heard back. Meanwhile, the IRS has 
published some promotional materials telling people 
experiencing homelessness that they can sign up online. But, 
clearly, that is not going to work if you do not have access to 
online solutions like countless Americans and people especially 
experiencing homelessness do not.
    So would you consider that a part of your role as Special 
Inspector General to make sure that all Americans can get 
access to these payments as the law requires?
    Mr. Miller. Senator, certainly I would look into that 
situation, and certainly I would like the act to get the money 
to the people that it is intended to have the money. Certainly 
this money is necessary to help average Americans during this 
time and small businesses that are being depleted during this 
time and to replace paychecks that they otherwise would have 
gotten.
    Senator Smith. See, I think that one of the most important 
things that you can do in this Inspector General role is to 
hold the Administration accountable for implementing this law 
as the law was intended. And so that is why we so carefully 
included this Inspector General in this job, and it is why 
honestly so many of my colleagues are so concerned about this, 
especially since, you know, when he signed the act, the 
President said, ``Oh, by the way, you know, I can say whether 
or not the Inspector General shares information with 
Congress.'' And that is why we included this language in the 
bill, because we wanted to make sure that that did happen.
    So this is, I think, why people are feeling so concerned. 
You know, we talked about this yesterday. I appreciate you 
getting on the phone with me and talking about it, but I have 
to say I remain concerned about this.
    I also just want to say one last thing before we wrap this 
up. This is focused on part of the CARES Act that is extremely 
important to me. It has to do with the tribal governments and 
getting the $8 billion in tribal recovery relief to America's 
tribal governments, including Minnesota tribes who are 
suffering greatly right now. The Navajo Nation in New Mexico is 
another example as one of the worst-hit hot spots in the entire 
country, and yet we are still waiting for the Treasury 
Department to release the $8 billion that was appropriated and 
authorized by Congress in the CARES Act. And I just want to 
draw attention to this, colleagues. This is unacceptable. The 
Treasury Department has said something today about how they 
might get it out. The deadline for this was April 26, and 
tribal governments are dealing with a catastrophic loss of 
revenue and employment.
    Mr. Miller, these are the kinds of challenges that you are 
going to be having to cope with, I believe, if you are 
confirmed to this role, holding this Administration accountable 
when it is not doing what the law requires it to do. And it is 
why we need such a strong Inspector General. So thank you for 
your willingness to serve.
    Mrs. Wade, I have a couple questions for the record for 
you, and I am grateful for your willingness to serve as well.
    Thank you, Mr. Chair.
    Chairman Crapo. Thank you.
    And Senator Brown, our Ranking Member, will have the final 
question. Senator Brown.
    Senator Brown. Thank you, and if I could, Mr. Chair, a 
final question for each one of them. And thank you for the 
forbearance of all of you. I think this was an unmitigated 
success today, doing this hearing this way. There were probably 
a lot of skeptics on the Hill about whether you could pull it 
off, so thanks again to Gregg and to Laura and to Cameron, the 
three real stars who put this together. And, Mike, thank you 
for doing this, too.
    I wanted to just echo for a moment what Senator Smith just 
said about tribal governments. I was on a call this morning 
with a number of community action agencies and what has 
happened with health disparities in this country. Somebody said 
to me, not in this meeting but in an earlier conference call 
earlier in the week, that the pandemic is really the great 
revealer in so much of what has happened with tribal health and 
African Americans' health in terms of infant mortality, 
maternal mortality, life expectancy is so glaring, and I am 
hopeful that both of you as public servants, long-time public 
servants in the case of both of you, will pay special attention 
to what Senator Smith said, and all of us on these issues. But 
I have just a comment or a question to each.
    Mrs. Wade, I would like to follow up on Senator Rounds' 
comments. I never suggested that you did anything 
inappropriate. I did not use that word. I do not think you did 
anything inappropriate. I did say that under your leadership 
OMB approved rules that civil rights leaders and housing 
advocates and faith leaders and many Members of this body 
described as ranging from problematic to contrary to the 
purpose of the law, including fair housing. You said you would 
enforce vigorously the Fair Housing Act. But when most of the 
participants--again, housing advocates, civil rights leaders, 
faith leaders--think what you did there was compromising that, 
that is concerning. These rules would undoubtedly be 
devastating to millions of people, especially people of color, 
especially low- and moderate-income people.
    So my question is this: How do I square your work at OMB 
with the comments you have made today that you now plan to help 
so many of those same people?
    Mrs. Wade. Well, Senator, I appreciate the question, and, 
you know, I can only assure you and promise to you that I will 
do everything to enforce the Nation's fair housing laws and 
that I find housing discrimination abhorrent and completely 
unacceptable. HUD spends a lot of time investigating fair 
housing complaints. It has an entire office that is dedicated 
to investigating and to enforcing the Nation's fair housing 
laws. If confirmed, I will do whatever I can to support those 
efforts.
    Senator Brown. Well, I appreciate that. I take you at your 
word. I also, though, am a bit cautious about not believing you 
but thinking you will do this, because at OMB you essentially 
did the opposite, at least according to people that I trust on 
these issues, including civil rights and housing advocates. And 
they think this is, in fact, just, you know, setting more in 
concrete the kind of discrimination from Jim Crow to redlining 
to what we have now. But thank you and good luck to you through 
this process.
    Mr. Miller, a follow-up on an earlier question. You said 
you would use your authority to oversee the Secretary of the 
Treasury. This was my mistake in the hearing because I should 
have followed up, but you did not say anything about the 
Federal Reserve. The Treasury is authorized, as you know, to 
give hundreds of billions to the Federal Reserve, which will 
then lend trillions of dollars to businesses. So do you believe 
the law that created this Special IG that you have been 
nominated for gives you the authority to oversee the Fed's 
lending facilities and the companies who receive loans under 
these facilities? You said Treasury. Do you mean also that you 
have the authority to oversee the Fed's lending facilities?
    Mr. Miller. A very good question, Senator. At this point in 
time, looking at the act, it is clear that I have jurisdiction 
over the actions of the Secretary of the Treasury. And right 
now I consider every dollar that goes from Treasury through the 
Federal Reserve to also give me jurisdiction over the Federal 
Reserve.
    Now, you know, if I am fortunate enough to be confirmed and 
I analyze that and come up with a different view, I may be 
knocking on your door to get more explicit authority.
    Senator Brown. OK. I appreciate that. That is exactly what 
we wanted to hear, and it is essential. I mean, it is trillions 
of dollars, as you know.
    A last final thing, Mr. Chairman. Again, thank you for your 
forbearance.
    Mr. Miller, you have been evasive on questions about your 
work in the White House. Senator after Senator asked what 
matters you were involved in so we can understand your 
background, not the specifics of what you did. I am not a 
lawyer, but I understand attorney-client privilege. I 
understand those issues working in even the highest echelons of 
Government. But they were not asking you specifics, again, of 
what you did. They were asking you so that we understand who 
you are better, what matters you were involved in. No one wants 
you to violate privilege, but this is a job interview, and your 
background is important to evaluate how you will do your job. 
Unfortunately, you did not give us that information in this 
hearing.
    Mr. Chairman, thank you again for this first-of-its-kind 
hearing that I think we will see more of. Thanks.
    Chairman Crapo. Thank you very much, Senator Brown, and 
that does conclude the questioning.
    Again, I appreciate both you, Mr. Miller, and Mrs. Wade for 
taking the time and coming here and presenting yourselves in 
these unique new circumstances.
    Senator Brown. Mr. Chairman, could I say one more thing?
    Chairman Crapo. Sure.
    Senator Brown. I appreciated the witnesses and the Chairman 
wearing masks when they were there. All the people that called 
in from their offices obviously did not need masks, but I 
appreciate the Chairman and the witnesses wearing masks. I know 
how strongly Governor DeWine feels about that in my State. So 
thank you for that.
    Chairman Crapo. Well, thank you. And I also want, in 
addition to Gregg and Laura and Cameron, to extend our thanks 
to the Recording Studio and the Rules Committee, who have 
worked so closely with us. There was so much work that went on 
behind the scenes to make this come together, and as Senator 
Brown has indicated, I think it is a success just in terms of 
the technological ability to put this kind of a hearing on in 
these difficult circumstances and do it in a successful way.
    We also want to extend our thanks to all of the workers who 
prepared and cleaned this room, our law enforcement officials, 
and all of the others who have come to make sure that we can 
operate and do our jobs in the U.S. Senate Banking Committee.
    As I said, that does conclude the questioning at today's 
hearing. For Senators who want to submit questions for the 
record, those questions are due to the Committee by Thursday, 
May 7th. We ask that both of you nominees respond to these 
questions by 9 a.m. Monday morning, May 11th.
    Again, we thank you for being here, and this hearing is 
adjourned.
    [Whereupon, at 4:37 p.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of nominees, 
responses to written questions, and additional material 
supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    Since this is our first hybrid hearing, a brief explanation of how 
it will work will benefit Senators and the public.
    The hearing room has been configured to maintain the recommended 6-
foot social distancing between senators, nominees, and other 
individuals in the room necessary to operate the hearing, which we have 
kept to a minimum.
    A number of senators have chosen to use secure video teleconference 
technology, which will allow them to remotely participate.
    For those joining by video conference, once you start speaking, 
there will be a slight delay before you are displayed on screen.
    To minimize background noise, we are asking senators who are using 
the video conference option to please click the mute button until it is 
their turn to ask questions.
    If there is a technology issue, we will move to the next senator 
until it is resolved.
    I would remind all senators and the nominees that the 5-minute 
clock still applies.
    For senators using the video option, you will notice a screen 
labeled ``clock'' that will show how much time is remaining.
    At about 30 seconds remaining, I will gently tap the gavel to 
remind senators their time has almost expired.
    To simplify the speaking order process, Senator Brown and I have 
agreed to go by seniority for this first hybrid hearing.
    Thank you to those of you who are here today, those appearing 
before us, and those who are keeping the Capitol complex safe and 
functioning while we honor our Constitutional duty.
    The coronavirus, or COVID-19, pandemic has challenged our sense of 
normalcy, and it has tested every institution of daily life we know.
    The crisis has had a major impact on the physical and economic 
health of our country, and a major response has been required.
    Congress and the Administration have taken bold, dramatic steps to 
limit the depth of economic shock the country is currently 
experiencing, and to provide conditions for a quick and robust economic 
recovery once economic restrictions are lifted.
    The CARES Act went into effect just over 1 month ago, putting 
needed cash directly into the hands of American workers and families, 
providing rapid relief to small businesses, helping to stabilize our 
markets and the economy, and sending a massive new infusion of 
resources to the front lines of the medical response.
    Title IV of the CARES Act, which is under the Banking Committee's 
jurisdiction, provides $500 billion in emergency relief in order to 
provide liquidity to eligible businesses, States, municipalities and 
Tribes related to losses incurred as a result of coronavirus.
    Implementing this title is an important step to supporting the flow 
of credit in the economy.
    On April 9, 2020, the Federal Reserve Board and Department of 
Treasury announced new and expanded lending programs to provide up to 
$2.3 trillion in loans.
    The 13(3) Federal Reserve facilities, specifically the Main Street 
Lending Facilities, are crucial components of the strategy to support 
the economy and promote a U-shaped recovery, which reinforces the need 
to have them up and operating, and being as broadly available for as 
many businesses as possible.
    Title IV includes robust oversight requirements to ensure the 
statute is followed, and to protect against waste, fraud, and abuse.
    The Special Inspector General for Pandemic Recovery will oversee 
the reporting and auditing requirements of the law, and it is critical 
that we quickly confirm the nominee so that important work can begin.
    This afternoon, we will consider the nominations of The Honorable 
Brian Miller, of Virginia, to be Special Inspector General for Pandemic 
Recovery; and Mrs. Dana Wade, of the District of Columbia, to be 
Assistant Secretary for Housing and Federal Housing Commissioner at the 
U.S. Department of Housing and Urban Development.
    Welcome and congratulations on your nominations to these important 
positions.
    Section 4018 of the CARES Act establishes the Special Inspector 
General for Pandemic Recovery.
    The duty of the SIGPR is to ``conduct, supervise, and coordinate 
audits and investigations of the making, purchase, management, and sale 
of loans, loan guarantees and other investments made by the Secretary 
of the Treasury under any program established by the Secretary under 
this Act, and the management by the Secretary of any program 
established under this Act.''
    Mr. Miller is highly qualified for the Special Inspector General 
position, having served as the Inspector General for the General 
Services Administration for nearly a decade.
    The Senate confirmed Mr. Miller for that position in 2005 via voice 
vote, a position he held for nearly 10 years.
    In that role, Mr. Miller led more than 300 auditors, special 
agents, attorneys, and support staff in conducting nationwide audits 
and investigations; and reported on fraud, waste and abuse.
    He has been outspoken on the need for inspectors general to have 
independence and access to information, and I am confident that he will 
carry out the responsibilities and mission of this position diligently, 
independently, and objectively.
    During a Senate Judiciary Committee hearing in 2015, Mr. Miller 
noted, `` . . . in order to have effective oversight, an IG must have 
independence to conduct an investigation, review or audit. This 
includes determining what information is needed. It is the judgment of 
the IG conducting the investigation that matters, not the judgment of 
the agency being investigated.''
    I encourage my colleagues to support Mr. Miller's nomination, so 
that he can begin this vital oversight role.
    Turning to Mrs. Dana Wade. Dana Wade is well prepared to take over 
the reins at the Federal Housing Administration (FHA).
    She is familiar to the task, having operated as Acting Federal 
Housing Commissioner and General Deputy Assistant Secretary for the 
Office of Housing.
    As Acting Commissioner, she directly managed FHA's portfolio of 
single family, multifamily, and healthcare insurance; Section 8 
project-based rental assistance; the Office of Manufactured Housing; 
and over 2,400 personnel agencywide.
    Mrs. Wade's extensive record of housing policy experience also 
includes service as Senior Advisor to Secretary Ben Carson, Deputy 
Staff Director to this Committee and the Senate Appropriations 
Committee, and as Associate Director at the Office of Management and 
Budget, where she led all housing-related issues and supervised HUD, 
among other agencies.
    Great leadership will be required at FHA during this unprecedented 
time of strain on both home ownership and rental markets.
    In the wake of COVID-19, we have already seen over 10 percent of 
FHA borrowers enter mortgage forbearance, FHA-insured healthcare 
facilities feeling significant strain, and many FHA-assisted landlords 
struggle to make ends meet while countless renters are unsure where 
their next rent payment will come from.
    In the months ahead, FHA will be on the front lines helping many of 
these families get back on their feet and providing much-needed 
liquidity throughout the housing finance system.
    I am confident that Mrs. Wade will provide exactly the type of 
leadership that is needed during this critical time, as Commissioner 
Montgomery has done.
    I encourage my colleagues to support Mrs. Wade's nomination, as 
well as to confirm Brian Montgomery as Deputy Secretary, so that we can 
best position HUD to tackle the challenges ahead.
    Congratulations again to each of you on your nominations, and I 
thank you and your families for your willingness to serve.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    I would like to begin by saying ``thank you'' to staff at the 
Sergeant at Arms, the Architect of the Capitol, the Office of the 
Attending Physician, the Recording Studio, and the Senate Rules 
Committee for working very hard over the last couple of weeks to try to 
make hearings as safe as possible, including by using technology for 
Members to join hearings remotely. And, I want to thank all of the 
Capitol Police and other Senate staff and contractors who have been 
working to make sure the Senate continues to run.
    I also want to thank Chairman Crapo and his staff for working with 
my staff and me to coordinate this hearing and provide a remote option 
for Senators to join. It's the right thing to do to keep everyone safe.
    I am very concerned, however, at the reckless decision by Leader 
Mitch McConnell to open the Senate to session, despite ongoing 
emergency stay-at-home orders all over the country, including in 
Washington, D.C., Maryland, and Virginia.
    Leader McConnell's actions are forcing Capitol complex workers--
including contract workers like the cleaning staff who just cleaned 
this hearing room and will clean again, and food service workers who 
just served the Republican caucus lunch--to go against public health 
authorities' advice, and put themselves at risk to come into work.
    The Republican Leader's agenda this week doesn't include assistance 
for the unemployed, anything that helps people to stay in their homes, 
or support for community health services. Those are issues the Senate 
should be taking on right now.
    I want to congratulate the nominees and thank them for their 
willingness to serve. This is probably not the confirmation hearing you 
had hoped for. And, I want to thank your families watching from home.
    The Special Inspector General for Pandemic Recovery will oversee 
the CARES Act lending and investment programs that were designed to 
stabilize our economy and get help to communities and workers and small 
businesses that are hurting during this pandemic. And this lending will 
be critical to restarting our economy, to begin the recovery.
    The Federal Housing Administration Commissioner faces an affordable 
housing crisis made even worse by the pandemic.
    The stability and future of millions of families are on the line as 
Congress and the Administration respond to this crisis. If confirmed, 
the two of you will serve in positions that are crucial to implementing 
the policy responses to the COVID-19 pandemic.
    This Committee has oversight over the Treasury and Federal Reserve 
loan programs under the CARES Act. That's why I fought for the Office 
of the Special Inspector General for Pandemic Recovery. The American 
people need a strong watchdog to make sure the 500 billion dollars of 
taxpayer money provided under the Act, and the four trillion dollars 
that the Federal Reserve will lend, actually goes to support workers 
and communities and small businesses.
    Because the Act grants the Treasury Secretary and the Federal 
Reserve broad discretion over who gets these loans and on what terms, 
the Special Inspector General will need to examine the loan terms, the 
transactions, the lenders involved, and the eligibility of borrowers.
    We've seen how the Small Business loans went to big companies and 
important clients of Wall Street banks, while community banks and 
credit unions and their customers on Main Street and in underserved 
communities waited and waited. I think most of us have all heard the 
frustration from restaurants and barber shops and cafes and so many 
other small businesses in our States, that are facing impossible 
decisions right now. They've spent hours on the phones trying to talk 
to someone about a loan, and have either been turned down or can't get 
answers, while big, well-connected franchises go to the front of the 
line. It's unacceptable.
    We can't let the same thing happen with these loans by Treasury and 
the Fed. The problems with the SBA loans should be a lesson to 
Congress, as we consider additional recovery measures, and to the 
Special Inspector General.
    In addition to those concerns, President Trump has shown outright 
hostility toward anyone who tries to hold him accountable to the 
American people he serves, including inspectors general. He removed the 
acting IG for the Defense Department who was set to become the chairman 
of the Pandemic Recovery Accountability Committee, he fired the 
intelligence community IG, and last Friday, he replaced the acting 
Health and Human Services IG. All of these professionals did their jobs 
and exposed misconduct in the Administration.
    Looking at the last 20 years, we found only one IG candidate was 
nominated while serving in the White House Counsel's office, and 
another nominee served in the White House Counsel's office under an 
earlier Administration. Both of them resigned, one for politicizing the 
office and the other for a lack of independence. Not a great track 
record.
    We passed the CARES Act to support our economy, by helping workers, 
Main Street businesses, State and local governments, and nonprofits. We 
cannot tolerate businesses and their workers suffering to protect the 
President, his family, or their allies, because of corruption, misuse, 
or favoritism.
    Mr. Miller, if you are confirmed, I expect you to follow the letter 
and spirit of the law, and serve the American people--not President 
Trump. As Special Inspector General, you must be willing to stand up to 
the Administration and any other bad actor and to uphold the goals of 
the law. Anything less is unacceptable.
    While Mr. Miller is the only nominee before us today with 
``Pandemic Recovery'' in his title, make no mistake--the FHA and the 
Office of Housing will be on the front lines of our Nation's response 
as well.
    In good times, FHA provides access to affordable home ownership for 
millions of families. When the economy slows, as it is today, the FHA 
is expected to step up to meet the needs of more households and keep 
the mortgage market working, even as others in the market retreat.
    During the 2008 financial crisis, economists estimated that FHA's 
actions helped prevent an additional 25 percent decline in housing 
prices and the loss of an additional 3 million jobs.
    FHA's decisions will determine whether families can remain in their 
homes, or whether communities face a foreclosure crisis on top of a 
public health crisis.
    They will also help determine whether the burden of this downturn, 
like the 2008 crisis, falls most heavily on communities of color and 
exacerbates economic inequality, or whether we will adopt policies and 
do oversight to provide an equitable recovery that keeps affordable 
housing in the hands of homeowners and communities, rather than Wall 
Street investors.
    And decisions at the Office of Housing, which Mrs. Wade would lead 
if confirmed, will determine whether policies and funding are in place 
to keep the lowest income seniors, persons with disabilities, and 
people in HUD-financed healthcare facilities safe during this pandemic.
    Over the past 3 years, this Administration has tried to gut funding 
to housing and community development programs, rolled back fair housing 
protections and other civil rights protections, undermined the safety 
of manufactured housing residents, and tried to make home ownership 
more expensive and harder to attain.
    I hope the answers Mrs. Wade provides today will make clear that 
she will fight to reverse that trend.
    Thank you, Mr. Chairman and I look forward to hearing from the 
nominees.
                                 ______
                                 
                 PREPARED STATEMENT OF BRIAN D. MILLER
 To Be Special Inspector General for Pandemic Recovery, Department of 
                              the Treasury
                              May 5, 2020
    I want to thank the Chairman and Ranking Member for having this 
hearing. I want to thank President Trump for nominating me. Most of 
all, I want to thank my wife and family for their encouragement to 
continue public service, especially in such a demanding job. Thank you.
    I have been fortunate to have a long career in public service that 
has prepared me well for this position. I have close to 30 years of 
experience in the Federal Government. Fifteen years in the Department 
of Justice and nearly 10 years as the Senate confirmed Inspector 
General of the General Services Administration, serving across 
Republican and Democrat administrations. I have also served as an 
independent corporate monitor and practiced law in the areas of ethics 
and compliance, Government contracts, and internal investigations.
    I am amazed and humbled by the letters of support that I received 
in such a short time period of time during a pandemic. I am deeply 
grateful to those who signed from all varieties of political stripes--
from officials in the Obama, Bush, and Clinton administrations. I would 
like them to know that I will always endeavor to be the man they 
describe in their letters.
    If confirmed, I will conduct every audit and investigation with 
fairness and impartiality. I will be vigilant to protect the integrity 
and independence of the Office of Special Inspector General. I pledge 
to seek the truth in all matters that come before me and to use my 
authority and resources to uncover fraud, waste, and abuse.
    I stand ready to answer any of your questions. Thank you, Mr. 
Chairman.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    PREPARED STATEMENT OF DANA WADE
 To Be Assistant Secretary, Department of Housing and Urban Development
                              May 5, 2020
    Chairman Crapo, Ranking Member Brown, and Members of this 
Committee, thank you for inviting me here today to testify as the 
nominee for Federal Housing Commissioner and Assistant Secretary for 
Housing of the U.S. Department of Housing and Urban Development. I want 
to also thank President Trump for the privilege of being nominated for 
this position.
    It is truly an honor to be here after serving as a staff member of 
this Committee and spending a good part of my career working for 
Senator Shelby on both the Banking and Appropriations Committees. I'm 
extremely grateful to him for such opportunities.
    I'm also very thankful for the love and support of my wonderful 
family. I regret that both my husband, Chris, and our daughter, Mary, 
can only be here today in spirit, and not in person.
    As I look around this hearing room, I see the Senate continuing the 
people's work but under very different circumstances. If confirmed, I 
will commit to do everything I can as FHA Commissioner to help the 
country emerge from the COVID-19 pandemic healthier, stronger, and with 
a more prosperous economy.
    HUD and FHA play critical roles in our Nation's safety net. That is 
more clear today than ever. Secretary Carson and the dedicated staff at 
HUD are working tirelessly to minimize the impact of COVID-19 to 
homeowners, renters, and the vulnerable populations HUD serves each and 
every day. We are grateful for the hard work and bipartisan commitment 
of Congress during this time in passing legislation that safeguards 
American families, communities, and the economy from this terrible 
virus.
    I joined public service in the midst of a different crisis--the 
financial crisis of 2008--during which I gained valuable experience 
that will serve me well if confirmed. I learned that during times like 
these, it is important to make sure assistance quickly reaches those in 
need and that we maximize the effectiveness of every Federal dollar. As 
a staff member of the Budget, Banking, and Appropriations Committees, 
as well as an Associate Director at the Office of Management and 
Budget, I drilled down into the details of multiple agencies and 
programs, giving them much-needed scrutiny to ensure that they 
fulfilled their missions and targeted support effectively. And as the 
acting head of FHA and HUD's Office of Housing, I implemented reforms 
that better-managed risk, built-up capital, and provided greater 
transparency to the public.
    If confirmed, my priorities for FHA and the Office of Housing are 
as follows:

  <bullet>  First, protecting current FHA homeowners--those who are 
        low-to-moderate income, including first-time and minority 
        borrowers--as well as assisted renters who through no fault of 
        their own have experienced COVID-related hardships. This 
        includes executing CARES Act provisions like the eviction 
        moratorium and forbearance for homeowners, as well as fully 
        deploying FHA's loss mitigation toolkit for COVID-affected 
        homeowners.

  <bullet>  Second, ensuring that FHA has the necessary staffing and 
        other resources, as well as continuing the innovative FHA IT 
        Modernization effort, which together will allow FHA to perform 
        its important countercyclical role to support the housing 
        market. One of the pillars of FHA's mission is to provide 
        support when the economy demands it, especially if there is 
        tightening in conventional and private markets.

  <bullet>  Third, vigilantly monitoring risk to taxpayers of losses 
        stemming from COVID-19, and protecting FHA's capital reserve to 
        the maximum extent possible. Losses in the current environment 
        are inevitable, and FHA must be transparent to Congress and the 
        American taxpayers when it comes to its financial position. 
        Future policies should allow FHA to responsibly rebuild capital 
        when the time is right, as this current crisis has reminded us 
        of the importance of having a buffer to protect taxpayers from 
        losses.

    I believe that FHA has a duty to support the Nation's housing 
markets and homeowners facing economic hardship. While the virus will 
pass and the economy will eventually regain its previous strength, the 
road to recovery will require our sustained effort.
    If confirmed, I will do all that I can to run a strong, sustainable 
FHA and Office of Housing, one that can support the needs of those we 
serve and is accountable to the taxpayers who stand behind it. I look 
forward to working with this Committee and with Congress on these 
objectives and look forward to answering your questions.
    Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                      FROM BRIAN D. MILLER

Q.1. At your nomination hearing, for clarification, I asked if 
you believed the CARES Act gives the Special IG the authority 
to oversee the Federal Reserve's lending facilities and the 
companies who receive loans under these facilities.
    You said you have jurisdiction over the actions of the 
Secretary of the Treasury, and that you consider every dollar 
that goes from the Treasury to the Federal Reserve gives you 
jurisdiction over the Federal Reserve.
    The Treasury and the Federal Reserve are establishing 
complex financial arrangements to lend to businesses. Those 
arrangements will use funds appropriated to Treasury under the 
CARES Act and funds loaned by the Federal Reserve. Please 
confirm that you consider all of those financial arrangements 
to be within the jurisdiction of the Special IG.

A.1. These statements correctly summarize my preliminary 
thoughts on the starting analysis of SIGPR's jurisdiction, 
given the text of the CARES Act. If I am confirmed, I will 
analyze these issues in much more detail. I will consider the 
jurisdiction of SIGPR to be as broad as is textually 
permissible under the CARES Act, and Congress is always free to 
clarify or amend the jurisdiction of SIGPR.

Q.2. The CARES Act created the Paycheck Protection Program 
(PPP), which is administered by the Secretary of the Treasury 
and the Administrator of the Small Business Administration.
    As you noted at your hearing, the Special IG has 
responsibility for the programs administered by the Secretary 
of the Treasury. Please confirm that you consider the PPP to be 
within the jurisdiction of the Special IG.

A.2. If I am confirmed, I will analyze this issue in careful 
detail. I will consider the jurisdiction of SIGPR to be as 
broad as is textually permissible under the CARES Act, and 
Congress is always free to clarify or amend the jurisdiction of 
SIGPR. At this time, it would be inappropriate to publicly 
assert a definitive legal pronouncement given the incomplete 
legal analysis and the potential for this issue to be 
litigated.
    Additionally, if confirmed, I can and do commit that I will 
work diligently with the Small Business Administration's 
Inspector General, Mike Ware, as well as the PRAC. In 
anticipation of possible confirmation and the need to begin the 
work of the SIGPR quickly, I have already had productive 
preliminary discussions with Inspector General Ware and key 
members of the PRAC. In consultation with other stakeholders, 
who may have more jurisdiction, we will delineate 
responsibilities according to the CARES Act.

Q.3. The CARES Act obligates airlines receiving payroll 
assistance from conducting involuntary furloughs or reducing 
pay rates and benefits until September 30, 2020. Several 
airlines have recently announced that they are reducing 
workers' hours, potentially violating these provisions.
    What actions will you take as Special Inspector General to 
ensure that Treasury enforces these worker protections?

A.3. If confirmed, I would look into this type of conduct and 
carry out thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.

Q.4. In your testimony, you committed to following statutory 
requirements to report to Congress, as specified in section 4 
of the Inspector General Act. If confirmed, as required in 
Section 4018(e)(4)(B) of the CARES Act, will you report to 
Congress, without delay or interference by the Administration, 
when in your judgment information or assistance you have 
requested has been unreasonably refused or not provided? Please 
be specific as to how you will fulfill that statutory 
requirement.

A.4. If confirmed, I would most likely begin by contacting this 
Committee to report the situation.

Q.5. Did the Council of the Inspectors General on Integrity and 
Efficiency Inspector General Candidate Recommendations Panel 
evaluate you for the Special IG position, or for any other IG 
position while you were serving in the White House Counsel's 
office? Did you seek out the panel's recommendation, or did you 
avoid its review?

A.5. As CIGIE's letter to the Committee on Homeland Security 
and Governmental Affairs noted, its Panel submitted a 
recommendation to the White House Counsel's Office, evaluating 
me as an Inspector General candidate. Letter from Michael E. 
Horowitz, Chair, Council of the Inspectors General on Integrity 
and Efficiency, et al., to Ron Johnson, Chairman, Senate 
Committee on Homeland Security and Governmental Affairs (April 
17, 2020).

Q.6. In your testimony, you described encountering resistance 
from agency officials during your tenure as GSA IG under 
Presidents George W. Bush and Barack Obama. While serving as 
GSA IG, did the President or any White House official ever 
attempt to influence the scope or outcome of an investigation 
or inquiry undertaken by your office? If so, please describe 
how you responded.

A.6. Most of the pressure was from political appointees in GSA. 
I did not allow investigations to be influenced by politics and 
instead ensured my office followed the facts where they led and 
made recommendations based on those facts alone.

Q.7. While serving as GSA IG, did you ever investigate 
allegations of involving the President or other White House 
official? If so, please describe the nature of the allegations 
and the outcome of the investigation(s).

A.7. No.

Q.8. While serving as GSA IG, did you ever request information, 
documents, or testimony from the White House or any component 
of the Executive Office of the President (EOP) as part of an IG 
inquiry? If so, please describe the circumstances of the 
request and whether you received cooperation from the White 
House and/or EOP.

A.8. No.

Q.9. Offices of Inspector General rely on whistleblowers to do 
their oversight work. Do you commit to taking any and all 
actions necessary to protect whistleblowers from retaliation, 
including attempts to undermine their confidentiality?

A.9. Yes.

Q.10. In your testimony, you committed to ``following the law'' 
with respect to the authorities and obligations of the Special 
Inspector General for Pandemic Recovery. If confirmed, how will 
you resolve any ambiguities or disagreement over what the law 
requires in practice?

A.10. I will at all times be guided by the text of the CARES 
Act and the IG Act, as it is incorporated by reference into the 
CARES Act. When interpreting the text of these statutes, I will 
consult with my office's general counsel. I will also consult 
other legal authorities as appropriate. I will interpret the 
law dispassionately. Should Congress see fit to clarify certain 
provisions through legislation, I will always follow those 
clarifications faithfully and objectively.

Q.11. Title IV of the CARES Act provides up to $32 billion for 
other financial assistance, largely intended to be grants: $25 
billion to passenger air carriers; $4 billion to cargo air 
carriers; and $3 billion to certain contractors. This financial 
assistance must be exclusively used for the continuation of 
payment of employee wages, salaries, and benefits. The funds 
are subject to conditions and restrictions related to 
collective bargaining agreements, stock buybacks, dividends, 
executive compensation, involuntary furloughs, reduction in pay 
rates and benefits, and continuation of air service.
    The CARES Act obligates airlines receiving payroll 
assistance from conducting involuntary furloughs or reducing 
pay rates and benefits until September 30, 2020. Several 
airlines have recently announced that they are reducing 
workers' hours, potentially violating these provisions. What 
actions will you take as Special Inspector General to ensure 
that Treasury enforces these worker protections on airlines?

A.11. If confirmed, I will act pursuant to the authority given 
to my office to carry out thorough investigations where 
supported by the facts gathered. If there is a violation of 
law, I would make a referral to the Department of Justice for 
formal legal action.

Q.12. The CARES Act calls for transparency to ensure the 
American people understand how the funding is being spent. To 
date, the Treasury has shared little information about which 
airlines received grants and loans, and what the terms of the 
agreement are, citing the fact that many of the companies are 
not publicly traded entities. Shouldn't the public know how 
this funding is being awarded?

A.12. I am unfamiliar with the facts of this situation. But if 
confirmed, my goal would be to make public information 
regarding fraud, waste, and abuse of CARES Act authorities.

Q.13. Through September 30, 2021, airlines receiving payroll 
assistance cannot engage in stock buybacks or pay dividends. 
What measures can Treasury take, in your view, to make sure 
airlines do not engage in illegal stock buybacks or pay 
dividends? What actions will you take as Special Inspector 
General to audit these obligations?

A.13. I am unfamiliar with the facts of this situation. But if 
confirmed, I would look into illegal business practices and 
conduct thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.

Q.14. Pursuant to Section 4113, not later than 10 days after 
the CARES Act enactment, the Secretary was required by law to 
make initial payments to air carriers and contractors. To date, 
Treasury has failed to meet these statutory deadlines. 
Contractors, for example, have yet to receive funds. How do you 
plan to ensure that Treasury meets its statutory deadlines 
under the CARES Act?

A.14. If confirmed, I commit to fully complying with the CARES 
Act and will look further into this situation. Where there are 
grounds for SIGPR taking action, I will work to ensure that the 
Treasury Department complies with all statutory requirements in 
the CARES Act.

Q.15. CARES Act provides specific protections for collective 
bargaining agreements in regard to Treasury's implementation of 
payroll assistance for aviation workers. How would you 
implement your authorities to make sure that neither Treasury 
nor those receiving funds under CARES do not undermine 
collective bargaining agreements?

A.15. If confirmed, I would look into this type of conduct and 
carry out thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.

Q.16. Since December 2018, you have served as Senior Associate 
Counsel and Special Assistant to the President. Your nomination 
questionnaire does not describe in any way your work in that 
position.
    So that the Committee may fully evaluate your experience, 
please describe the subject matter of your work and your 
overall responsibilities and duties in the White House 
Counsel's Office, without discussing anything that would 
qualify as privileged or confidential.
    Please indicate the subject matter of your role in each of 
the following: (i) the removal of Glenn Fine as acting 
inspector general at the Department of Defense, (ii) aid to 
Ukraine, and (iii) the impeachment trial of the President.

A.16. My title at the White House Counsel's office is Senior 
Associate Counsel and Special Assistant to the President. In 
this role, I report to the Deputy Counsels to the President and 
the White House Counsel. I counsel Federal agencies and other 
components within the Executive Office of the President on a 
wide range of issues and provide legal advice to my superiors 
within the White House Counsel's Office. My ability to respond 
to specific questions about my role in the White House is 
limited by the ethical obligations that bind all lawyers. 
Accordingly, it is appropriate to follow Justice Elena Kagan's 
example of limiting comments about her 4-year service in the 
Clinton White House to comply with all ethical obligations.
                                ------                                


         RESPONSES TO WRITTEN QUESTIONS OF SENATOR REED
                      FROM BRIAN D. MILLER

Q.1. The following is a summary of Section 4019 of the CARES 
Act:

        Section 4019. Conflicts of Interest. Any company in 
        which the President, Vice President, an Executive 
        department head, member of Congress, or any of such 
        individual's spouse, child, son-in-law, or daughter-in-
        law [who] own over 20 percent of the outstanding voting 
        stock shall not be eligible for loans, loan guarantees, 
        or other investments provided under this Title.

    You currently serve as Special Assistant to the President 
and Senior Associate Counsel in the Office of White House 
Counsel, and yet, if confirmed, you would be charged with also 
ensuring that the President and his family do not benefit from 
the extraordinary taxpayer assistance being made available 
under Title IV of the CARES Act.
    Do you view this is as a potential conflict?

A.1. No.

Q.2. If you are confirmed and were to recuse yourself from 
these matters to avoid the appearance of a conflict, can you 
tell us who you would delegate these duties to and why this 
person would be a suitable proxy so that we may better evaluate 
your nomination?

A.2. I will apply the generally applicable standards for 
conflicts of interest, consult with the relevant ethics 
officials, and make any recusal decisions on a case-by-case 
basis. I cannot comment on proxies and staffing because I will 
not be able to staff my office unless and until I am fortunate 
enough to be confirmed.
                                ------                                


                 RESPONSES TO WRITTEN QUESTIONS
            OF SENATOR MENENDEZ FROM BRIAN D. MILLER

Q.1. To repeat a question you declined to answer in the 
hearing, President Trump said of Inspector General Atkinson, 
``That man is a disgrace to IGs. He's a total disgrace.'' Based 
on your knowledge of Inspector General Atkinson, do you agree 
with that statement, yes or no?

A.1. My title at the White House Counsel's office is Senior 
Associate Counsel and Special Assistant to the President. In 
this role, I report to the Deputy Counsels to the President and 
the White House Counsel. I counsel Federal agencies and other 
components within the Executive Office of the President on a 
wide range of issues and provide legal advice to my superiors 
within the White House Counsel's Office. My ability to respond 
to specific questions about my role in the White House is 
limited by the ethical obligations that bind all lawyers. 
Accordingly, it is appropriate to follow Justice Elena Kagan's 
example of limiting comments about her 4-year service in the 
Clinton White House to comply with all ethical obligations.
    I believe it is important for IGs and nominees to be 
Inspectors General to not be political. Under the IG Act and 
the CARES Act, IGs are nonpartisan and are not policymakers. To 
protect my independence, it would inappropriate to be comment 
about political disputes.

Q.2. Do you agree that the President making disparaging 
comments about inspectors general can have a chilling effect on 
their work?

A.2. Please see my response to Question 1.

Q.3. Do you believe it is appropriate for a President to make 
disparaging comments about an inspector general?

A.3. I believe it is appropriate for inspectors general to 
investigate fraud, waste, and abuse and to follow the facts 
where they lead. When I did so as an IG, I received criticism, 
and even disparaging comments.

Q.4. During your time as GSA Inspector General, do you recall 
President Bush making such comments, in public, about an 
inspector general?

A.4. During my tenure as IG under Presidents Bush and Obama, I 
recall investigating fraud, waste, and abuse and following the 
facts where they led.

Q.5. If the President were to make disparaging comments about 
you in the press, how would you react?

A.5. I expect to receive criticism from many quarters. I try to 
learn from criticism wherever possible. I received criticism in 
my previous tenure as IG of GSA, but it did not affect my 
commitment to combating fraud, waste, and abuse. Were any 
public figure to criticize my work as SIGPR, I would continue 
investigate fraud, waste, and abuse and follow the facts where 
they lead.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                      FROM BRIAN D. MILLER

Q.1. Inspector General Independence--What were your roles and 
responsibilities in the White House from 2018-2020?

A.1. My title at the White House Counsel's office is Senior 
Associate Counsel and Special Assistant to the President. In 
this role, I report to the Deputy Counsels to the President and 
the White House Counsel. I counsel Federal agencies and other 
components within the Executive Office of the President on a 
wide range of issues and provide legal advice to my superiors 
within the White House Counsel's Office. My ability to respond 
to specific questions about my role in the White House is 
limited by the ethical obligations that bind all lawyers. 
Accordingly, it is appropriate to follow Justice Elena Kagan's 
example of limiting comments about her 4-year service in the 
Clinton White House to comply with all ethical obligations.
    It is important for IGs and nominees to be Inspectors 
General to not be political. Under the IG Act and the CARES 
Act, IGs are nonpartisan and are not policymakers. To protect 
my independence, it would inappropriate to be comment about 
political disputes.

Q.2. Did you at any point, advise the President or any other 
White House official to refuse to turn over documents or 
materials or delay doing so in response to a congressional 
request or subpoena, or in response to a request from the 
Government Accountability Office? If so, what was the rationale 
for this advice?

A.2. Please see my response to Question 1.

Q.3. Did you at any point, advise the President or any other 
White House official to refuse to turn over documents or 
materials or otherwise not fully cooperate with a request from 
an Inspector General?

A.3. Please see my response to Question 1.

Q.4. As the SIGPR, you would be responsible for a $25 million 
budget to conduct investigations and audits. \1\ As you hire 
staff to manage and conduct these audits and investigations, 
will you do so on a strictly nonpartisan basis?
---------------------------------------------------------------------------
     \1\ P.L. 116-136, 4018(g).

---------------------------------------------------------------------------
A.4. Yes.

Q.5. Do you have any financial conflicts of interest related to 
your private sector experience that would raise questions about 
your involvement in any matters as SIGPR?

A.5. No.

Q.6. Will you recuse yourself from any investigation involving 
or affecting a former company or individual that you 
represented, consulted for, or with which you otherwise had a 
financial arrangement?

A.6. I will apply the generally applicable standards for 
conflicts of interest, consult with any relevant ethics 
officials, and make a decision on a case-by-case basis to 
resolve any conflicts of interest.

Q.7. White House Efforts To Undermine Oversight--Were you 
involved in any way in the CARES Act signing statement by 
President Trump? If so, please describe the nature of your 
involvement.

A.7. Please see my response to Question 1.

Q.8. Do you agree with the CARES Act signing statement's 
assertion that the SIGPR cannot freely report information to 
Congress absent Presidential approval?

A.8. Please see my response to Question 1.

Q.9. Will you commit to reporting immediately to Congress any 
instance in which Administration officials or any other entity 
impede or do not comply with an information request from your 
office?

A.9. I will comply with the CARES Act and all applicable law 
that bind Inspectors General.

Q.10. What action will you take if the President refuses to 
allow you to report relevant information to Congress?

A.10. Please see my response to Question 10.

Q.11. Were you aware of the decision, announced on April 7, 
2020, to remove Glenn A. Fine from his post as Acting Director 
of the Department of Defense and Chair of the Pandemic Response 
Accountability Commission before it was announced publicly? Did 
you provide any legal advice to the President regarding this 
decision? Do you agree with the President's decision to demote 
Mr. Fine?

A.11. My title at the White House Counsel's office is Senior 
Associate Counsel and Special Assistant to the President. In 
this role, I report to the Deputy Counsels to the President and 
the White House Counsel. I counsel Federal agencies and other 
components within the Executive Office of the President on a 
wide range of issues and provide legal advice to my superiors 
within the White House Counsel's Office. My ability to respond 
to specific questions about my role in the White House is 
limited by the ethical obligations that bind all lawyers. 
Accordingly, it is appropriate to follow Justice Elena Kagan's 
example of limiting comments about her 4-year service in the 
Clinton White House to comply with all ethical obligations.
    It is important for IGs and nominees to be Inspectors 
General to not be political. Under the IG Act and the CARES 
Act, IGs are nonpartisan and are not policymakers. To protect 
my independence, it would inappropriate to be comment about 
political disputes.

Q.12. Were you aware of the decision to fire Michael Atkinson 
as Inspector General for the Intelligence Community before it 
was announced publicly? Did you provide any legal advice to the 
President regarding this decision? Do you agree with the 
President's decision to fire Mr. Atkinson?

A.12. Please see my response to Question 1.

Q.13. Were you aware of the decision to remove Ms. Christie 
Grimm from her post as Acting Inspector General for the 
Department of Health and Human Services before it was announced 
publicly? Did you provide any legal advice to the President 
regarding this decision? Do you agree with the President's 
decision to demote Ms. Grimm from her role?

A.13. Please see my response to Question 1.

Q.14. Please describe your views on what protections IGs should 
afford whistleblowers.

A.14. Offices of Inspector General rely on whistleblowers to do 
their oversight work. I will take any and all actions necessary 
and appropriate under the law to protect whistleblowers from 
retaliation.

Q.15. If confirmed, will you commit to establishing a direct 
portal for whistleblowers to securely and safely communicate 
allegations of waste, fraud, or abuse with your office without 
fear of reprisal, retaliation, harassment, or persecution?

A.15. I hope to establish a hotline and web portal to encourage 
whistleblowers.

Q.16. If confirmed, will you commit to withholding the identity 
of any anonymous whistleblowers who bring credible allegations 
of waste, fraud, abuse, or misconduct to your office? If not, 
under what circumstances would you disclose the identity of any 
whistleblowers to the public or to the White House?

A.16. Offices of Inspector General rely on whistleblowers to do 
their oversight work. I will take any and all actions necessary 
and appropriate under the law to protect whistleblowers from 
retaliation.

Q.17. Would you ever provide President Trump with the identity 
of any anonymous whistleblowers who are officers or employees 
of the Executive Branch upon request by the President or the 
White House? If so, please describe the circumstances under 
which you would provide this information.

A.17. Please see my response to Question 16.

Q.18. The Congressional Oversight Commission was also created 
by the CARES Act to conduct oversight of the implementation of 
the CARES Act's economic provisions. \2\ Will you commit to 
appearing, upon request, at hearings of the Commission? Will 
you provide information upon request from Commissioners?
---------------------------------------------------------------------------
     \2\ P.L. 116-136, 4020.

---------------------------------------------------------------------------
A.18. Yes, as legally appropriate.

Q.19. If confirmed, under what circumstances would you resign 
your post? If President Trump asked you to take action that 
conflicted with the clear intent or text of the CARES Act, 
would you take such action? Would you resign?

A.19. I would resign if it was impossible for me to do my job 
effectively.

Q.20. Role of Congress and Inspector General--Please explain 
your views with regard to the unitary executive and the role of 
the SIGPR, and the implications of these views on the proper 
functions of the SIGPR. Can your views be reconciled with 
congressional intent to create an IG that is independent of the 
President and statutorily obligated to communicate with 
Congress under certain circumstances?

A.20. Yes. I will follow the Constitution, the IG Act, and the 
CARES Act.

Q.21. Please explain and elaborate on your written view that 
``IGs are not tame watchdogs, and they may bite members of 
Congress as well as Executive branch officials. They may also 
be a danger to themselves, to the normal functioning of 
Government, and to Congress.'' \3\
---------------------------------------------------------------------------
     \3\ The Hill, Brian D. Miller, ``Independence of Inspectors 
General Should not Be Compromised by Congress'', August 13, 2018, 
https://thehill.com/opinion/white-house/401491-independence-of-
inspectors-general-should-not-be-compromised-by-congress.

A.21. IGs should be independent from politics, and the 
political branches of the Federal Government often may not like 
---------------------------------------------------------------------------
what an IG reports.

Q.22. The SIGPR was created by an Act of Congress, signed by 
the President, and is provided funding on an ongoing basis by 
Congress. Will you give due consideration to requests for 
audits or investigations that come from members of Congress?

A.22. Yes, as legally appropriate.

Q.23. Do you continue to believe that, as you wrote in August 
2018, \4\ a Member of Congress holding a press conference to 
announce the findings of an Inspector General report is an 
egregious example of violation of IG independence and 
separation of powers?
---------------------------------------------------------------------------
     \4\ The Hill, Brian D. Miller, ``Independence of Inspectors 
General Should not Be Compromised by Congress'', August 13, 2018, 
https://thehill.com/opinion/white-house/401491-independence-of-
inspectors-general-should-not-be-compromised-by-congress.

A.23. Respectfully, I never wrote that. An issue arises when a 
member of Congress designs a review for an IG and then 
announces that review through a press conference. All audits 
---------------------------------------------------------------------------
and investigations should be the IG's independent work.

Q.24. You also wrote in August 2018 that you deliberately 
ignored or ``changed the parameter'' of Congressional requests 
when you were the GSA IG. \5\ Is this accurate? Please 
elaborate and provide an example from your time at GSA.
---------------------------------------------------------------------------
     \5\  The Hill, Brian D. Miller, ``Independence of Inspectors 
General Should not Be Compromised by Congress'', August 13, 2018, 
https://thehill.com/opinion/white-house/401491-independence-of-
inspectors-general-should-not-be-compromised-by-congress.

A.24. Respectfully, this is a misrepresentation of my writings. 
I was asked to evaluate the environmental and health risks in a 
Federal building. Instead, I did a review of how GSA managed 
---------------------------------------------------------------------------
environmental issues at the facility.

Q.25. If confirmed, would you deliberately ignore or ``change 
the parameter'' of congressional requests if you are confirmed 
as SIGPR?

A.25. I will always pay due respect to congressional requests 
as I did in my decade of experience as GSA IG. I will 
independently assess my office's abilities, resources, and 
priorities, and conduct those investigations supported by an 
independent factual predicate.

Q.26. If requested, will you commit to voluntarily testifying 
before Congress on issues within the purview of the SIGPR? If 
not, under what circumstances would you reject a request by a 
committee to testifying before Congress on issues within the 
purview of the SIGPR?

A.26. Yes, as legally appropriate.

Q.27. If requested, will you commit to voluntarily testifying 
before the Congressional Oversight Commission established in 
the CARES Act?

A.27. Yes, as legally appropriate.

Q.28. Transparency and Accountability Among Bailout 
Recipients--If confirmed, you would have the clear authority to 
conduct audits and investigations of the making, purchase, 
management, and sale of loans, loan guarantees, and other 
investments made by the Secretary of the Treasury under any 
program established by the Secretary under the CARES Act, and 
the management by the Secretary of any program established 
under this Act. Please describe your understanding of the scope 
of programs within this authority.
    Specifically, are loans provided to small businesses under 
Section 1102 of the CARES Act \6\ within your audit and 
investigation jurisdiction?
---------------------------------------------------------------------------
     \6\ P.L. 116-136, 1102.

A.28. I will consider the jurisdiction of SIGPR to be as broad 
as is textually permissible under the CARES Act, and Congress 
---------------------------------------------------------------------------
is always free to clarify or amend the jurisdiction of SIGPR.

Q.29. Are the Federal Reserve's Primary and Secondary Market 
Corporate Credit Facilities, the Main Street Lending Program, 
and the Municipal Liquidity Facility, all created using funds 
appropriated to Treasury's Exchange Stabilization Fund under 
the CARES Act, within the SIGPR's jurisdiction?

A.29. I will consider the jurisdiction of SIGPR to be as broad 
as is textually permissible under the CARES Act, and Congress 
is always free to clarify or amend the jurisdiction of SIGPR.

Q.30. Will any future Federal Reserve facility backstopped with 
CARES Act funds be under the SIGPR's jurisdiction?

A.30. I will consider the jurisdiction of SIGPR to be as broad 
as is textually permissible under the CARES Act, and Congress 
is always free to clarify or amend the jurisdiction of SIGPR.

Q.31. Will any existing Federal Reserve facility that was 
established before the CARES Act, but is later backstopped with 
CARES Act funds be under the SIGPR's jurisdiction

A.31. I will consider the jurisdiction of SIGPR to be as broad 
as is textually permissible under the CARES Act, and Congress 
is always free to clarify or amend the jurisdiction of SIGPR.

Q.32. Which other programs currently established by the 
Treasury Secretary are under the SIGPR's jurisdiction?

A.32. I will consider the jurisdiction of SIGPR to be as broad 
as is textually permissible under the CARES Act, and Congress 
is always free to clarify or amend the jurisdiction of SIGPR.

Q.33. Under the CARES Act, the SIGPR is given ``the duties and 
responsibilities of inspectors general under the Inspector 
General Act of 1978,'' \7\ which include ``to conduct, 
supervise, or coordinate other activities carried out or 
financed by such establishment for the purpose of promoting 
economy and efficiency in the Administration of, or preventing 
and detecting fraud and abuse in, its programs and 
operations.'' \8\
---------------------------------------------------------------------------
     \7\ P.L. 116-136, 4003(c)(3).
     \8\ P.L. 95-452.
---------------------------------------------------------------------------
    Broadly, this authority grants the SIGPR the ability to 
determine not only if program participants are committing 
fraud, but if they are abusing taxpayer funds, and if programs 
are being run with appropriate economy and efficiency for 
taxpayers and the public. Using this or other authority given 
to the SIGPR under the CARES Act, if confirmed, will you commit 
to conducting investigations to determine if loan or grant 
recipients are using funds to benefit workers, consumers, and 
the economy?

A.33. As legally appropriate, I will consider all of the 
factors identified below.

Q.34. Specifically, would you:
    Determine if Section 4003 loans are being used by 
recipients to keep workers on the job, including maintaining at 
least 95 percent of payrolls?
    Determine if such loan recipients provide a $15 an hour 
minimum wage?
    Determine if such loan recipients use taxpayer funds to 
personally enrich CEOs or senior executives through any form of 
executive compensation?
    Determine if such loan recipients engage in stock buybacks, 
dividends, or any other direct or indirect form of shareholder 
distribution?
    Determine if such loan recipients provide at least one seat 
to workers on their board of directors?
    Determine if such loan recipients engage in union-busting 
efforts or seek to weaken collective bargaining agreements?
    Recommend that CEOs face civil and criminal penalties for 
violating loan terms of agreements with the Department of 
Treasury or the Federal Reserve Board?
    Hold all companies that receive such loans liable for all 
assistance received if the company violates any of the terms of 
their agreements with taxpayers?
    Determine if program participants are engaging in otherwise 
inappropriate uses of loan receipts?
    Similarly, using the SIGPR's authority under the CARES Act, 
if confirmed, will you commit to conducting audits and 
investigations of program administration and Treasury 
Department and Federal Reserve Board decisions to ensure that 
they are free of conflicts of interest, including all decisions 
regarding recipients of assistance and contractors?

A.34. As legally appropriate, I will consider all of the 
factors identified below.

Q.35. Specifically, will you determine if:
    Any Federal official, financial agent, contractor, or 
adviser has any say or influence over decisions that may affect 
their own portfolio, or that may affect a current or former 
employer?
    All contractors and companies retained by the Treasury 
Department for the purposes of helping the Government 
administer Section 4003 operate free of conflicts of interest 
and contribute to the funds being used to benefit workers, 
consumers, and the economy.
    Treasury Department and the Federal Reserve Board are 
establishing clear, public rules and guidelines regarding how 
and why bailout recipients are chosen and how and why the terms 
and conditions of any bailouts are established?
    Companies receiving funding are engaging in political 
spending or lobbying while receiving assistance?
    Will you conduct audits and investigations to determine if 
the President, his immediate family, or any personal friends, 
business associates, or individuals with personal or financial 
connections to the President are receiving CARES Act funds 
(including, but not limited to, any violations of Section 4019 
of the CARES Act), and if so, will you report to Congress on 
these matters?

A.35. I will look into conflicts of interests as legally 
appropriate. It is important for IGs and nominees to be 
Inspectors General to not be political. Under the IG Act and 
the CARES Act, IGs are nonpartisan and are not policymakers. To 
protect my independence, it would inappropriate to be comment 
about political disputes.

Q.36. If confirmed, will you commit to a thorough and robust 
evaluation of whether the $500 billion bailout fund was an 
overall benefit to workers, consumers, families, and the 
economy? If so, how would you conduct this evaluation? What 
would be your specific metrics for success? Would you include 
rates of employment and wages compared to before the pandemic 
as metrics in your evaluation?

A.36. It is important for IGs and nominees to be Inspectors 
General to not be political. Under the IG Act and the CARES 
Act, IGs are nonpartisan and are not policymakers. To protect 
my independence, it would inappropriate to be comment about 
political disputes.

Q.37. If confirmed, what other areas would you prioritize for 
audits and investigations as SIGPR?

A.37. At this point in time, it is too early to outline 
priorities for audits and investigations, but if confirmed I 
will report these to the Committee very soon.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
            SENATOR VAN HOLLEN FROM BRIAN D. MILLER

Q.1. Do you commit to fully support whistleblower 
confidentiality and all existing laws and policies to protect 
whistleblowers?

A.1. Yes, as legally appropriate.

Q.2. Do you pledge not to be influenced in the conduct of the 
Inspector General position by President Trump, anyone in the 
Trump administration, or any Federal agency appointee 
interfering with the independence and mission of the Inspector 
General?

A.2. I will be independent as the SIGPR, just as I was 
independent as the GSA IG.

Q.3. Do you pledge not to hire or permit the detail to the 
Special Inspector General for Pandemic Recovery of any person 
who is or was a political appointee of the Trump 
administration, or is recommended by the White House or a 
political appointee of the Trump administration?

A.3. The Hatch Act forbids taking political affiliation into 
consideration in hiring. I will hire the best qualified 
individuals.

Q.4. Your response on behalf of the White House to GAO's 
inquiry regarding the withholding of Ukraine security 
assistance funds stated that the White House would not provide 
a separate response, and referred instead to the response sent 
by OMB General Counsel Mark Paoletta on December 11, 2019.
    Will you personally affirm that this statement in the 
letter represents the full and complete truth: ``In fact, at no 
point during the pause in obligations did DOD OGC indicate to 
OMB that, as a matter of law, the apportionments would prevent 
DOD from being able to obligate the funds before the end of the 
fiscal year.''

A.4. I do not know the facts or the law regarding this issue.

Q.5. The GAO inquiry letter to the White House asked for the 
reason that Ukraine security assistance funds were withheld. 
Will you personally affirm that the only reason for the hold on 
Ukraine security assistance funding was to engage in a policy 
process regarding those funds, which is the sole reason 
identified by the OMB letter: ``It was OMB's understanding that 
a brief period was needed, prior to the funds expiring, to 
engage in a policy process regarding those funds.''

A.5. I do not know the facts or the law regarding this issue.

Q.6. The GAO inquiry letter to the White House asked for 
documentation that would substantiate the Administration's 
stated reason for holding Ukraine security assistance funding. 
Your response provided no such documentation or any other 
information, aside from citing the response provided by OMB. 
Please state whether or not the White House had documentation 
or information in its possession that was not included in the 
response from OMB, and that would have been relevant to GAO's 
inquiry about the reason that the funds were withheld.

A.6. I do not know the facts or the law regarding this issue. 
OMB is the budget office within the Executive Office of the 
President. Please direct any budget inquiries to OMB.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
           SENATOR CORTEZ MASTO FROM BRIAN D. MILLER

Q.1. The Inspector General for the Department of Health and 
Human Services Christi Grimm released a report detailing 
shortages of testing and personal protective equipment (PPE) in 
hospitals. Last week, President Trump said he would replace 
her.
    In your capacity as White House counsel, did you advise on 
this decision, or any matters related to acting Inspector 
General Grimm's role?

A.1. My title at the White House Counsel's office is Senior 
Associate Counsel and Special Assistant to the President. In 
this role, I report to the Deputy Counsels to the President and 
the White House Counsel. I counsel Federal agencies and other 
components within the Executive Office of the President on a 
wide range of issues and provide legal advice to my superiors 
within the White House Counsel's Office. My ability to respond 
to specific questions about my role in the White House is 
limited by the ethical obligations that bind all lawyers. 
Accordingly, it is appropriate to follow Justice Elena Kagan's 
example of limiting comments about her 4-year service in the 
Clinton White House to comply with all ethical obligations. I 
believe it is important for IGs and nominees to be Inspectors 
General to not be political. Under the IG Act and the CARES 
Act, IGs are nonpartisan and are not policymakers. To protect 
my independence, it would inappropriate to be commenting about 
political disputes.

Q.2. Do you believe acting Inspector General Grimm participated 
in unlawful or unethical conduct to merit her replacement?

A.2. Please see my response to Question 1.

Q.3. Do you agree with the President's decision?

A.3. Please see my response to Question 1.

Q.4. Intelligence Community Inspector General Michael Atkinson, 
followed the law and reported the whistleblower complaint that 
the President withheld aid for Ukraine until President Zelensky 
declared a scam investigation.
    In your capacity as White House counsel, did you advise on 
this decision, or any matters related to Inspector General 
Atkinson's role?

A.4. Please see my response to Question 1.

Q.5. Do you believe Inspector General Atkinson participated in 
unlawful or unethical conduct to merit his firing?

A.5. Please see my response to Question 1.

Q.6. Did you agree with President Trump's decision to fire 
Inspector General Atkinson?

A.6. Please see my response to Question 1.

Q.7. Glenn Fine was acting inspector general for the Defense 
Department and was set to become the chairman of a new Pandemic 
Response Accountability Committee to police how the Government 
carries out the $2.2 trillion coronavirus relief bill.
    In your capacity as White House counsel, did you advise on 
this decision, or any matters related to acting Inspector 
General Fine's role?

A.7. Please see my response to Question 1.

Q.8. Do you have concerns with the President's decision to 
disqualify Mr. Fine from serving on the new oversight panel?

A.8. Please see my response to Question 1.

Q.9. The President questioned the constitutionality of the 
law's requirement that the Special Inspector General for 
Pandemic Recovery notify Congress immediately if the 
Administration ``unreasonably'' withholds information requested 
by investigators.
    If the White House or an agency asks you to withhold 
information would you notify Congress immediately of this 
request?

A.9. I will follow the statutory requirements to report to 
Congress, as specified in section 4 of the Inspector General 
Act and as required in Section 4018(e)(4)(B) of the CARES Act.

Q.10. Do you foresee any circumstance when you wouldn't notify 
Congress of this request to withhold?

A.10. Please see my answer to Question 9.

Q.11. If the White House wanted Treasury to provide financing 
to States that had elected representatives from one party first 
in the allocation of CARES financing, would you consider that a 
violation and report it immediately to Congress?

A.11. If confirmed, I would look into this type of conduct and 
carry out thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.

Q.12. If the White House wanted Treasury to consult information 
on corporate political donations prior to allocating CARES 
financing, would you consider that a violation and report it 
immediately to Congress?

A.12. If confirmed, I would look into this type of conduct and 
carry out thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.

Q.13. If you are confirmed for the SIGPR job, what is your 
worst case scenario? Where do you see the opportunities for 
corruption or unfair treatment?

A.13. I believe that unscrupulous individuals and companies are 
already scheming to take advantage of the programs and divert 
monies to themselves. But as a former Federal prosecutor, I 
believe that I should be circumspect in publicly commenting on 
specific cases or aspects of the business of the office. 
Accordingly, I am reluctant to directly answer hypothetical 
questions posing particular factual circumstances. I also do 
not want to hypothesize, or even plant ideas for, opportunities 
for corruption. If confirmed, I would look into all potential 
instances of fraud, waste, or abuse, and conduct thorough 
investigations where supported by the facts gathered. If there 
is a violation of law, I would make a referral to the 
Department of Justice for formal legal action.

Q.14. Do you plan to gain presidential approval before 
investigating contracts, issuing reports or communicating with 
Congress?

A.14. No.

Q.15. Do you intend to comply with the CARES Act, and provide 
timely reports to Congress?

A.15. Yes, as legally appropriate.

Q.16. If the President or any member of the Administration 
attempts to block your reports or requests for information, 
will you report these issues to Congress?

A.16. Yes, as legally appropriate.

Q.17. Do you commit to testify before Congress when requested 
without gaining permission from the White House or submitting 
your testimony for approval?

A.17. Yes, as legally appropriate.

Q.18. If the President denies you permission to testify before 
Congress, would you still appear before Congress and answer 
questions?

A.18. I would not ask for permission.

Q.19. The CARES Act appropriated $25 million for the Special 
Inspector General's office. If your office needs additional 
funds to continue its work, would you come back to Congress and 
let us know?

A.19. Yes.

Q.20. Outside of programs established by Title IV of the CARES 
Act, what other programs fall under the purview of the SIGPR?

A.20. If I am confirmed, I will analyze this issue in careful 
detail. I will consider the jurisdiction of SIGPR to be as 
broad as is textually permissible under the CARES Act. Congress 
is always free to clarify the jurisdiction of SIGPR. At this 
time, it would be inappropriate to publicly assert a definitive 
legal position given incomplete legal analysis and the 
potential for this issue to be litigated.

Q.21. The CARES Act prohibits members of the Administration or 
Executive branch from receiving funds from the law. How will 
you ensure that no officials are receiving funds from the CARES 
Act?

A.21. If confirmed, I would look into this type of conduct and 
carry out thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.

Q.22. While I understand that you don't want to duplicate the 
work of the Government Accountability Office or the Council of 
Inspectors General, will you commit to oversight of programs 
that the law specifies you oversee, regardless of whether other 
entities are conducting oversight of those programs.

A.22. Yes, I will work to find ways to complement their work.

Q.23. Early data on the SBA's Paycheck Protection Program 
showed that the funds were distributed unevenly across States. 
Many States in the Midwest received a disproportionate amount 
of the relief while in other States, including Nevada, 
businesses struggled to access the loans. Will you commit to 
investigating these inequities and reporting on what the agency 
could have done better to ensure a more fair distribution of 
relief, including to minority owned businesses?

A.23. If confirmed, I would look into this type of conduct and 
carry out thorough investigations where supported by the facts 
gathered. If there is a violation of law, I would make a 
referral to the Department of Justice for formal legal action.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                      FROM BRIAN D. MILLER

Q.1. Under the Coronavirus Aid, Relief, and Economic Security 
(CARES) Act, Congress provided an $8 billion set-aside for 
tribes from the Coronavirus Relief Fund. Arizona is home to 22 
federally recognized tribes, including the Navajo Nation, that 
urgently need this Federal funding. Earlier this week, Treasury 
released $4.8 billion of the $8 billion from this fund. This 
announcement came over a month after Congress passed the CARES 
Act. Tribes need these resources now. Lives are depending on 
it. If confirmed, what will you do to ensure that the last 40 
percent of this set-aside will be delivered to federally 
recognized tribal and Alaska Native Governments as soon as 
possible and in compliance with Congress's intention of 
providing funding for tribal governments to meet their most 
pressing needs?

A.1. If I am confirmed, I will analyze this issue in careful 
detail. I will consider the jurisdiction of SIGPR to be as 
broad as is textually permissible under the CARES Act, and 
Congress is always free to clarify or amend the jurisdiction of 
SIGPR.

Q.2. Technology has come to play a very important role in the 
administration of COVID response programs to the public and in 
the functioning of our day-to-day lives during this pandemic. 
It also provides opportunities for us to understand the 
effectiveness of the programs authorized under the CARES Act as 
well as the level of fraud associated. If confirmed, what will 
your approach be to deploying technology to perform oversight?

A.2. Traditional means of investigation and analysis to protect 
the interests of the American people in the proper use of money 
disbursed under the CARES Act may be rendered inadequate by the 
sheer scale of the appropriations at issue. We will need to 
rely on technology to help analyze vast quantities of 
information, and identify the most significant areas for 
further investigation. If I am confirmed, I will quickly 
determine how best to make use of technology to ensure the 
OSIGPR can efficiently conduct its investigations and analyses.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                         FROM DANA WADE

Q.1. During your tenure as Principal Associate Director for 
General Government at the Office of Management and Budget 
(OMB), the Department of Housing and Urban Development (HUD) 
was responsible for administering billions in Community 
Development Block Grant-Disaster Relief (CDBG-DR) grant funding 
for Puerto Rico, the U.S. Virgin Islands, and a number of 
States. Congress provided this funding in February 2018. \1\ 
Fifteen months later, when HUD still had not issued the notice 
necessary for funding recipients to begin planning to use the 
bulk of their mitigation funds or Puerto Rico's funds to 
restore its electrical grid, Congress again acted to require 
that HUD publish the notice on the use of mitigation funds 
within 90 days. \2\ But HUD ignored this deadline and did not 
publish the notice until more than 4 months after the deadline 
required by law. \3\
---------------------------------------------------------------------------
     \1\ P.L. 115-123.
     \2\ P.L. 116-20.
     \3\ 85 FR 4676.
---------------------------------------------------------------------------
    During your tenure at OMB, OMB reviewed and approved a 
notice on the use of mitigation funds for all recipients except 
Puerto Rico and the U.S. Virgin Islands. \4\ Were you aware of 
the decision not to include Puerto Rico or the U.S. Virgin 
Islands in a CDBG-DR mitigation notice that set out the 
eligible uses and terms for all other CDBG-DR mitigation 
recipients? If so, did you participate in or agree with that 
decision? If you were not aware, why not?
---------------------------------------------------------------------------
     \4\ 85 FR 45838.
---------------------------------------------------------------------------
    During your tenure at OMB, were you aware that HUD did not 
meet the legal deadline to issue a notice on the uses of CDBG-
DR mitigation funds for Puerto Rico and the U.S. Virgin 
Islands? If so, why did you allow HUD and OMB not to comply 
with the legal deadline? If not, why not?
    As a former staff member of the Appropriations Committee 
and a current employee within the Executive branch, do you 
believe it is appropriate for OMB or any Federal agency it 
oversees to willfully ignore any statutory requirement or 
deadline? If so, why? If not, why did you allow HUD and OMB not 
to comply with the legal requirement in this case?

A.1. I am proud of this Administration's response to the 
natural disasters that occurred in 2017. Puerto Rico was 
provided with an unprecedented level of resources to rebuild 
and mitigate against future storms, and the Administration made 
sure Puerto Rico always had sufficient funds to administer its 
disaster recovery programs. With respect to my participation in 
specific decisions, your question seeks the substance of 
communications between the White House and OMB, the disclosure 
of which would reveal confidential, deliberative, and internal 
Executive Branch information.

Q.2. Under your leadership, OMB reviewed and approved and HUD 
published a proposed rule that would overhaul HUD's process to 
ensure that grantees ``affirmatively further'' fair housing in 
compliance with the Fair Housing Act, including approval of 
amended information collection.
    During your tenure at OMB, did you participate in the 
development, review, or approval of the proposed Affirmatively 
Furthering Fair Housing rule and its associated data 
collection? If so, please describe your role in the review and 
approval. If not, please explain why you were not involved in 
the review and approval of what OMB determined to be a 
significant regulatory action.
    The proposed rule estimates that it will take just 10 hours 
for each local respondent responsible for complying with the 
obligation to ``affirmatively further'' fair housing to assess 
and plan to address local barriers to fair housing. Do you 
believe 10 hours is sufficient time for a jurisdiction to fully 
assess all barriers to fair housing for all protected classes 
under the Fair Housing Act and plan meaningful steps to address 
any barriers? If so, please explain why this time is sufficient 
for such a consequential review.
    This proposed rule replaces a 2015 final rule and 
associated data and tools that HUD provided to communities to 
help them assess fair housing barriers. Why did HUD and OMB 
elect not to provide data or any tools to help communities 
assess their fair housing barriers?
    How will reducing the amount of data that HUD provides to 
communities to assess fair housing barriers facilitate 
evidence-based policies to address fair housing barriers?

A.2. As you correctly noted, HUD's proposed Affirmatively 
Furthering Fair Housing rule will significantly reduce the 
administrative burden for thousands of communities across the 
country, thereby permitting them to better engage in furthering 
housing choice. With respect to my participation in specific 
decisions, your question seeks the substance of communications 
between the White House and OMB, the disclosure of which would 
reveal confidential, deliberative, and internal Executive 
Branch information.

Q.3. Under your leadership, OMB also reviewed and approved and 
HUD published a disparate impact proposed rule that civil 
rights, housing, and consumer advocates said is ``directly 
contradictory to the Fair Housing Act and its purposes.'' \5\ 
The proposed rule would make it even more difficult to root out 
discrimination in pricing and access in the mortgage market 
that you would help oversee if confirmed.
---------------------------------------------------------------------------
     \5\ https://ourfinancialsecurity.org/wp-content/uploads/2019/10/
Coalition-Comment-on-HUD-Disparate-Impact-10-18-19.pdf
---------------------------------------------------------------------------
    Did you review and approve HUD's proposed disparate impact 
rule during your time at OMB? If so, why did you allow a rule 
that undermine enforcement of the Fair Housing Act to move 
forward? If not, why was the Policy Associate Director not 
involved in the review and approval of what OMB determined was 
a significant regulatory action?
    If you are confirmed as FHA Commissioner, how will you 
ensure that no borrower is subject to discrimination in 
mortgage access or pricing, including less obvious 
discrimination driven through algorithms, under this disparate 
impact proposal that provides a safe harbor for algorithms? 
Please be specific on the policies you will put forward.

A.3. HUD enforces the Fair Housing Act of 1968 and I will work 
closely with the Department's Office of Fair Housing and Equal 
Opportunity to ensure we are living up to the letter and spirit 
of that landmark law. With respect to my participation in 
specific decisions, your question seeks the substance of 
communications between the White House and OMB, the disclosure 
of which would reveal confidential, deliberative, and internal 
Executive Branch information.

Q.4. During your tenure as Principal Associate Director for 
General Government at the Office of Management and Budget 
(OMB), OMB approved and the Department of Housing and Urban 
Development (HUD) proposed a rule on ``Verification of Eligible 
Status'' that reverses decades of HUD policy and contradicts 
clearly communicated Congressional intent. Under current HUD 
policy, if a family has some members who have an immigration 
status that makes them eligible to receive HUD assistance but 
others in the household do not, HUD will assist the eligible 
family members while requiring those who are not eligible to 
stay with their family but pay their full share of housing 
costs. Under the rule OMB approved on your watch, families 
where one member is not eligible for HUD assistance based on 
their immigrations status will be forced to choose between 
breaking up their family or making their entire family more 
vulnerable to housing instability and homelessness.
    HUD's own regulatory impact analysis found that this 
proposed rule could result in the displacement of more than 
108,000 people, including 55,000 children, and would increase 
the cost or decrease the number of families served by HUD's 
housing assistance programs while potentially driving up the 
number of families experiencing homelessness. \6\ The increase 
in need for those who become homeless could cost $20,000 to 
$50,000 per family per year, by HUD's estimates, compared to 
the $1,900 per year in housing subsidy these families currently 
receive.
---------------------------------------------------------------------------
     \6\ https://www.regulations.gov/document?D=HUD-2019-0044-0002
---------------------------------------------------------------------------
    Under your leadership, why did the OMB approve and HUD 
propose a rule that would result in higher programmatic costs 
per family served or displaced?
    Under your leadership, why did the OMB approve and HUD 
propose a rule that by HUD's own analysis said would likely 
result in the displacement of the lowest-income families, 
including 55,000 children who are eligible for HUD assistance?
    While this proposed rule is within the Office of the 
Secretary's jurisdiction, according to HUD's analysis it will 
have a direct impact on more than 3,000 households with nearly 
12,700 residents who are in Section 202 or project-based rental 
assistance units under your jurisdiction. Will you commit not 
to displace these families and vulnerable seniors if you are 
confirmed? If not, why not?

A.4. HUD proposed this rule to ensure its programs are in legal 
compliance with Section 214 of the Community Development Act of 
1980, which prohibits the Department from making financial 
assistance available to persons other than U.S. citizens or 
certain categories of eligible noncitizens in HUD's public and 
specified assisted housing programs. The proposed rule would 
require the verification of the eligible immigration status of 
all recipients of assistance under a covered program who are 
under the age of 62. With respect to my participation in 
specific decisions, your question seeks the substance of 
communications between the White House and OMB, the disclosure 
of which would reveal confidential, deliberative, and internal 
Executive Branch information.

Q.5. While you were at OMB, OMB reviewed and approved HUD's 
proposed rule on equal participation of faith-based 
organizations in HUD programs and activities. While this 
proposed rule takes great care to ensure that the religious 
expression of any HUD grantees or partners is not hindered in 
any way, it offers no such protection to the individuals and 
families in need of HUD-funded services.
    Did you review and approve HUD's proposed faith-based 
organizations rule during your time at OMB? If so, why did you 
allow a rule that would prioritize the religious rights of HUD 
grantees over religious freedom of the individuals and families 
those grantees are funded to serve? If not, why was the Policy 
Associate Director not involved in the review and approval of 
what OMB determined was a significant regulatory action?
    If confirmed, how will you ensure that no individual or 
family is forced to choose between compromising their religious 
beliefs or identity and access to safe, affordable housing or 
services?

A.5. Protecting religious liberties and ensuring access to safe 
and affordable housing are not mutually exclusive goals; HUD's 
proposed rule strikes an appropriate balance between these 
important interests. With respect to my participation in 
specific decisions, your question seeks the substance of 
communications between the White House and OMB, the disclosure 
of which would reveal confidential, deliberative, and internal 
Executive Branch information.

Q.6. In its Manufactured Home Construction and Safety Standards 
proposed rule, HUD notes that it has decided not to include 
Manufactured Housing Consensus Committee (MHCC) recommendations 
regarding energy efficiency in manufactured homes due to 
pending regulations being prepared by the Department of Energy. 
\7\ But HUD is required to act on the MHCC's proposed revisions 
to standards within 1 year of the proposal being submitted.
---------------------------------------------------------------------------
     \7\ 85 FR 5589.
---------------------------------------------------------------------------
    Based on your experience at HUD and at OMB, do you believe 
the decision to withhold an MHCC revision is consistent with 
HUD's statutory requirements?
    If confirmed, will you commit to advance a rulemaking on 
the energy efficiency recommendation approved by the MHCC 
without waiting for action by other agencies? If not, why not?

A.6. In 2007, congressional legislation provided authority to 
the Department of Energy to establish energy standards for 
manufactured homes. Section 413 of the Energy Independence and 
Security Act of 2007 (EISA) directs DOE to establish energy 
conservation standards for manufactured housing. Therefore, HUD 
must also coordinate with DOE when updating the energy standard 
recommendations submitted to the Manufactured Housing Consensus 
Committee (MHCC) for consideration.
    By way of background, the MHCC is a statutory Federal 
Advisory Committee body charged with providing recommendations 
to the Secretary on the revision and interpretation of HUD's 
manufactured home construction and safety standards and related 
procedural and enforcement regulations. By regulation, HUD has 
included the MHCC in the process of revising the Manufactured 
Home Model Installation Standards, Installation Program 
Regulations, and Dispute Regulation Program regulations. The 
MHCC is organized and carries out its business in a manner that 
guarantees a fair opportunity for the expression and 
consideration of various positions and for public 
participation.
    HUD has great respect for the members of the MHCC who 
commit to 3-year terms while maintaining their full-time 
``day'' jobs, to provide substantial expertise and familiarity 
with the market to the Department. Under auspices of the 
Manufactured Housing Improvement Act of 2000 which established 
the MHCC, recommendations are provided by the committee to the 
Secretary and his delegates for consideration by the 
Department. Recommendations may be accepted without change, may 
initiate discussion between the MHCC and the Department for 
further consideration, or may be held by the Department for 
future consideration where such recommendations may intersect 
more efficiently with other items recommended. HUD has a 
backlog of standards which should be updated on a regular basis 
and is currently working on the backlog of standards in order 
to keep pace with innovation in the industry and other Code 
making bodies.
    If confirmed, I intend to examine this issue and make a 
determination at that time as to whether to proceed with a rule 
or seek more information for further consideration.

Q.7. The Manufactured Home Construction and Safety Standards 
proposed rule also proposes changes to the definition of an 
``attached accessory building or structure.'' \8\
---------------------------------------------------------------------------
     \8\ Id.
---------------------------------------------------------------------------
    If confirmed, how will you ensure that HUD can verify that 
any additions are safely installed and that all parties, 
including current and future owners of the home, are aware of 
the structural limitations and can use the additions safely?
    If confirmed, how will you work with home installers or 
their representatives to ensure that any final rule will ensure 
that all manufactured housing units remain safe for current and 
future residents?

A.7. HUD administers the Manufactured Home Construction and 
Safety Program (24 CFR 3280 and 3282) that establishes Federal 
standards for the design and construction of manufactured homes 
to promote the quality, durability, safety, and affordability 
of the homes, as well as the implementing regulations to 
monitor and enforce compliance with the standards. The quality, 
durability, safety, and affordability of homes must be 
considered by the MHCC, the public during the public comment 
period, and HUD in its rulemakings regarding manufactured 
housing.
    HUD also administers the Manufactured Home Installation 
Program (24 CFR 3286) that regulates installation (including 
installation of attached accessory building or structure) in 
all States unless a State has been accepted by HUD to 
administer its own qualifying installation program. All States 
must meet HUD's model installation standards, and States that 
administer their own installation program may choose to exceed 
HUD's minimum requirements.
    HUD's model manufactured home installation program ensures 
that States have in place minimum installation standards that 
include ensuring the home and any attached accessory building 
or structure are safe, sound, and habitable; further, States 
can exceed HUD's minimum installation standards if they so 
choose. HUD will continue to regulate installation in States 
that have decided not to administer their own qualifying 
installation program.
    The quality, durability, safety, and affordability of homes 
must be considered by the MHCC, the public during the public 
comment period, and HUD in its rulemakings regarding 
manufactured housing.

Q.8. During the financial crisis, HUD built upon existing 
programs to give low- and moderate-income prospective 
homeowners an opportunity to purchase homes that came into 
HUD's real estate owned (REO) portfolio within their 
communities. But last year HUD reported that nearly two-thirds 
of FHA homes that went through foreclosure were sold through 
third party sales in which there is no first look or preference 
for owner-occupants, including teachers and firefighters, or 
monitoring of outcomes. While there is a benefit to 
transferring vacant properties quickly to avoid blight, there 
is a much longer term cost if those properties go to out-of-
State investors, absentee landlords, or for-profit contract for 
deed lenders who do not repair or maintain the property.
    If you are confirmed, do you commit to begin collecting and 
publishing data on FHA asset dispositions, including both REO 
and third party sales, that includes information on the time to 
sale, the ultimate purchaser, the end use (rental/home 
ownership/other), whether the property went through any FHA 
programs (like the Good Neighbor Next Door program) intended to 
transfer the property to an owner or community partner, and the 
cost of repairs? If not, why not?
    If confirmed, will you prohibit the transfer of any FHA 
property, whether from REO or through the third party sales 
process, to a for-profit owner who intends to sell the property 
through a predatory contract for deed or similar arrangement? 
If not, why not?
    If confirmed, will you commit to expand the requirement for 
a first look for homeowners and community purchasers to 
additional REO sales, as well as third party sales? If not, why 
not?

A.8. If confirmed, I will evaluate and strengthen each program 
to ensure fair treatment of borrowers and encourage 
participation by nonprofit partners.
    FHA publishes a significant amount of data on its asset 
disposition currently. That data can be found at: https://
www.hud.gov/program-offices/housing/hsgrroom#Reports. The 
additional data requested is not collected and I understand 
that FHA would have no way to accurately and efficiently 
collect many of the data points identified, even from public 
records. The third-party sales are what FHA refers to as its 
Claims Without Conveyance of Title program (CWCOT). The CWCOT 
program is where the Mortgagee attempts to secure a third-party 
purchaser for the mortgaged property at foreclosure sale so 
that conveyance to HUD is not required in exchange for mortgage 
insurance benefits. This process allows the property to return 
to the market quickly through an auction that is open to the 
public, so everyone has an equal opportunity to purchase the 
property. Separate of being a blight deterrent, third-party 
sales realize a significantly improved recovery rate compared 
to REO dispositions, saving taxpayer funds. Overall, FHA's 
asset disposition programs should be calculated to protect the 
Mutual Mortgage Insurance Fund as well as to protect and 
sustain communities.

Q.9. While you were the Principal Assistant Director at OMB, 
HUD and the Department of Treasury proposed housing finance 
reform plans.
    Did you participate in the development of, offer feedback 
on, review, or approve those plans?
    Please describe your role in the development of these 
proposals.
    The HUD plan proposes to implement ``tiered pricing'' for 
FHA loans, which would raise the cost of home ownership for the 
borrowers who can least afford it without lower costs for 
others. \9\
---------------------------------------------------------------------------
     \9\ The plan states that tiered pricing ``would not open new 
markets to already served by private mortgage providers, which FHA 
would not lower premiums on its 30-year fixed rate product through this 
effort.'' See p. 20.
---------------------------------------------------------------------------
    How does raising costs on eligible borrowers facilitate 
access to home ownership?
    How would raising the price of home ownership through 
tiered pricing as HUD has proposed help or hinder FHA's ability 
to serve a countercyclical role and stabilize the mortgage 
market?
    In both the HUD and Treasury housing finance reform plans, 
the agencies expressed concern about ``duplicating support'' by 
establishing eligibility criteria that would allow some 
homeowners a choice between an FHA loan and a Fannie Mae or 
Freddie Mac backed loan. But a borrower does not take out two 
mortgage loans at one time on the same property. How is giving 
borrowers choice ``duplicating support''?
    The HUD plan proposes to make FHA its own Government 
corporation, which the report says will ``provide the agency 
tools and resources necessary to make appropriate risk 
decisions to respond to changing markets.'' While it is 
critical that FHA and all HUD programs have the tools and 
resources they need, it is not clear how making FHA a 
Government corporation would provide additional resources. As 
part of this proposal, would FHA retain its receipts, which 
currently help fund other HUD programs, to increase resources? 
If FHA did not retain these receipts, how would changing FHA's 
structure to a corporation structure provide additional 
resources?

A.9. FHA proposes a tiered pricing approach that would roughly 
mirror the current GSE pricing structure for high LTV loans 
while maintaining the most important benefits of cross 
subsidization. This structure would be revenue neutral at the 
loan level to FHA's current pricing for all FHA borrowers and 
anticipated to improve the welfare of all FHA borrowers as the 
loan seasons.
    A central principle of the Administration's Housing Finance 
Reform plan is that Federal mortgage credit policies should be 
better coordinated in order to allow qualified borrowers to 
access responsible and affordable borrowing options and 
choices. Coordination ensures that there is not unhealthy and 
irresponsible competition between Government-supported 
programs, which can lead to lower underwriting standards, 
increase risk to taxpayers, and threaten the long-term 
availability of credit to qualified borrowers.
    With respect to my participation in specific decisions, 
your question seeks the substance of communications between the 
White House and OMB, the disclosure of which would reveal 
confidential, deliberative, and internal Executive Branch 
information.

Q.10. The HUD Budget's Congressional Justification notes that 
there is a positive correlation between housing counseling and 
better credit and fewer foreclosures. \10\ In recent weeks, the 
Consumer Financial Protection Bureau, the Fannie Mae, Freddie 
Mac, the FHA, the Department of Veterans Affairs, and the 
Department of Agriculture have all recommended that homeowners 
experiencing a hardship contact a HUD-certified housing 
counselor, but HUD has not requested any additional resources 
for counseling providers.
---------------------------------------------------------------------------
     \10\ https://www.hud.gov/sites/dfiles/CFO/documents/
28_FY21CJ_Program_HCA.pdf
---------------------------------------------------------------------------
    If confirmed, will you advocate for significant 
supplemental resources to provide HUD-certified housing 
counseling services to millions of struggling homeowners and 
renters? If not, how will counselors be able to fund the staff 
necessary to provide the counseling resources that Federal 
agencies have recommended they seek?

A.10. If confirmed, I will take a fresh look at ways we can 
incentivize housing counseling as a tool to provide homeowners 
and potential borrowers with information to maximize the level 
of success of all borrowers.
    Last year, HUD-approved housing counselors provided 
approximately one million families with counseling services 
related to homebuying, preserving home ownership, rental 
assistance, disaster relief, and with reverse mortgages. 
Agencies generally raise five to six dollars for every dollar 
provided by HUD. During the housing crisis, counselors were 
able to provide counseling services to three times as many 
clients due to the additional funding provided by Congress at 
the time.

Q.11. In recent years, for-profit owners and out-of-State 
investors have purchased properties providing project-based 
rental assistance and allowed those properties to fall into 
disrepair. Too often tenant complaints go unaddressed and 
elevator outages, water leaks, mold, and infestations become 
part of tenants' daily life. Neglect of existing properties 
endangers the lives of current tenants and threatens the 
viability of critical sources of affordable housing.
    If confirmed, what steps will you take to improve 
inspections and subsequent repairs of the assisted units within 
the Office of Housing's jurisdiction?
    If confirmed, how will you ensure that tenants have the 
information they need to report unaddressed maintenance and 
nonresponsive property owners and managers?

A.11. Secretary Carson has made the restructure of HUD's 
inspection program, under HUD's Real Estate Assessment Center 
(REAC), a priority of his administration. To that end, since 
2017, HUD has been undertaking a wholesale reexamination of the 
REAC physical inspection process and are working to modernize 
its inspection model.
    HUD is currently revising the methodology for physical 
inspections to make it more accurate, consistent, and less 
complex for program participants. Meeting these goals will 
improve the quality of life for many residents in HUD-assisted 
facilities. If confirmed, I will continue to work with HUD's 
Office of Public and Indian Housing, which oversees REAC, to 
ensure that any new model is implemented and Congress receives 
as much transparency as possible on the process. Within the 
Office of Housing, I will regularly and closely monitor the 
Quarterly Report to Congress on Oversight of Property Owners 
and Multifamily Properties Assessed through HUD's Real Estate 
Assessment Center (Section 219), and will strive to ensure that 
Multifamily staff continue to enforce owners' addressing and 
correcting REAC inspection deficiencies, local code violations, 
and resident complaints in a timely manner.

Q.12. Property owners and property maintenance organizations 
often hold or operate across multiple HUD-financed or -
subsidized properties. In some cases, these owners and 
maintenance organizations are allowed to continue to operate or 
expand operations across multiple properties or States even as 
some of their properties deteriorate and endanger the health 
and safety of residents.
    If confirmed, how will you ensure that owners or managers 
that are not taking appropriate steps to address health and 
safety concerns are not allowed to reduce the value of or 
service at other HUD-financed or -subsidized properties?

A.12. The Office of Multifamily Housing has in place a robust 
review of all applications for the transfer or assignment, of 
Section 8 HAP contracts. That review process ensures that 
prospective owners who do not have the requisite monetary 
resources or management oversight to manage a Section 8 
property will not be approved for the transfer. Also, the 
review includes an examination of owner compliance with their 
business agreements on existing HUD properties.
    In addition, the Multifamily staff, working with HUD's 
Office of General Counsel, are monitoring owners with larger, 
national portfolios, and have taken actions against poorly 
performing owners in an effort to enforce compliance or have 
them divest of their HUD properties. I will work with the 
Multifamily Housing staff to ensure they continue to 
effectively implement the above procedures and will review 
staff property level oversight to ensure that property 
condition and resident health are in the forefront of the 
monitoring regime.

Q.13. While you were at OMB you signed off on one budget and 
helped develop another that would have eliminated funding for 
the Community Development Block Grant (CDBG) program and the 
HOME Investment Partnerships (HOME) program, while making 
devastating cuts to other housing and community development 
funds. But in the weeks between the declaration of the COVID-19 
national emergency and when communities will receive additional 
CARES Act funds, HUD recommended that communities use the very 
CDBG funds you would have eliminated to provide testing and 
diagnostic services, provide grants and loans to small 
businesses to manufacture critical medical supplies, and help 
small businesses that were struggling. \11\
---------------------------------------------------------------------------
     \11\ https://www.hud.gov/sites/dfiles/Main/documents/Quick-Guide-
CDBG-Infectious-Disease-Response-031920.pdf
---------------------------------------------------------------------------
    If Congress had enacted the budget that was proposed under 
your leadership, there would have been significant effects on 
the communities on the front lines responding to the health 
consequences of this pandemic. Do you still support the cuts in 
those two budgets?

A.13. The Office of Management and Budget has an extensive role 
in supporting agencies as they implement the President's 
priorities and agenda, including working with them to formulate 
the President's Budget. The CDBG program was proposed for 
elimination because its mission can best be performed at the 
State and local levels, thereby freeing up scarce taxpayer 
resources for programs targeted at more vulnerable populations, 
including the rental assistance programs administered by the 
Office of Housing, which I would lead if confirmed. Because 
grantees had unspent CDBG funds in their accounts, it is my 
understanding that HUD's Office of Community Planning and 
Development provided them with flexibility so they could use 
these funds to respond to the current pandemic.

Q.14. In the HUD budget proposals released and developed during 
your time at OMB, HUD proposed to double rents for the lowest 
income HUD-assisted renters, impose arbitrary work requirements 
those households, and allow disparate rent policies set by 
local public housing agencies or even a private building owner.
    If Congress had enacted the rent reforms HUD proposed, how 
would those higher rents, disparate rent policies among 
landlords administering the same HUD-assisted programs, and 
work requirements have directly affected the housing and 
financial stability of HUD-assisted families?
    If confirmed, will you continue to support implementing the 
proposed rent reforms, including doubling rents on the lowest 
income households living in the 1.2 million units in the 
project-based rental assistance units, low-income senior 
housing, and housing for persons with disabilities that would 
be within your jurisdiction? If so, why?

A.14. I support the Administration's proposed rent reforms and 
want to work with Congress to strengthen the Office of 
Housing's rental assistance programs. That said, if confirmed, 
my top priority will be to respond to the current coronavirus 
pandemic.

Q.15. A month after passage of the CARES Act, HUD's Inspector 
General published a memorandum detailing its review of the 
websites of the 30 largest FHA mortgage servicers. \12\ The 
Inspector General found that the written material readily 
available on some of these large servicers' websites had not 
been updated to reflect the changes made in the CARES Act, did 
not include information about the availability of forbearance 
for borrowers facing a financial hardship, or gave the 
impression that the borrower would be required to pay back all 
missed payments in a lump sum at the end of forbearance.
---------------------------------------------------------------------------
     \12\ https://www.hudoig.gov/sites/default/files/2020-04/
Single%20Family%20Mortgage
%20Forbearance%20Brief.pdf
---------------------------------------------------------------------------
    If confirmed, what steps will you take to ensure that all 
FHA servicers are complying with all legal requirements and FHA 
Mortgagee Letters, including those implementing the CARES Act?
    Will you conduct reviews of servicers' written materials, 
websites, and audio communications with borrowers to ensure 
that all servicers comply with the law and that all borrowers 
are treated equitably? If not, why not?

A.15. If confirmed, I will be committed to ensuring that 
mortgage servicers meet all FHA program requirements and their 
responsibilities to borrowers, including specific actions 
implementing the CARES Act.

Q.16. In response to the CARES Act, FHA issued a Mortgage 
Letter detailing post-forbearance options for homeowners, 
including a partial claim and standard loss mitigation. But 
borrowers who were struggling prior to COVID-19 or who have 
faced a natural disaster in the past may not have access to the 
same options to get back on track and stay in their homes.
    If confirmed, will you review barriers to borrowers 
accessing a partial claim, including being the victim of a 
prior natural disaster, and take steps to ensure that all 
borrowers who could remain in a sustainable loan with a partial 
claim at the end of forbearance have access to that option?
    If confirmed, will you ensure that any borrower who was in 
a trial modification or performing in a modified loan 
immediately prior to the national emergency is not penalized, 
either by loss of the ability to access an affordable 
modification or in their credit, by accessing the forbearance 
provided for in the CARES Act?

A.16. If confirmed, I will commit to reviewing the FHA loss 
mitigation waterfall to ensure that all options available to 
borrowers are appropriately tailored to the current situation.

Q.17. If confirmed, will you commit to cooperate with all 
Inspector General investigations, including providing timely 
access to all requested documents and e-mails; making yourself 
available for personal interviews; and allowing staff under 
your supervision to participate in requested interviews without 
the presence of a HUD attorney representing the interests of 
the Department?

A.17. I commit to complying with all legal obligations and the 
terms established through the normal accommodation process.

Q.18. During your nomination hearing, you were asked whether 
there was anything within the FHA Commissioner and Assistant 
Secretary for Housing's jurisdiction that Congress should be 
thinking about for future legislation passed in response to 
COVID-19. In response, you mentioned additional flexibility but 
did not mention any need for resources to support the millions 
of people who lose jobs and income, homeowners needing help 
navigating the mortgage system, or housing providers, 
particularly those providing housing to vulnerable seniors, who 
are required to do additional cleaning.
    If confirmed, what additional funding would you recommend 
that Congress provide in response to COVID-19 to help low-
income seniors, low-income individuals and families, or 
homeowners stay safe and navigate the system? If you would not 
recommend any additional funding, why not?

A.18. The Office of Housing has utilized existing flexibilities 
and those provided through the CARES Act to support homeowners 
in preserving their homes and owners/sponsors to facilitate the 
continued operations of properties and facilities in our 
insured and/or assisted multifamily and healthcare portfolios 
(nursing homes/hospitals). Fund assignments for CARES Act 
dollars were executed expeditiously and directed to service 
coordinators and income loss gap coverage for the extremely low 
income and very low-income residents of Sec 202 Housing for the 
Elderly and Section 811 Housing for Persons with Disabilities 
properties.
    In my testimony I was referring to the need for additional 
flexibilities, not included in the CARES Act, to prevent, 
prepare for, and respond to COVID-19. For example, while the 
CARES Act provides flexibilities for homeowners and multifamily 
property owners, there was no mention maintaining operations of 
the residential care facilities (nursing homes) and hospitals 
in the FHA-insured portfolio.
    I agree that the nearly 33.5 million U.S. workers that have 
filed for unemployment benefits will need assistance to stay in 
their homes, owned or rented. While HUD traditionally targets 
rental assistance to those underserved by conventional housing 
markets, I would be happy to meet and discuss additional 
funding strategies for providing rental assistance to people 
who have lost their job and were earning more than the area 
median income that HUD programs target.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
                SENATOR MENENDEZ FROM DANA WADE

Q.1. Over the past 3 years, during which when you were acting 
FHA Commissioner and Program Associate Director at the Office 
of Management and Budget (OMB), the President's budget included 
a proposal to raise rents by an average of 44 percent in 
federally assisted housing and triple rents for the lowest 
income households, according to the Center for Budget and 
Policy Priorities.
    With the current unemployment rate at 12.4 percent and the 
Congressional Budget Office estimating the unemployment rate 
will remain above 9.5 percent at least until the end of 2021, 
do you think families living in HUD-assisted housing will be 
able to afford HUD's proposed rent increases? If you do believe 
families in HUD-assisted housing can afford rent increases 
during this unprecedented economic turmoil, please provide data 
and analysis supporting your justification.
    Will you commit to abandoning this dangerous plan if you 
are confirmed? If not, why not?

A.1. I support the Administration's proposed rent reforms and 
want to work with Congress to strengthen the Office of 
Housing's rental assistance programs. That said, if confirmed, 
my top priority will be to respond to the current coronavirus 
pandemic.

Q.2. As we discussed in your hearing, when the protections in 
the CARES Act run out, we could be facing a foreclosure crisis 
even greater than the one we faced in the Great Recession. In 
the coming months, families unable to pay their mortgage will 
need to navigate the complexity of requesting and accessing 
mortgage relief programs. Homeowners already in forbearance 
will have to work with their mortgage servicers to repay 
forborne amounts.
    Given the quickly changing economic circumstances and the 
complicated differences in forbearance repayment options 
offered by both federally backed agencies and private lenders, 
do you believe Congress should consider increasing resources 
for HUD-approved housing counselors to help American families 
make educated mortgage decisions as the country works through 
this crisis?

A.2. Yes, housing counselors are well-positioned to assist 
homeowners with understanding the loss mitigation/mortgage 
relief options available through both the FHA and conventional 
lenders. Last year, HUD-approved housing counselors provided 
approximately one million families with counseling services 
related to homebuying, preserving home ownership, rental 
assistance, disaster relief, and with reverse mortgages. During 
the aftermath of the financial crisis of 2008, counselors were 
able to provide counseling services to three times as many 
clients due to the additional funding provided by Congress at 
the time.

Q.3. Over the last few years, HUD has relocated key multifamily 
housing staff from its office in Newark to the New York 
regional office. As a former mayor, I understand that this 
presents a significant challenge for residents, landlords, and 
property managers. It's critical that HUD maintains boots on 
the ground that are familiar with the local conditions and 
issues facing residents throughout the State, especially as the 
COVID crisis places particular strain on New Jersey's 
multifamily market.
    If confirmed, what are you going to do to make sure the 
Newark office has the staff it needs and that New Jersey 
remains a priority at HUD?

A.3. I want to extend to you that same offer made by my 
predecessor, Brian Montgomery. If you or your staff are aware 
of specific instances in which New Jersey is receiving 
inadequate multifamily coverage from HUD, please do not 
hesitate to bring them to my attention. There are currently 722 
active properties in the multifamily portfolio in New Jersey, 
and I agree that HUD must make providing decent, safe and 
affordable housing to the families who reside in them a 
priority.
    In addition, when it is safe for residents and communities 
in light of COVID-19, I am happy to visit these properties and 
view any issues or challenges firsthand. I am also always happy 
to talk to your constituents regarding their concerns.
    It is my understanding that earlier this year, the Office 
of Housing conducted a quality control review of the Northeast 
Region Multifamily Office to address your concerns regarding 
customer service for New Jersey. This assessment included an 
overview of staffing composition, workload management, and 
challenges and opportunities for the Multifamily Northeast 
Region (the Region), and more specifically New York and New 
Jersey.
    Properties in New Jersey are assigned to 17 different 
project managers. The average portfolio size for an account 
executive with New Jersey properties is 76.3 properties; the 
average portfolio size for Resolution Specialists with New 
Jersey properties is 30.4. These portfolio size numbers are 
consistent with Office of Multifamily Housing national 
averages.
    The Office of Multifamily Housing utilizes a workload 
tracking system that allows managers to track workload volume 
and output in real time. FY19 data reflect that the Northeast 
Region as a whole processed nearly 90 percent of the work items 
on time. Northeast Region Managers will use this system to 
monitor New Jersey work volume and timeliness of response and 
take corrective action, including shifting workload or assets, 
if numbers reflect the need.
    The New York Regional Center anticipates hiring three (3) 
additional account executives, which would decrease the average 
portfolio size for all account executives serving New York and 
New Jersey from 81.3 to 72.3 properties per account executive.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
                         FROM DANA WADE

Q.1. Affordable Housing--Montana, and many areas of the 
country, face challenges of housing availability, 
affordability, and aging housing stock. As you know, this is a 
significant issue for rural as well as urban areas and is one 
of the largest barriers to success nationally. In Montana, lack 
of workforce housing is one of the greatest inhibitors of 
economic development.
    What can be done to increase workforce housing and 
encourage more affordable housing to be built?
    What do you see as the largest barrier to affordable 
housing, particularly in rural areas?
    How do you implement an effective affordable housing 
strategy nationally? In rural America? In Indian Country?
    How has your work at the Department of Housing and Urban 
Development (HUD) and the Office of Management and Budget (OMB) 
impacted housing in rural America? Where is there room for 
additional efforts to support rural housing at Federal Housing 
Administration (FHA) and HUD?

A.1. I believe FHA has a very important role in creating, 
preserving, and increasing affordable housing opportunities 
across America, including rural areas and Indian Country. 
Regulatory barriers continue to be one of the largest 
impediments to the construction of affordable housing. I 
support this Administration's efforts to reduce overly 
burdensome requirements that drive up the cost of housing 
through the White House Council on Eliminating Regulatory 
Barriers to Affordable Housing which is led by Secretary 
Carson.
    Through its single family, multifamily, and healthcare 
insurance programs, FHA provides access to credit in markets, 
including rural, which might otherwise be underserved. FHA 
insurance products are sought by lenders and borrowers to fill 
needs that other capital providers fail to support.
    In Fiscal Year 2019, 63 percent of FHA's multifamily 
production was affordable, and HUD brings that experience to 
workforce housing. Providing mortgage insurance for workforce 
housing is also an important component of FHA multifamily's 
mission and I would be happy to work with you on ways to spur 
production in this area. During these difficult times, the 
countercyclical role of FHA is more important than ever to meet 
the unmet needs of borrowers.
    In addition to FHA's programs to serve homeowners, renters, 
and low-income, senior, and disabled populations throughout the 
country, the Office of Housing works with other HUD offices, 
including the Office of Public and Indian Housing and the Rural 
Housing and Economic Development program within Community 
Planning and Development, to support rural and Native American 
populations.

Q.2. Trump Budgets--Affordable housing is an issue across this 
country yet President Trump's budgets have eliminated nearly 
every affordable housing program and take an axe to others like 
the housing counseling program which you would be in charge of 
in your role at the FHA. These programs are critical in 
Montana.
    Please describe your role in these budgets during your 
previous time at HUD and while at OMB.
    What will you do to support affordable housing construction 
and rehabilitation?
    Will you advocate the importance of these programs with the 
President and Secretary?

A.2. I will do my utmost to address the Nation's affordable 
housing needs. Key to this is supporting innovative approaches 
to preserving and constructing affordable units. Focusing on 
very low income and low income affordable housing need, I will 
expand on FHA's successes leveraging housing tax credit equity 
(4 percent and 9 percent) with FHA mortgage insurance products, 
Section 202 Housing for the Elderly and Section 811 Housing for 
persons with Disabilities programs. FHA and HUD have 
streamlined the processes and requirements to better utilize 
housing tax credits in multifamily new construction and 
preservation transactions. Additionally, I will support FHA's 
continued work with the Office of Public and Indian Housing 
through the successful Rental Assistance Demonstration (RAD) 
Program to rehabilitate and/or reconstruct public housing, 
serving extremely low income and very low-income residents.

Q.3. COVID-19--As you know, many Public Housing Authorities 
(PHAs) have closed or reduced operations due to COVID-19.
    How will you ensure that Section 8 and HUD-VASH vouchers 
are being utilized while also ensuring the safety of rental 
units?
    As many States move forward with reopening, Montana being 
one of them, what assistance and guidance are you providing 
PHAs in regards to reopening?

A.3. The programs covered by these questions are run by HUD's 
Office of Public and Indian Housing. HUD's congressional 
affairs staff would be pleased to reach out to your office to 
ensure we answer your questions about these important programs.

Q.4. HUD-VASH--What are your thoughts on the HUD-VASH program?
    Funding for new HUD-VASH vouchers has remained the same for 
several years. Do you think this funding is sufficient to 
achieve the goal of ending veteran homelessness?
    How will you work with the Department of Veterans Affairs 
to administer the HUD-VASH program and ensure that homeless 
veterans get access to affordable housing in a timely manner?
    How will you work to address barriers in the Tribal HUD-
VASH program?
    How will you work to ensure that we enhance this program to 
make sure that it works even more efficiently in rural 
America--places like Miles City, Montana?

A.4. The programs covered by these questions are run by HUD's 
Office of Public and Indian Housing. HUD's congressional 
affairs staff would be pleased to reach out to your office to 
ensure we answer your questions about these important programs.

Q.5. Housing Finance Reform--Given this role and your previous 
responsibilities, I would like to get your thoughts on an issue 
that is very important to me.
    What are your thoughts on our housing finance system and do 
you support reforming the system?
    What are your thoughts on the Administration's 2019 housing 
finance reform proposal? And the FHA provisions specifically?
    Do you support a Government guarantee or a fully privatized 
system?

A.5. Yes, I do support reforming the housing finance system and 
the Administration's recent proposal to provide liquidity, 
support homeowners, and protect taxpayers. Right now, my top 
priority if confirmed would be making sure that coronavirus-
related assistance reaches homeowners and renters experiencing 
hardship through no fault of their own. FHA has an important 
countercyclical role to play during adverse economic events; 
regardless of the contours of future housing reforms, this 
should always be a part of FHA's mission.
    When the time is right, I would look forward to working 
with Congress on housing finance reform. I support structural 
changes to FHA that would provide more autonomy and enable its 
sole focus to be supporting low-to-moderate income homeowners 
and managing risk to taxpayers. FHA's explicit guarantee of the 
Federal Government has enabled it to perform its mission of 
providing access to credit for mostly first-time borrowers. I 
support proposals that would expand the role of the private 
sector in housing finance and believe that they can be 
accomplished while preserving FHA's focus on creditworthy 
borrowers who may be underserved by traditional markets.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                         FROM DANA WADE

Q.1. What was your involvement in putting together the 2019 
Department of Housing and Urban Development's Housing Finance 
Reform Plan?
    Are there any aspects of this plan that you disagree with 
or would like to be changed?

A.1. I fully support both HUD's and the Treasury Department's 
Housing Finance Reform plans. Other portions of this question 
seek the disclosure of confidential, deliberative, and internal 
Executive Branch information.

Q.2. At your confirmation hearing you stated, if confirmed, you 
would, ``monitor vigilantly'' whether mortgage servicers were 
providing fair treatment for homeowners entering into 
forbearance during the COVID-19 crisis.
    What specific actions would you take, if confirmed, to 
monitor servicer actions and compliance with the law, and 
address any unclear or unfair conduct you identify?

A.2. If confirmed, I will be committed to ensuring that 
mortgages servicers meet all FHA program requirements and their 
responsibilities to borrowers. FHA's servicing and loss 
mitigation requirements provide specific instructions on 
working with borrowers who are unable to make their payments. 
If any servicer fails to comply with FHA's requirements, FHA 
can take a variety of actions ranging from providing increased 
technical assistance and increased monitoring to making a 
formal referral to HUD's Mortgagee Review Board (MRB) in the 
case of more serious violations. Sanctions imposed by the MRB 
can include civil money penalties and suspension or withdrawal 
from the program. I will also commit to working with other 
agencies within the Federal Government, including the Consumer 
Financial Protection Bureau and Federal Housing Finance Agency 
to explore sharing information on mortgage servicer performance 
where appropriate.

Q.3. You served as Associate Director for General Government at 
the OMB when HUD issued its proposed Disparate Impact rule, 
Mixed Status rule, and Affirmatively Furthering Fair Housing 
rule.
    Are there any aspects of the disparate impact proposed rule 
that you disagree with or would like to be strengthened?
    Are there any aspects of the mixed status proposed rule 
that you disagree with or would like to be strengthened?
    Are there any aspects of the affirmatively furthering fair 
housing proposed rule that you disagree with or would like to 
be strengthened?

A.3. The Office of Management and Budget has an extensive role 
in supporting agencies as they implement the President's 
priorities and agenda, which includes reviewing legislative 
proposals, regulatory proposals, notices/reports and the 
availability of budgetary resources. With respect to my 
participation in specific decisions, your question seeks the 
substance of communications between the White House and OMB, 
the disclosure of which would reveal confidential, 
deliberative, and internal Executive Branch information.

Q.4. At his nomination hearing, in response to a question about 
HUD Secretary Ben Carson raising the rents in federally 
assisted housing, former FHA commissioner Brian D. Montgomery 
stated: ``no mass evictions will occur as long as I am FHA 
commissioner, Assistant Secretary for Housing.''
    Will you make this same pledge if confirmed?
    Will you commit to evaluating the potential impact of rent 
raises on affordability and potential evictions before issuing 
any proposals or taking action to raise rents in federally 
assisted housing?

A.4. No mass evictions will occur as long as I am FHA 
Commissioner and I will always evaluate the impact of changes 
in rent on the programs run by the Office of Housing.

Q.5. HUD's requested budget for fiscal year 2021 includes no 
funding for the Public Housing Capital Fund. There is currently 
an estimated $70 billion backlog in critical repairs and 
maintenance for existing public housing. This backlog results 
in approximately 10,000 public housing units being lost every 
year, and subjects tens of thousands of residents to living in 
unsafe and unhealthy conditions.
    If confirmed, would you advocate for funding for the Public 
Housing Capital Fund?

A.5. The Public Housing Capital Fund is administered by HUD's 
Office of Public and Indian Housing and therefore would be 
outside my purview if I am confirmed to serve as Federal 
Housing Commissioner and Assistant Secretary for Housing.

Q.6. Do you believe there is a national affordable housing 
crisis?

A.6. If confirmed, I will prioritize the issue of affordable 
housing. Across the country, Americans are stretching their 
finances too far to be able to afford a place to live. Far too 
many households are rent-burdened and housing supply does not 
match demand in many areas, creating undue pressures on low-to-
moderate income workers and families. Many Americans are 
finding it increasingly difficult to reside near good schools, 
places of work, and access to transportation. Nurses, 
firefighters, teachers, and cops often cannot afford to live in 
the communities that they serve. Exacerbating this problem is 
the financial strain and uncertainty caused by the COVID-19 
pandemic.
    I believe that FHA must help to alleviate these 
affordability burdens, made more difficult by the current 
health crisis. If confirmed, my goals would be to run a strong 
and sustainable FHA that can play an important countercyclical 
role in providing access to mortgage credit during this time. I 
support recent HUD policies to expand access to condo markets 
and manufactured housing, both of which are important options 
for first-time homebuyers. In addition, FHA's multifamily loan 
program is and will continue to step in to increase affordable 
rental housing supply for low-to-moderate income families. If 
confirmed, I also hope to participate in several of the 
Administration's initiatives to address housing 
unaffordability, including through the Councils on Opportunity 
Zones and Eliminating Regulatory Barriers to Affordable 
housing.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
               SENATOR VAN HOLLEN FROM DANA WADE

Q.1. As the Associate Director for General Government at OMB 
what role did you have in overseeing HUD's proposed 
Affirmatively Furthering Fair Housing (AFFH) rule? As the 
nominee to be Commissioner of FHA, do you support this proposed 
rule? Can you also please describe why you think it's 
appropriate to give lenders a safe harbor for policies or 
practices driven by algorithms?

A.1. I support HUD's proposed Affirmatively Furthering Fair 
Housing (AFFH) rule, though it will be outside my purview if I 
am confirmed to serve as Federal Housing Commissioner and 
Assistant Secretary for Housing. With respect to my 
participation in specific decisions, your question seeks the 
substance of communications between the White House and OMB, 
the disclosure of which would reveal confidential, 
deliberative, and internal Executive Branch information.

Q.2. Last week, the Mortgage Bankers Association reported that 
nearly 7 percent of the mortgage market was in forbearance. The 
largest segment of borrowers in forbearance have mortgages 
backed by the FHA or VA. According to the report, 9.73 percent 
of the loans in Ginnie Mae's portfolio are in forbearance. 
That's an increase of 1.47 percent from the previous week's 
total of 8.26 percent. How do you plan to ensure servicer 
compliance with the CARES Act forbearance provisions? How do 
you plan to work with the FHFA, Ginnie Mae, and the Federal 
Reserve to support homeowners and the mortgage market 
throughout this crisis? What do you anticipate will be the 
impact of the COVID crisis on the health of the Mutual Mortgage 
Insurance Fund (MMIF)? Do you plan on increasing mortgage 
insurance premiums? If so what impact would increasing premiums 
have on FHA's countercyclical role in the mortgage market?

A.2. If confirmed, I will be committed to ensuring that 
mortgage servicers meet all FHA program requirements and their 
responsibilities to borrowers, including those contained in the 
CARES Act. HUD is working closely with other governmental 
organizations to ensure a consistent response to the current 
COVID-19 crisis. HUD will continue with this collaborative 
effort under my leadership.
    The depth and length of the COVID-19 crisis will pose a 
challenge to the health of the MMIF. It is too early to predict 
the impact, although I will continue to monitor the data 
closely if confirmed. Under my last tenure at FHA and continued 
by Commissioner Montgomery, HUD has built up a capital reserve 
that is more than twice the statutory level. This will be 
important to protect taxpayers from losses moving forward.
    I understand that FHA is not currently planning to increase 
premiums. While the FHA Commissioner is statutorily required to 
maintain capital, I agree that it is also important during this 
time to provide steady access to credit to eligible borrowers 
and to ensure that the housing market is well-functioning.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
              SENATOR CORTEZ MASTO FROM DANA WADE

Q.1. Please provide details on how will you ensure that 
servicers provide clear and fair guidance on forbearance to 
homeowners.
    How will you ensure any lender seeking payment on the FHA 
guarantee has provided documentation on its compliance with 
loss mitigation requirements?
    Will you ensure FHA conducts oversight of servicers with 
appropriate sampling and review of companies and borrowers, and 
if so, how?
    Will you ensure FHA establishes a robust complaint and 
appeals process for borrowers who believe they have been 
subject to unfair treatment related to noncompliance with FHA's 
servicing requirements, including its loss mitigation 
requirements? If yes, how?
    Will you report annually to Congress regarding the types 
and volume of complaints received from borrowers who allege the 
rules for loss mitigation were not followed?

A.1. If confirmed, I will be committed to ensuring that 
mortgage servicers meet all FHA program requirements and their 
responsibilities to borrowers. FHA's servicing and loss 
mitigation requirements provide specific instructions on 
working with borrowers who are unable to make their payments. 
If any servicer fails to comply with FHA's requirements, FHA 
can take a variety of actions ranging from providing increased 
technical assistance and increased monitoring to making a 
formal referral to HUD's Mortgagee Review Board (MRB) in the 
case of more serious violations. Sanctions imposed by the MRB 
can include civil money penalties and suspension or withdrawal 
from the program. As Federal Housing Commissioner, I would 
chair the MRB. I will also commit to working with other 
agencies within the Federal Government, including the Consumer 
Financial Protection Bureau and Federal Housing Finance Agency 
to explore sharing information on mortgage servicer performance 
where appropriate.

Q.2. How will you ensure that any action taken by FHA or the 
Office of Housing will not have a disparate impact on 
households who've historically faced discrimination? If so, 
how?

A.2. If confirmed, I will be committed to ensuring that actions 
taken by FHA and the Office of Housing comply with all 
applicable legal requirements, including antidiscriminatory 
laws.

Q.3. Will you ensure HUD continues to support living wages for 
construction workers so that those workers can afford a home, 
too, and continues to require environmental assessments prior 
to construction? If so, how?

A.3. If confirmed, I will maintain HUD's commitment to its 
mission of providing affordable housing and to ensuring that 
owners and lenders comply with all applicable environmental 
laws and regulations.

Q.4. How will you ensure HUD supports transit-oriented 
development that is designed to reduce income inequality, 
increase equity, and fight climate change?

A.4. The FHA mortgage insurance programs currently support 
transit-oriented development, typically through the new 
construction programs 221(d)4 and 220. These programs allow 
borrowers to select sites close to transit hubs and HUD 
considers the proximity to public transit to be a marketing 
benefit, improving the overall strength of the transaction. In 
addition, the FHA mortgage insurance programs have rigorous 
environmental review standards, ensuring that all FHA insured 
mortgaged properties are fully compliant with NEPA and Federal 
energy standards.
    Sixty-three percent of the loans HUD approved in fiscal 
year 2019 were affordable. I will work with Office of Housing 
staff to ensure they continue supporting borrowers seeking to 
build transit-oriented development, to preserve and expand the 
supply of affordable housing, and to implement the appropriate 
building standards.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                         FROM DANA WADE

Q.1. As housing affordability challenges continue to grow, many 
Arizonans are turning to manufactured homes for attainable, 
high-quality homes that do not create an unsurmountable 
financial burden. HUD provides financing for manufactured 
housing through the Federal Housing Administration's Title I 
and Title II programs, however, these programs are 
underutilized and outdated. If confirmed, how will you revise 
these FHA programs to improve access to financing for 
manufactured homes?

A.1. Manufactured housing is an important part of our Nation's 
housing stock which often provides an affordable entry point to 
home ownership for American families. Secretary Carson has made 
it a priority to revitalize HUD's role in facilitating the 
construction and financing of manufactured housing. If 
confirmed, I am committed to reviewing FHA's guidelines for its 
manufactured housing financing programs to ensure that access 
to sustainable mortgage credit is not unduly restricted.
              Additional Material Supplied for the Record
              
                LETTER OF REGRET FROM SENATOR TOM COTTON
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            LETTERS OF SUPPORT FORM NOMINEE BRIAN D. MILLER
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                LETTER OF SUPPORT FOR NOMINEE DANA WADE
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
